<html>
<title> - HARMFUL ALGAL BLOOMS AND HYPOXIA: STRENGTHENING THE SCIENCE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                          HARMFUL ALGAL BLOOMS
                       AND HYPOXIA: STRENGTHENING
                              THE SCIENCE

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY,
                             AND STANDARDS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 13, 2003

                               __________

                            Serial No. 108-8

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                                 ______


                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
85-516PS

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
VACANCY
                                 ------                                

         Subcommittee on Environment, Technology, and Standards

                  VERNON J. EHLERS, Michigan, Chairman
NICK SMITH, Michigan                 MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         JIM MATHESON, Utah
MICHAEL C. BURGESS, Texas            ZOE LOFGREN, California
VACANCY                              RALPH M. HALL, Texas
SHERWOOD L. BOEHLERT, New York
                ERIC WEBSTER Subcommittee Staff Director
            MIKE QUEAR Democratic Professional Staff Member
            JEAN FRUCI Democratic Professional Staff Member
                MARTY SPITZER Professional Staff Member
               SUSANNAH FOSTER Professional Staff Member
                ELYSE STRATTON Majority Staff Assistant
                MARTY RALSTON Democratic Staff Assistant



                            C O N T E N T S

                             March 13, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............     8
    Written Statement............................................     9

Statement by Representative Mark Udall, Minority Ranking Member, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    10
    Written Statement............................................    11

Prepared Statement by Senator George V. Voinovich from the State 
  of Ohio, U.S. Senate...........................................    11

                               Witnesses

Dr. Donald Scavia, Chief Scientist, National Ocean Service, 
  National Oceanic and Atmospheric Administration
    Oral Statement...............................................    14
    Written Statement............................................    16

Dr. Charles G. Groat, Director, United States Geological Survey, 
  U.S. Department of the Interior
    Oral Statement...............................................    21
    Written Statement............................................    23

Dr. Wayne W. Carmichael, Professor, Aquatic Biology and 
  Toxicology, Department of Biological Sciences; Associate 
  Director, Environmental Sciences Ph.D. Program, Wright State 
  University, Dayton, Ohio
    Oral Statement...............................................    27
    Written Statement............................................    29

Dr. Donald M. Anderson, Senior Scientist, Biology Department, 
  Woods Hole Oceanographic Institute, Massachusetts
    Oral Statement...............................................    37
    Written Statement............................................    39

Mr. Dan L. Ayres, Fish and Wildlife Biologist, Washington State 
  Department of Fish and Wildlife
    Oral Statement...............................................    53
    Written Statement............................................    55

Discussion
  Input on the Proposed Bill.....................................    57
  Economic Impacts of Harmful Algal Blooms.......................    59
  Research and Possible Treatments for HABs......................    60
  Potential Environmental Effects of Treatment Technologies......    61
  The Interagency Task Force on Harmful Algal Blooms and Hypoxia.    63

  Appendix 1: Biographies, Financial Disclosures, and Answers to Post-
                           Hearing Questions

Dr. Donald Scavia, Chief Scientist, National Ocean Service, 
  National Oceanic and Atmospheric Administration
    Biography....................................................    68
    Responses to Post-Hearing Questions..........................    69

Dr. Charles G. Groat, Director, United States Geological Survey, 
  U.S. Department of the Interior
    Biography....................................................    72
    Responses to Post-Hearing Questions..........................    74

Dr. Wayne W. Carmichael, Professor, Aquatic Biology and 
  Toxicology, Department of Biological Sciences; Associate 
  Director, Environmental Sciences Ph.D. Program, Wright State 
  University, Dayton, Ohio
    Biography....................................................    80
    Financial Disclosure.........................................    82

Dr. Donald M. Anderson, Senior Scientist, Biology Department, 
  Woods Hole Oceanographic Institute, Massachusetts
    Biography....................................................    83
    Financial Disclosure.........................................    85
    Responses to Post-Hearing Questions..........................    86

Mr. Dan L. Ayres, Fish and Wildlife Biologist, Washington State 
  Department of Fish and Wildlife
    Biography....................................................    90
    Financial Disclosure.........................................    91
    Responses to Post-Hearing Questions..........................    92

             Appendix 2: Additional Material for the Record

Statement of Dr. Robert E. Magnien, Director, Tidewater Ecosystem 
  Assessment, Maryland Department of Natural Resources...........    96

Draft of Bill to reauthorize the Harmful Algal Bloom and Hypoxia 
  Research and Control Act of 1998...............................    99

Copy of Title VI, Public Law 105-383, November 13, 1998..........   106


      HARMFUL ALGAL BLOOMS AND HYPOXIA: STRENGTHENING THE SCIENCE

                              ----------                              


                        THURSDAY, MARCH 13, 2003

                  House of Representatives,
      Subcommittee on Environment, Technology, and 
                                         Standards,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to other business, at 10:30 
a.m., in Room 2318 of the Rayburn House Office Building, Hon. 
Vernon J. Ehlers [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY,

                             AND STANDARDS

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                        Harmful Algal Blooms and

                   Hypoxia: Strengthening the Science

                        thursday, march 13, 2003
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, March 13, 2003, at 10:00 am the House Science 
Committee's Subcommittee on Environment, Technology and Standards will 
hold a hearing to receive testimony regarding research on harmful algal 
blooms and hypoxia. The Subcommittee will also review the assessments 
produced by the Harmful Algal Bloom and Hypoxia Task Force and the 
Mississippi River/Gulf of Mexico Watershed Nutrient Task Force.
    Harmful algal blooms (HABs) occur in aquatic environments when 
conditions trigger an increase in the abundance of plankton that 
produce toxins detrimental to aquatic life and to humans. HABs have 
been estimated to cost the U.S. economy as much as $50 million per year 
due to closure of fisheries and beaches and treatment of human illness 
from exposure to toxins. Hypoxia, caused by the decomposition of algal 
blooms (although not necessarily by a harmful algal bloom), is a 
condition where oxygen levels in an aquatic environment have been 
depleted to levels unable to support marine life. As such it disrupts 
the food webs that support fish and shellfish growth and causes 
economic and ecological damage of its own. The Subcommittee is 
reviewing the research provisions of the Harmful Algal Bloom and 
Hypoxia Research and Control Act of 1998 (HABHRCA) as it looks to 
reauthorize HABHRCA, which expired in 2001.
    The Subcommittee plans to explore several overarching questions, 
including:

        (1) LWhat is the state of the science in understanding the 
        causes of harmful algal blooms and hypoxia? To what extent 
        should future research efforts focus on freshwater vs. marine 
        blooms? What research and development efforts are needed to 
        enable better prediction of harmful algal blooms and hypoxia?

        (2) LWhat are the current impacts on the Nation from harmful 
        algal blooms and hypoxia? What research and development efforts 
        are needed to develop methods to control and mitigate those 
        impacts?

        (3) LHow successful was the 1998 Act in coordinating the 
        agendas and resources of federal agencies to address the 
        problems of harmful algal blooms and hypoxia? How should the 
        Act be amended to improve these efforts?

Witnesses:

Dr. Donald Scavia, Chief Scientist, National Ocean Service, National 
Oceanic and Atmospheric Administration (NOAA).

Dr. Charles G. Groat, Director, United States Geological Survey (USGS).

Dr. Wayne Carmichael, Professor, Aquatic Biology and Toxicology, 
Department of Biological Sciences, Wright State University, Dayton, 
Ohio.

Dr. Donald Anderson, Senior Scientist, Biology Department, Woods Hole 
Oceanographic Institute, Massachusetts.

Mr. Dan Ayres, Fish and Wildlife Biologist, Coastal Shellfish Lead, 
Washington Department of Fish and Wildlife.

Summary of Issues:

Under the 1998 Act the Task Force was required to produce two reports 
assessing harmful algal blooms and hypoxia at a national scale, however 
they were not required to provide nationwide action plans for following 
up on recommendations in those reports. While the national assessments 
are useful, the natural next step would be to develop nationwide 
research and management plans based on the information contained in the 
assessments.

Outbreaks of harmful algal blooms affect more than twice as many areas 
as they did in 1970, and the reasons for this increase in occurrences 
are unclear. Potential explanations include: natural causes, such as 
dispersal through storms and ocean currents; human-related causes, such 
as nutrient pollution; increased monitoring and identification of toxic 
phytoplankton; the introduction of new toxic algal species from ballast 
water; and, in the Great Lakes, the proliferation of invasive species 
such as zebra mussels which alter nutrient dynamics in the lakes. It is 
estimated that the average economic impacts from harmful algal blooms 
total $50 million per year in the U.S., although some individual severe 
algal blooms have cost that amount alone.

The quality of technology for detecting, modeling and predicting 
harmful algal blooms could be improved with focused research funding. 
For blooms producing pigments, such as red or brown tides, visual 
observation is often sufficient. But detecting an increase in algae 
before it reaches a harmful mass, or detecting harmful algae that do 
not produce pigments, requires sophisticated lab analysis in 
combination with observing systems in the water and on satellites. The 
technology exists, but the time from sampling to lab analysis is long 
and the expense remains quite large. Less cumbersome, cheaper, faster, 
and automated detection techniques would greatly benefit managers in 
responding to events more efficiently, such as when a resource manager 
needs to decide about issuing shellfish consumption warnings.

Funding for research on developing prevention, control and mitigation 
methods for harmful algal blooms has not been appropriated in the past. 
There was an authorization in the 1998 Act for funds for a merit-
reviewed research program on prevention, control and mitigation methods 
for harmful algal blooms, but little has been done at the federal level 
to facilitate research on this topic. NOAA has never requested funds 
for this purpose. There are two published reports with plans for this 
type of research, one authored by SeaGrant and the other by the Coastal 
Ocean Program (both part of NOAA). These plans could be used by NOAA to 
develop a research program for this area.

Water quality data collection and reporting is not consistent among 
different Federal and State agencies, reducing the effectiveness of the 
data for modeling of hypoxia. Successful modeling and monitoring to 
determine the presence and scope of a bloom requires the use of 
detection and assessment techniques in a systematic way, something that 
has not occurred in a consistent manner to date. To develop dependable 
models, scientists need reliable data from both freshwater and marine 
sources. Major federal sources of water quality data include USGS, 
which provides water quality data on rivers and streams through its 
stream gage network; the Environmental Protection Agency (EPA), which 
collects data from state surveys of lakes and coastal environments; and 
NOAA, which utilizes ocean and coastal observing programs with water 
buoys and satellite data to assess water quality. There have been no 
formal, effective efforts to coordinate the data collection methods so 
that the information can be easily consolidated and shared.

Efforts to understand freshwater harmful algal blooms and hypoxia in 
locations such as the Great Lakes have not been as extensive as 
research on marine harmful algal blooms and hypoxia. The Great Lakes 
have recently experienced an increase in the occurrence of harmful 
algal blooms and hypoxia, causing substantial decline in water quality. 
The reasons for this phenomenon are poorly understood, although one 
proposed explanation is that invasive species such as zebra mussels are 
altering nutrient behavior in the lakes.

Background:

    Algae are microscopic, single-celled organisms present in aquatic 
environments. Under normal conditions these organisms are benign and 
serve a critical role as energy producers at the base of aquatic food 
webs, supporting the growth of higher organisms. Under certain 
circumstances, however, the population of a single algal species or 
several related species will rapidly increase in abundance, creating 
what is referred to as an ``algal bloom.'' Algal blooms have many 
adverse effects on ecosystem and human health. ``Harmful algal blooms'' 
are blooms of algal species that produce toxins detrimental to humans 
and marine life. ``Hypoxia'' refers to the depletion of oxygen to 
levels unable to support marine life, a condition which often occurs 
when an algal bloom dies and is decomposed by bacteria.
Harmful Algal Blooms
    Harmful algal blooms (HABs) have occurred throughout recorded 
history, however in the past 30 years the rate of occurrence and the 
duration of harmful algal blooms have increased substantially. HABs 
present a major threat to aquatic environments and to human health 
because of the toxins released during the events. These compounds can 
kill or injure large quantities of marine life that come in direct 
contact with them. Also, toxins can accumulate in animals that are not 
susceptible and cause illness when they are later consumed by other 
animals and humans who are susceptible to the toxins. For some toxins, 
consumption of a single contaminated clam or mussel can be enough to 
cause illness. Humans may also be directly harmed by skin contact or 
inhalation of spray from toxin-contaminated water. To protect the 
public when harmful algae or toxins have been detected, State and local 
governments close beaches to swimmers and shellfish beds to commercial 
and recreational harvesting, and may have to recall already harvested 
shellfish.
    Average economic impacts from HABs total $50 million per year in 
the U.S., although severe single events have cost that amount alone to 
localities. The economic impacts of HABs include consideration of the 
costs associated with conducting research and monitoring programs; 
short-term and permanent closures of harvestable shellfish and fish 
stocks; reductions in seafood sales; mortalities of wild and farmed 
fish, shellfish, and submerged aquatic vegetation, and coral reefs; 
declines in tourism; and treating human illness. Since HAB events are 
increasing in frequency and duration, the annual economic impact will 
likely grow if the HAB problem is not addressed adequately.
Hypoxia
    Hypoxia occurs when an algal bloom dies and is decomposed by 
bacteria in the water. The decomposition process consumes oxygen, 
creating an environment in which plants and animals cannot survive. 
Concern about hypoxia has focused primarily on the Gulf of Mexico, 
where a hypoxic zone the size of New Jersey appears each summer and 
persists for much of the season. This renders the affected area, which 
normally contains some of the most valuable fisheries in the United 
States, essentially lifeless. Most recent analysis of the Gulf of 
Mexico hypoxic zone indicates that the size of the zone continues to 
grow each year. Other areas of the country that experience chronic 
hypoxia include the Chesapeake Bay, Long Island Sound, and Sarasota 
Bay.
    Many experts agree that the major cause of hypoxia is nutrient 
pollution in coastal areas. The dead zone in the Gulf of Mexico 
illustrates the regional and national scale of this problem. The 
Mississippi River Basin includes drainage from 31 states and carries 
farm chemicals, treated sewage discharge, storm water runoff, and 
pollutants from factories and refineries to the Gulf. Given the 
economic importance and large geographic distribution of the pollutant 
sources this presents a challenging, national management problem.
    Hypoxia can be caused by any type of algal bloom, not only by 
blooms of toxin-producing algae. Macroalgal, or seaweed, blooms also 
can lead to hypoxia. Numerous factors, including nutrient pollution and 
introduction of invasive species from ballast water, cause macroalgal 
blooms. The result of these seaweed blooms can be shading or smothering 
of other organisms that need sunlight to survive, habitat degradation, 
and a significant decrease in available oxygen as the seaweeds 
decompose. Macroalgal blooms have been particularly troublesome in 
coral reef ecosystems where the slow-growing corals cannot keep pace 
with rapidly growing marcroalgae.
Congressional Action
    In 1997 an outbreak of Pfiesteria piscicida focused public and 
Congressional attention on algal blooms in the Chesapeake Bay and was 
partly responsible for prompting the Harmful Algal Bloom and Hypoxia 
Control Act of 1998 (HABHRCA). The Act established an interagency task 
force on HABs and hypoxia. Four reports were required from the Task 
Force: National Harmful Algal Bloom Assessment, Gulf of Mexico Hypoxia 
Assessment, Gulf of Mexico Hypoxia Action Plan, and a National Hypoxia 
Assessment. The first three were published; the last is finished and 
currently awaiting publication. NOAA coordinated the three assessments 
while EPA coordinated the Gulf of Mexico Action Plan. A Mississippi 
River/Gulf of Mexico Watershed Nutrient Task Force was established to 
implement the Gulf of Mexico Action Plan. This Task Force consists of 
Federal, State and local stakeholders and meets regularly to discuss 
the implementation process.
    Additionally, HABHRCA authorized funding for HAB and hypoxia 
research through NOAA. In particular the Act supported the Ecology and 
Oceanography of Harmful Algal Blooms (ECOHAB) program that the 
Administration had launched in 1996. This program supports basic 
research necessary to understand HABs and produce models to forecast 
bloom development, persistence and toxicity. Grant applications are 
solicited from universities, private research institutions, and federal 
agencies and awarded through a merit-reviewed system. NOAA coordinates 
ECOHAB with the participation of the EPA, the National Science 
Foundation (NSF), the U.S. Department of Agriculture (USDA), the 
Department of the Interior, the National Aeronautics and Space 
Administration (NASA), and the Office of Naval Research (ONR).
    In January 2003, Sen. Snowe (R-ME) and Sen. Breaux (D-LA) 
introduced S. 247, the Harmful Algal Bloom and Hypoxia Amendments Act 
of 2003. It was referred to the Commerce, Science and Transportation 
Committee. The bill authorizes average annual funding at $26.5 million 
over the next three years for continued HABHRCA activities, local and 
regional HAB and hypoxia assessments, and the development of a 
prediction and response plan.
    Rep. Ehlers has drafted a Harmful Algal Bloom and Hypoxia 
Amendments bill that builds on the Senate bill. The witnesses have been 
asked to provide written comments and suggestions on the draft 
amendments bill. It would authorize average annual funding at $28 
million over the next three years for continued HABHRCA activities, an 
assessment and research plan for freshwater harmful algal blooms, and a 
research plan for developing prevention, control and mitigation 
methods.

Questions for witnesses:

    The witnesses were asked to address the following questions in 
their written testimony to the Subcommittee.

Questions for Dr. Donald Scavia, Chief Scientist, National Ocean 
Service, NOAA.

        (1) LHow has the passage of HABHRCA advanced our understanding 
        of HABs? Why have we not made much progress on methods for 
        prevention, control and mitigation for HABs?

        (2) LWhat were the major findings and recommendations from the 
        assessments produced by the Harmful Algal Bloom and Hypoxia 
        Task Force and how has NOAA followed-up on the recommendations? 
        What role, if any, does the Task Force currently play in 
        addressing the problems of harmful algal blooms and hypoxia?

        (3) LOne of the major priorities identified at a recent Coastal 
        Ocean Program (COP) workshop was to understand the recent 
        decline in water quality in the Great Lakes. Why has NOAA not 
        supported much research in this area in the past? Would that 
        change if NOAA formally recognizes the new priorities for Great 
        Lakes research?

        (4) LPlease provide written comments and suggestions on the 
        draft reauthorization bill.

Questions for Dr. Charles G. Groat, Director, USGS.

        (1) LWhat are the challenges faced by researchers in developing 
        useful monitoring and modeling techniques of the Mississippi 
        River Watershed and what can we learn from these challenges for 
        such efforts in other watersheds?

        (2) LWhat are the short-term and long-term goals of the 
        Mississippi River/Gulf of Mexico Task Force? Is it on-schedule 
        for achieving these goals?

        (3) LTo what extent are federal research programs focused on 
        the appropriate issues to be most effective in understanding 
        hypoxia?

        (4) LPlease provide written comments and suggestions on the 
        draft reauthorization bill.

Questions for Dr. Wayne Carmichael, Professor, Aquatic Biology and 
Toxicology, Department of Biological Sciences, Wright State University, 
Dayton, OH.

        (1) LPlease provide a brief overview of the most pressing water 
        quality issues that exist today in the Great Lakes regarding 
        the increase in occurrences of harmful algal blooms and 
        hypoxia. To what extent is there a scientific consensus for why 
        this is happening? What research is needed to better understand 
        and to help reduce the impact of algal blooms on the Great 
        Lakes?

        (2) LTo what extent is research on freshwater harmful algal 
        blooms funded by private entities and what benefit does it 
        provide them? To what extent are federal research programs 
        focused on the appropriate issues in order to be most effective 
        in understanding harmful algal blooms?

        (3) LWhat technologies exist or could be developed in the near 
        future to monitor for and to control and mitigate harmful algal 
        blooms in the Great Lakes?

        (4) LPlease provide written comments and suggestions on the 
        draft reauthorization bill.

Questions for Dr. Donald Anderson, Senior Scientist, Biology 
Department, Woods Hole Oceanographic Institute, Massachusetts.

        (1) LTo what extent are we closer to answering the questions of 
        how and why HABs occur than we were in 1998?

        (2) LWhat is the next step that marine harmful algal bloom 
        research should take to improve our understanding of HABs and 
        better predict their occurrence? To what extent are federal 
        research programs focused on the appropriate issues to be most 
        effective in understanding HABs?

        (3) LHow has research regarding harmful algal blooms been used 
        to develop useful management tools for resource managers? What 
        could the Federal Government do to facilitate such development?

        (4) LPlease provide written comments and suggestions on the 
        draft reauthorization bill.

Questions for Mr. Dan Ayres, Coastal Shellfish Lead Biologist, 
Washington Department of Fish and Wildlife.

        (1) LWhat kind of activities does the state of Washington 
        undertake to monitor for HABs? How does the state respond when 
        it detects an HAB event?

        (2) LWhat new technologies would improve your ability to 
        predict and respond to HABs? How would you utilize such 
        technologies on a day-to-day basis?

        (3) LTo what extent have federal programs assisted you in 
        monitoring for and responding to HABs?

        (4) LPlease provide written comments and suggestions on the 
        draft reauthorization bill.
    Chairman Ehlers. Let us call this hearing to order. Knowing 
that some Members of the Subcommittee have another markup to 
attend, I condensed my opening statement for the first markup. 
However, now that we have finished that markup, I want to say a 
few words about the activities of our Subcommittee. Last 
Congress, the Subcommittee was very busy. We focused our energy 
in a bipartisan manner on the issues upon which the American 
public demanded action and on which we could make a difference. 
As a result, we passed important legislation dealing with, to 
name just a few items, cyber security, research on voting 
standards and equipment, reforms to the Sea Grant Program, 
improving manufacturer supply chains, improving the flood 
warning system, and improving science at the Environmental 
Protection Agency.
    I expect that we will be just as busy, if not busier, this 
Congress. We will review issues such as, again, just to name a 
few, legislation to reauthorize and improve the Harmful Algal 
Bloom Research Program, legislation to reauthorize the 
Transportation Research and Development Programs created under 
the Transportation Equity Act for the 21st Century, climate 
change research, the laboratory programs at the National 
Institute of Standards and Technology, which I know is near and 
dear to Mr. Udall's heart, and science programs at the 
Environmental Protection Agency, as well as the Invasive 
Species Program that we just dealt with a few moments ago.
    Now I am pleased to begin today's hearing on Harmful Algal 
Blooms and Hypoxia. Many of you may be more familiar with these 
blooms as red tides or brown tides, which are more common terms 
for these events. What many of you may not realize is that 
harmful algal blooms and hypoxia are a significant threat to 
human health, commercial fishing, and recreational water use 
throughout the United States.
    Harmful algal blooms actually encompass a wide variety of 
events. They occur in both marine and freshwater environments. 
These dense mats of algae produce toxins dangerous to aquatic 
life and to humans, some of which are so potent that eating 
just one contaminated mussel could make you ill, resulting in 
anything from mild nausea to paralysis, and even death in some 
cases, depending upon the species causing the bloom.
    Hypoxia occurs when an algal bloom dies and is decomposed 
by bacteria in the water. This process depletes oxygen to 
levels so low they cannot support aquatic life, which decreases 
fisheries production and can produce nasty odors that make the 
water undesirable for recreational use--dead fish and foul 
smelling water tend to drive away tourists.
    It is estimated that harmful algal blooms cost the U.S. $50 
million a year, while hypoxia causes severe conditions in many 
locations, including the Gulf of Mexico, where a ``dead zone'' 
the size of New Jersey develops each summer. That is not to 
imply that New Jersey itself is a ``dead zone'' however. I want 
to make that clear.
    Harmful algal blooms and hypoxia are also causing problems 
closer to my home, the Great Lakes, where these events are more 
frequently fouling the water. In the past 30 years, major 
advances were made to improve Great Lakes water quality, but 
recently, scientists have observed an increase in both harmful 
algal blooms and hypoxia. The reasons for this are unclear, but 
may be related to invasive species changing the way nutrients 
are cycled in the lakes.
    In 1998, Congress passed the Harmful Algal Bloom and 
Hypoxia Research and Control Act. The Act created a task force 
to examine these problems, and it issued three reports, and we 
are still waiting for the fourth. Additionally, the 1998 Act 
authorized funding for research and monitoring activities 
related to harmful algal blooms and hypoxia.
    This hearing will examine the state of science in 
understanding the causes of harmful algal blooms and hypoxia, 
as well as the impacts on the Nation from these problems. 
First, we will have an overview of the Task Force reports and 
the research coordinated through NOAA under the 1998 
authorizations. Then we will hear about more specific 
activities related to hypoxia in the Gulf of Mexico and 
challenges faced by scientists in monitoring and modeling this 
problem. Next we will hear about freshwater harmful algal 
blooms, a concern of mine, since the Great Lakes have recently 
experienced an increase in harmful algal bloom events. Then we 
will hear about advances in understanding harmful marine algal 
blooms and about how all this research has helped local 
resource managers respond to the problem. Finally, we will ask 
the witnesses to comment on draft legislation I have been 
working on to reauthorize the 1998 Act. And of course, our 
ultimate objective is to modernize the Act as we go through the 
reauthorization process and make it more effective.
    It is my hope that by the end of the Hearing, we will have 
learned how our understanding of harmful algal blooms and 
hypoxia has improved in the past five years, defined what 
research priorities are needed for the future, and receive 
suggestions for improving my draft legislation. I thank our 
distinguished panel for being here today and I look forward to 
their testimony.
    I will now recognize Congressman Udall, the Ranking 
Minority Member, for his opening statement.
    [The prepared statement of Chairman Ehlers follows:]
            Prepared Statement of Chairman Vernon J. Ehlers
    Now that we have finished the markup, I am pleased to begin today's 
hearing on harmful algal blooms and hypoxia. Many of you may be more 
familiar with these blooms as red tides or brown tides, which are more 
common term for these events. What many of you may not realize is that 
harmful algal blooms and hypoxia are a significant threat to human 
health, commercial fishing, and recreational water use throughout the 
United States.
    Harmful algal blooms actually encompass a wide variety of events. 
They occur in both marine and freshwater environments. These dense mats 
of algae produce toxins dangerous to aquatic life and to humans, some 
of which are so potent that eating just one contaminated mussel could 
make you ill, resulting in anything from mild nausea to paralysis, and 
even death in some cases, depending upon the species causing the bloom.
    Hypoxia occurs when an algal bloom dies and is decomposed by 
bacteria in the water. This process depletes oxygen to levels so low 
they cannot support aquatic life, which decreases fisheries production 
and can produce nasty odors that make the water undesirable for 
recreational use--dead fish and foul smelling water tend to scare away 
tourists.
    It is estimated that harmful algal blooms cost the U.S. $50 million 
a year, while hypoxia causes severe conditions in many locations, 
including the Gulf of Mexico, where a ``dead'' zone the size of New 
Jersey develops each summer (not to imply that New Jersey itself is a 
``dead zone,'' however).
    Harmful algal blooms and hypoxia are also causing problems closer 
to my home, the Great Lakes, where these events are more and more 
frequently fouling the water. In the past 30 years major advances were 
made to improve Great Lakes water quality, but recently scientists have 
observed an increase in both harmful algal blooms and hypoxia. The 
reasons for this are unclear, but may be related to invasive species 
changing the way nutrients are cycled in the lakes.
    In 1998, Congress passed the Harmful Algal Bloom and Hypoxia 
Research and Control Act. The Act created a Task Force to examine these 
problems, and it issued three reports and we are still waiting for the 
fourth. Additionally, the 1998 Act authorized funding for research and 
monitoring activities related to harmful algal blooms and hypoxia.
    This hearing will examine the state of science in understanding the 
causes of harmful algal blooms and hypoxia as well as the impacts on 
the Nation from these problems. First, we will have an overview of the 
Task Force reports and the research coordinated through NOAA under the 
1998 authorizations. Then we will hear about more specific activities 
related to hypoxia in the Gulf of Mexico and challenges faced by 
scientists in monitoring and modeling this problem. Next we will hear 
about freshwater harmful algal blooms, a concern of mine since the 
Great Lakes have recently experienced an increase in harmful algal 
bloom events. Then we'll hear about advances in understanding harmful 
marine algal blooms and about how all this research has helped local 
resource managers respond to the problem. Finally, we will ask the 
witnesses to comment on draft legislation I have been working on to 
reauthorize the 1998 Act.
    It is my hope that by the end of the hearing we will have learned 
how our understanding of harmful algal blooms and hypoxia has improved 
in the past five years, defined what research priorities are needed for 
the future, and received suggestions for improving my draft 
legislation.
    I thank our distinguished panel for being here today, and I look 
forward to their testimony.

    Mr. Udall. Thank you, Mr. Chairman. As the Chairman has 
discussed, harmful algal blooms along our coastlines have drawn 
increased attention over the past decade due to the increased 
closure of fisheries and recreational restrictions that they 
have caused. Public attention first focused on this problem 
back in the '70's and '80's when the increasing frequency and 
intensity of freshwater algal blooms were having a major impact 
on our water quality. Back then we identified the source of the 
problem, which led to reductions of phosphates in detergents 
and nutrients from point sources. In addition, we expanded 
sewage treatment to control nutrients and other pollutants. And 
I have been disturbed, as I know the Chairman has, to learn 
that the problem has returned with increasing frequency today, 
harming the environment and public health.
    The Harmful Algal Bloom and Hypoxia Program has brought us 
new understanding and appreciation for the dimensions and 
complexity of these phenomenon. We have made some progress in 
identifying harmful species and in providing timely information 
to fisheries and recreational managers to prevent human health 
problems. Unfortunately, we have not been very successful in 
developing and implementing management strategies or 
technologies to reduce the frequency or the intensity of the 
blooms. I hope that our witnesses today will be able to provide 
us with suggestions about how we can build upon the current 
program and better translate the findings of this research into 
long-lasting solutions that will return our aquatic systems to 
a healthy state. I would also like their suggestions on how to 
improve communications between the research community and water 
resource managers.
    In the west, we recognize that water is a valuable and 
essential resource. In fact, the saying in the west some of you 
are familiar with is whiskey is for drinking and water is for 
fighting over. But we care very deeply about doing everything 
we can to maintain the quality of our waters and the health of 
our aquatic ecosystems. So I, too, want to thank our witnesses 
for joining us, and I look forward to your testimony.
    I will yield back whatever time I have remaining, Mr. 
Chairman.
    [The prepared statement of Mr. Udall follows:]
            Prepared Statement of Representative Mark Udall
    Good morning and welcome to today's hearing.
    Harmful algal blooms along our coastlines have drawn increased 
attention over the past decade due to the increased closure of 
fisheries and recreational restrictions that they have caused. Public 
attention first focused on this problem back in the seventies and 
eighties when the increasing frequency and intensity of freshwater 
algal blooms were having a major impact on our water quality.
    Back then, we identified the source of the problem, which led to 
reductions of phosphates in detergents and nutrients from point 
sources. In addition, we expanded sewage treatment to control nutrients 
and other pollutants. Now the problem has returned with increasing 
frequency, harming the environment and public health.
    The Harmful Algal Bloom and Hypoxia Program has brought us new 
understanding and appreciation for the dimensions and complexity of 
these phenomenon. We have made some progress in identifying harmful 
species and in providing timely information to fisheries and 
recreational managers to prevent human health problems.
    Unfortunately, we have not been very successful in developing and 
implementing management strategies or technologies to reduce the 
frequency or the intensity of the blooms.
    I hope that our witnesses today will be able to provide us with 
suggestions about how we can build upon the current program and better 
translate the findings of this research into long-lasting solutions 
that will return our aquatic systems to a healthy state. I would also 
like to hear suggestions on how to improve communications between the 
research community and water resource managers.
    We in the West recognize that water is a valuable and essential 
resource. We must do everything that we can to maintain the quality of 
our waters and the health of our aquatic ecosystems.
    I thank all of our witnesses for participating this morning and I 
look forward to hearing your testimony.

    Chairman Ehlers. I thank the Ranking Member for his 
statement. If there are no objections, all additional opening 
statements submitted by the Subcommittee Members will be added 
to the record. Without objection, so ordered.
    Senator Voinovich of Ohio has also shown great interest in 
this issue and held a field hearing concerning hypoxia in Lake 
Erie last August. He wished to testify in person at this 
hearing, but unfortunately, he is chairing a hearing of his own 
at this particular time. Therefore, I ask unanimous consent 
that his statement be added to the record. Without objection, 
so ordered.
    [The prepared statement of Senator Voinovich follows:]
           Prepared Statement of Senator George V. Voinovich
    Good morning. I want to first commend Chairman Ehlers on holding 
this important hearing and thank him for the opportunity to provide a 
statement. I wish that I could be present, but I am currently holding a 
hearing as Chairman of the Clean Air Subcommittee on air quality and 
transportation programs. I look forward to reviewing the statements of 
the witnesses in detail and thank them for taking time out of their 
busy schedules to participate in this hearing.
    Today's hearing is about two very serious problems: harmful algal 
blooms and hypoxia. Unfortunately, our understanding of these 
occurrences is limited and inadequate. This has prevented us from 
effectively dealing with these costly and grave problems.
    Algal blooms are a concern because they can produce toxins in the 
water, which can negatively impact the environment, economy, and public 
health. While this was first considered only a regional problem, 
harmful algal blooms are now reported by almost every coastal state. 
The National Oceanic and Atmospheric Administration (NOAA) claims that 
these blooms may have caused coastal resources and communities to lose 
more than $1 billion directly in the last two decades.
    Additionally, algal blooms can cause hypoxia or depleted oxygen 
levels in water when they die and are decomposed by bacteria. This 
decomposition process consumes oxygen, creating an environment in which 
plants and animals cannot survive. A hypoxic zone the size of New 
Jersey that appears regularly each summer in the Gulf of Mexico is a 
prime example of this devastating condition. Each year, this area 
becomes essentially lifeless. The Chesapeake Bay, Long Island Sound, 
and Sarasota Bay are other areas that experience chronic hypoxia.
    The Harmful Algal Bloom and Hypoxia Control Act of 1998 was created 
by Congress to improve our understanding of these problems and identify 
ways to address them. The Act established an interagency task force and 
required four reports on harmful algal blooms and hypoxia nationally 
and specifically for the Gulf of Mexico. The Act also authorized 
important finding for research through NOAA.
    I am interested to hear from the witnesses about the effectiveness 
of the Act to coordinate federal efforts, the state of the science, 
remaining research and development needs, and suggestions for 
legislative improvements. I am also very interested to know what is 
being done or should be done in terms of research on freshwater.
    On August 5, 2002, 1 conducted a field hearing of the Environment 
and Public Works Committee to examine the increasingly extensive oxygen 
depletion in the central basin of Lake Erie. This phenomenon has been 
referred to as a ``dead zone.'' Anoxia over the long term could result 
in massive fish kills and bad-tasting or bad-smelling water.
    As is the case in our coastal waters, hypoxia in Lake Erie has been 
linked to decaying algal blooms which consume oxygen at the bottom of 
the lake. In the past, excessive phosphorus loading from point sources 
such as municipal sewage treatment plants and farms were greatly 
responsible for the blooms. This acceleration of biological production 
is called eutrophication. Since 1965, the level of phosphorus entering 
the Lake has been reduced by about 50 percent. These reductions have 
resulted in smaller quantities of algae and more oxygen into the 
system.
    In recent years, overall phosphorus levels in the Lake have been 
increasing, but the amount of phosphorus entering it has not. 
Scientists have been unable to account for the increased levels of 
phosphorus in the Lake. One hypothesis is the influence of two aquatic 
nuisance species--the zebra and quagga mussels. Although their 
influence is not well understood, they may be altering the way 
phosphorus cycles through the system.
    Another way zebra mussels could be responsible for oxygen depletion 
in Lake Erie is due to their ability to filter and clear vast 
quantities of lake water. Clearer water allows light to penetrate 
deeper into the Lake, encouraging additional organic growth on the 
bottom. When this organic material decays, it consumes oxygen.
    Although invasive species may be an important factor in Lake Erie's 
dead zone problem, science has been unable to explain why the hypoxic 
zones are forming or what can be done to address them. Over the last 30 
years, we have made remarkable progress in improving water quality and 
restoring the natural resources of our nation's aquatic areas, and we 
need to prevent any backsliding on this progress.
    Lake Erie's ecology has come a long way since I was elected to the 
state legislature in 1966. During that time, Lake Erie formed the 
northern border of my district and it was known worldwide as a dying 
lake, suffering from eutrophication. Lake Erie's decline was covered 
extensively by the media and became an international symbol of 
pollution and environmental degradation. I remember the British 
Broadcasting Company even sending a film crew to make a documentary 
about it. One reason for all the attention is that Lake Erie is a major 
source of drinking water.
    Seeing firsthand the effects of pollution on Lake Erie and the 
surrounding region, I knew we had to do more to protect the environment 
for our children and grandchildren. As a state legislator, I made a 
commitment to stop the deterioration of the lake and to wage the 
``Second Battle of Lake Erie'' to reclaim and restore Ohio's Great 
Lake. I have continued this fight throughout my career--as County 
Commissioner, state legislator, Mayor of Cleveland, Governor of Ohio, 
and United States Senator.
    It is comforting to me that 36 years since I started my career in 
public service, I am still involved, as a member of the United States 
Senate and our Committee on Environment and Public Works, in the battle 
to save Lake Erie.
    Today in Ohio, we celebrate Lake Erie's improved water quality. It 
is a habitat to countless species of wildlife, a vital resource to the 
area's tourism, transportation, and recreation industries, and the main 
source of drinking water for many Ohioans. Unfortunately, however, 
there is still a great deal that needs to be done to improve and 
protect Ohio's greatest natural asset.
    I have had a love affair with the Great Lakes--and in particular, 
Lake Erie--all my life. In terms of my public service, one of my 
greatest sources of comfort and accomplishment has been my work to help 
clean up and protect the environment, particularly Lake Erie.
    The Lake Erie dead zone is a reoccurring problem as it is in the 
Gulf of Mexico. We must focus our resources on understanding this 
phenomenon before it becomes widespread throughout the Great Lakes. The 
Lakes are extremely important to the Nation in terms of their ecologic, 
economic, and public health benefit. I believe that we need to research 
harmful algal blooms and hypoxia in both marine and freshwater.
    I am pleased to be working with Chairman Ehlers to reauthorize the 
Harmful Algal Bloom and Hypoxia Control Act. We both have concerns 
about the coastal waters of the U.S. and the Great Lakes. The draft 
bill that has been distributed for comments would authorize funding, an 
assessment and research plan for freshwater harmful algal blooms, and a 
research plan for developing prevention, control, and mitigation 
methods.
    I know that Senators Snowe and Breaux also have introduced a bill 
to reauthorize the Act, and I look forward to working with them. 
Reauthorization of the Harmful Algal Bloom and Hypoxia Control Act is 
imperative to making progress to stop harmful algal blooms and hypoxia 
from occurring on our coasts and in our Great Lakes. Again, I thank 
Chairman Ehlers for his leadership on this issue and for inviting me to 
provide a statement.
    Thank you.

    Chairman Ehlers. At this time, I would like to introduce 
our witnesses. First we have Dr. Donald Scavia, the Chief 
Scientist at the National Ocean Service, which is part of the 
National Oceanic and Atmospheric Administration. Next we have 
Dr. Charles ``Chip'' Groat; he is Director of the United States 
Geological Survey. Third, Dr. Wayne Carmichael, a Professor of 
Aquatic Biology and Toxicology at Wright State University in 
Dayton, Ohio, one of the many states I have lived in. Fourth we 
have Dr. Donald Anderson, who is a Senior Scientist in the 
Biology Department at the Woods Hole Oceanographic Institute in 
Massachusetts. Our final witness will be introduced--will 
receive a special introduction by Congressman Baird, and I 
recognize him for that purpose.
    Mr. Baird. I thank my Chairman, and I want to welcome Dan 
Ayres, who is a Fish and Wildlife Biologist who leads the 
Washington Department of Fish and Wildlife's Coastal Shellfish 
Unit. He has been studying the harmful algal bloom problem as 
part of our Olympic Region Harmful Algal Bloom Program. The 
kind of issues you raise, Mr. Chairman, are precisely the kind 
of things Mr. Ayres studies.
    Let me give you one example, a little bitty coastal 
community which currently suffers almost double digit 
unemployment depends for much of its revenue on clamming. And a 
harmful algal bloom has been off our coast for the last six 
months and the whole razor clam season has been shut down. This 
is one of the main sources of annual revenue, and you have got 
all these small mom and pop hotels out there who depend on the 
influx of tourists from Seattle, Tacoma, and Vancouver, coming 
out to the coast. When that algal bloom comes in, that just 
shuts the economy of that community down, and some of these 
folks, literally, may not recover.
    So again, just like invasives, it is an issue that seems to 
be an esoteric sort of pointy headed intellectual scientific 
thing, but it has real economic consequences, and if you can 
die from it, it has pretty darn serious consequences as well. 
Mr. Ayres is an expert, I am glad he is here, and I thank the 
Chairman for his time.
    Chairman Ehlers. Thank you for that introduction, and I 
hope you weren't making a derogatory comment about pointy 
headed intellectual scientists.
    Mr. Baird. As a Ph.D. neuropsychologist, myself, my friend, 
that would include both of us. I resemble that remark.
    Chairman Ehlers. That is right. As the witnesses have 
presumably been informed, spoken testimony is limited to five 
minutes each. Anything beyond that can be entered into the 
written record. And after your five minutes each, Members of 
the Committee will also each have five minutes to interrogate 
you. We will start our testimony with Dr. Scavia.

  STATEMENT OF DONALD SCAVIA, CHIEF SCIENTIST, NATIONAL OCEAN 
    SERVICE, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Dr. Scavia. Good morning. I am Don Scavia, the Chief 
Scientist for NOAA's National Ocean Service, and I appreciate 
the opportunity to discuss with you the issues of Great Lakes 
and coastal ocean harmful algal blooms and hypoxia and the 
reauthorization of the Harmful Algal Bloom and Hypoxia Research 
and Control Act.
    Your opening remarks, as well as others on this panel, have 
given more detailed information on the extent and scope of 
these harmful blooms and hypoxia, so I will simply add that 
these issues are now among the most pressing in all of these 
coastal and Great Lake states. Also, before summarizing our 
accomplishments, I want to start by saying that this Act--we 
call it HABHRCA because we can't pronounce it either--has 
helped focus our science programs. We have integrated our 
intramural and extramural programs, particularly, through our 
National Centers for Coastal Ocean Science, to maximize the 
effectiveness of the appropriations associated with this Act.
    Implementing HABHRCA has also generated significant 
cooperation among federal agencies, state programs, and 
academia. Through this coordinated effort, we have made 
progress in our ability to detect, monitor, assess, and in some 
cases, predict both harmful algal blooms and hypoxia. We look 
forward to working with you and your staff on reauthorizing to 
further strengthen the science behind this Act.
    I would like to now summarize our accomplishments to date 
in this Act. In May of 2000, the National Science and 
Technology Council delivered to Congress an assessment of 
hypoxia in the Gulf of Mexico. This assessment examines the 
factors that contribute to the development of Gulf hypoxia and 
evaluates potential management options as key scientific input 
to the action plan that is also called for in this Act. This 
action plan was delivered to the Congress in January of 2001 by 
the Mississippi River Nutrient Task Force, which is composed of 
eight federal agencies, nine Mississippi Basin states, and two 
Indian tribes.
    In balancing the environmental, social, and economic needs 
of this enormous watershed, the action plan established goals 
for reducing the aerial extent of hypoxia in the Gulf, for 
restoring and protecting the waters of the 31 basin states, and 
for protecting the social and economic fabric of the 
communities across that basin. Efforts are now underway to 
begin implementing that plan.
    In February of 2001, the NSTC delivered a ``National 
Assessment of Coastal Harmful Algal Blooms'' to the Congress. 
This report assessed what was truly known at that time about 
the impacts and potential causes of harmful algal blooms and 
potential approaches for reducing, mitigating, and controlling 
them.
    This Act also called for the national assessment of coastal 
hypoxia, and as you mentioned in your opening remarks, that has 
not yet been delivered to the Congress. The Task Force delayed 
this assessment to take advantage of the findings of the Gulf 
of Mexico assessment, a NOAA eutrophication survey, and the 
National Research Council's ``Clean Coastal Waters'' report. 
With those studies now complete, the Task Force has drafted its 
assessment and submitted it for final clearance. We anticipate 
delivering this assessment to Congress in the fairly near 
future.
    Section 605 of the Act also authorized scientific 
activities that afford us the opportunity to address, in part, 
the eight objectives outlined in the 1993 National Plan for 
Marine Biotoxins and Harmful Algae, as well as to extend our 
work in hypoxia in the Gulf of Mexico. For example, our 
laboratories and centers have developed molecular probes to 
improve harmful algal bloom detection, characterized the 
chemical structures of some of the toxins created by these 
organisms, developed the ability to detect and track red tides 
with satellites, and added insight into the physiology and 
environmental toxicology of Pfiesteria.
    NOAA's Coastal Ocean Program leads two related inter-agency 
competitive peer review programs, the Ecology and Oceanography 
of Harmful Algal Bloom or the ECOHAB Program, and the 
Monitoring and Event Response for Harmful Algal Bloom or the 
MERHAB Program. ECOHAB has isolated factors that regulate some 
of these harmful blooms, developed biophysical models that form 
a critical base for HAB forecasts, applied remote sensing, 
molecular, and biochemical tools for detecting and tracking 
blooms, and for targeting state monitoring and management 
efforts in support of Dr. Anderson's national database and 
website where research findings are shared amongst scientists 
and with the public.
    MERHAB has put new tools in the hands of State and Tribal 
monitoring programs and will continue to test and refine these 
and other technologies for cost effective early warning 
detection of harmful algae and their toxins. In the Coastal 
Ocean Program we have also expanded efforts to monitor, model, 
and predict the dynamics and impact of Gulf of Mexico hypoxia 
in support of implementing the action plan, and we are now 
working with the academic community and other federal agencies 
to implement a new national research program on coastal and 
Great Lakes hypoxia.
    Mr. Chairman, I understand the Committee is particularly 
interested in how these issues impact the Great Lakes. Over the 
past several years, NOAA has supported efforts that should help 
the scientific community address these problems. Our funding of 
Great Lakes Coast Watch and the Great Lakes Forecast System 
should provide important tools for the community. In addition, 
the recently completed study on the impacts of episodic events 
in Lake Michigan and new efforts to monitor and assess harmful 
algal bloom impacts in the lower Great Lakes are bringing 
additional focus and resources to these efforts.
    Most recently, we supported a workshop in Michigan to help 
define priorities for additional efforts in the Great Lakes, 
and it is here that the re-emergence of Great Lakes hypoxia was 
highlighted. We will continue to work with the Great Lakes 
scientists and managers to design appropriate programmatic 
responses to these issues.
    Mr. Chairman, thank you for the opportunity to present this 
testimony. I would be pleased to answer any questions from you 
or the Members. Thank you.
    [The prepared statement of Dr. Scavia follows:]
                  Prepared Statement of Donald Scavia
    Good morning, Mr. Chairman and Members of the Subcommittee. I am 
Donald Scavia, Senior Scientist of NOAA's National Ocean Service. I 
appreciate the opportunity to discuss NOAA's role in addressing 
national issues surrounding harmful algal blooms (HABs) and hypoxia in 
the Nation's Great Lakes and coastal waters, and the Harmful Algal 
Bloom and Hypoxia Research and Control Act of 1998. My testimony today 
does not address reauthorization of the Act. NOAA is currently 
reviewing the draft bill, and will provide comments in the future.
    Others on this panel will provide more detailed information on the 
scope and extent of Harmful Algal Blooms (HABs) and hypoxia. So, I will 
simply report that HABs are increasing in abundance and intensity in 
Great Lakes and coastal waters. Harmful Algal Blooms occur in the 
waters of every coastal and Great Lake State and have been responsible 
for an estimated $1 billion in economic losses over the past few 
decades. These blooms have decimated the scallop fishery in Long 
Island's estuaries; have led to seasonal closures of various shell 
fisheries on Georges Bank, from North Carolina to Louisiana, and 
throughout the Pacific Northwest; may have contributed to the deaths of 
hundreds of manatees in Florida, sea lions in California, and other 
marine mammals, including dolphins in the Northern Gulf of Mexico. HABs 
have also caused significant respiratory and other illness in coastal 
residents and vacationers. There are several causes of harmful algal 
blooms. Some are natural, but others are human-induced, and on-going 
research continues to identify and distinguish these causes.
    The Harmful Algal Bloom and Hypoxia Research and Control Act brings 
together the critical issues of harmful algal blooms and hypoxia--or 
low oxygen syndrome--because excess nutrient loads can be responsible 
for the general overgrowth of algae in many coastal ecosystems. And 
while not all algae are toxic, the death and subsequent decay of 
massive non-toxic blooms can lead to severe oxygen depletion (e.g., 
oxygen levels low enough to cause significant ecological impairment) in 
the bottom waters of estuaries and coastal environments.
    While significant attention has been paid in recent years to the 
enormous hypoxic area off the coasts of Louisiana and Texas, NOAA's 
recent National Eutrophication Assessment has revealed that at some 
time each year, over half of our nation's estuaries experience natural-
caused and/or human-induced hypoxic conditions. Thirty percent 
experience anoxia (e.g., areas where all of the oxygen is absent) 
resulting in fish kills and other resource impacts. In addition, 
hypoxia in the Great Lakes is re-emerging as a problem. Harmful algal 
blooms and hypoxia are now among the most pressing environmental issues 
facing coastal states.
    To address these important issues facing the Nation's coastal 
communities, the Harmful Algal Bloom and Hypoxia Research and Control 
Act of 1998 called for development of three scientific assessments and 
an action plan; and authorized a suite of scientific programs to help 
support efforts to prevent, control, and mitigate the impacts of HABs 
and hypoxia. In response, NOAA and our Federal, State, and academic 
partners have made considerable progress in the scientific 
understanding, detection, monitoring, assessment, and prediction of 
HABs and hypoxia in Great Lakes and coastal ecosystems. These advances 
are helping coastal managers undertake short- and long-term efforts to 
prevent and mitigate the detrimental effects of these phenomena on 
human health and on valuable coastal resources. My remarks outlining 
these accomplishments are organized around the key sections of the 
original Public Law.
Sec 604(a)--Assessment of Northern Gulf of Mexico Hypoxia
    The National Science and Technical Council, through the Inter-
Agency Task Force on Harmful Algal Blooms and Hypoxia, delivered the 
report, ``Integrated Assessment of Hypoxia in the Northern Gulf of 
Mexico,'' to the Congress in May 2000. The assessment examined the 
distribution, dynamics, and causes of Gulf hypoxia; its ecological and 
economic consequences; the sources and loads of nutrients transported 
by the Mississippi River system to the Gulf of Mexico; the effects of 
reducing nutrient loads; methods for reducing nutrient loads; and 
social and economic costs and benefits of such methods. This integrated 
assessment provided the scientific underpinning for the subsequent 
Action Plan to reduce the size of the Gulf of Mexico hypoxic zone.
Sec 604(b)--Plan to Reduce, Mitigate, and Control Gulf Hypoxia
    The Action Plan was delivered to the Congress in January 2001 by 
the Mississippi River/Gulf of Mexico Watershed Nutrient Task Force, 
which is composed of eight federal agencies, nine Mississippi Basin 
States, and two Indian Tribes. The Action Plan was based on the 
Integrated Assessment required by this statute, as well as other 
scientific and public input and consultations required by the law, 
gathered through seven public meetings. In balancing the environmental, 
social, and economic needs of this enormous watershed, the Plan 
established three goals:

        <bullet> LCoastal Goal: By the year 2015, reduce the five-year 
        running average extent of the Gulf of Mexico hypoxic zone to 
        less than 5,000 square kilometers.

        <bullet> LBasin Goal: Restore and protect the waters of the 31 
        States and Tribal lands within the Mississippi/Atchafalaya 
        River Basin.

        <bullet> LQuality of Life Goal: To improve the communities and 
        economic conditions across the Mississippi/Atchafalaya River 
        Basin.

    To connect the environmental endpoint goal for the Gulf of Mexico 
to actions within the basin, the Action Plan also recognized the need 
to reduce nitrogen loads by at least 30 percent. This Watershed Task 
Force is currently creating sub-basin committees that are to be led by 
States and tasked with developing implementation strategies. This 
approach was chosen by the Watershed Task Force with input from the 
States to best meet local needs. The action plan highlights that there 
are a variety of options available to meet the overall goal and each 
has associated costs and benefits that vary by locale. The Watershed 
Task Force has also drafted a Monitoring, Modeling, and Research 
Strategy to ensure that actions taken over the next decade to reduce 
hypoxia are guided by the best science.
Sec 603(b)--National Assessment of Coastal Harmful Algal Blooms
    The National Science and Technical Council, through its Inter-
Agency Task Force on Harmful Algal Blooms and Hypoxia, produced the 
report, ``National Assessment of Harmful Algal Blooms in US Waters.'' 
The assessment, delivered to the Congress in February 2001, examines 
the ecological and economic consequences of harmful algal blooms; 
alternatives for reducing, mitigating, and controlling harmful algal 
blooms; and the social and economic costs and benefits of such 
alternatives. Highlights from the assessment include:

        <bullet> LHAB events threaten human health and marine mammals, 
        contaminate local fish and shellfish, and depress coastal 
        tourist and recreational industries.

        <bullet> LHAB events are increasing nationwide. There are more 
        toxic species, more events, and more areas affected than 25 
        years ago.

        <bullet> LNatural events (e.g., storms and ocean currents), as 
        well as human activities (e.g., excess nutrient loads), appear 
        to contribute to this increase.

        <bullet> LManagement options are limited at this time, with the 
        focus on diligent monitoring. Recent advances in both molecular 
        and remote-sensing detection methods are promising.

        <bullet> LIt may be possible to prevent some HABs by 
        controlling nutrient inputs, or to control blooms with clays to 
        precipitate or viruses to attack the algal cells. More research 
        is needed to determine the effectiveness and the potential 
        environmental impacts of these methods.

    While the analyses in this report have helped shape subsequent 
investments in our research and monitoring programs, there is still 
much to do.
Sec 603(c)--National Assessment of Coastal Hypoxia
    The Inter-Agency Task Force on Harmful Algal Blooms and Hypoxia 
delayed development of this assessment to take advantage of the 
findings and recommendations of the Gulf of Mexico Integrated 
Assessment, outlined above, the NOAA Eutrophication Survey, and the 
National Research Council report, Clean Coastal Waters. With those 
studies now complete, the Task Force has drafted the assessment and has 
submitted it for final clearance. The assessment outlines status and 
trends in coastal hypoxia, its causes and consequences, methods 
available to reduce its occurrence, and the science needed to reduce 
uncertainties in future assessments. Once final clearance is achieved, 
we will deliver the report to the Congress.
Section 605--Authorization of Appropriations
    The Harmful Algal Bloom and Hypoxia Research and Control Act of 
1998 also provided authority for NOAA to make progress in addressing 
some of the eight objectives outlined in the 1993 National Plan for 
Marine Biotoxins and Harmful Algae. It also extends NOAA's efforts 
related to Gulf hypoxia. Most of the efforts authorized by this Act are 
implemented by NOAA through competitive, peer review to engage the best 
scientists to focus on these important issues.
    In our laboratories and through the Ecology and Oceanography of 
Harmful Algal Blooms program (ECOHAB), NOAA and our partners have 
investigated factors that regulate the dynamics of HABs and the 
mechanisms by which they cause harm. We have produced coupled bio-
physical models that form a critical base for building HAB forecasts; 
applied technology from remote sensing, and medical science, to the 
detection and tracking of algal species and their toxins to help states 
target their monitoring and management efforts; and developed a 
national database where research findings are shared and made available 
to scientists and the public. Through the Monitoring and Event Response 
for Harmful Algal Blooms program (MERHAB), NOAA puts these new tools 
within reach for the routine monitoring efforts of States and tribes in 
several U.S. coastal regions. MERHAB partners are testing and refining 
these technologies for reliable, cost-effective detection and 
monitoring of harmful algal species and their toxins. Through the 
Coastal Ocean Program, we have expanded efforts to monitor, model, and 
predict changes and impacts of hypoxia on Gulf of Mexico resources. The 
following paragraphs highlight accomplishments in the five areas of 
statutory authority:
    HAB Research and Assessment Activities in NOAA Laboratories--NOAA's 
laboratories have focused on two key impediments to effective HAB 
management: 1) the lack of sensitive, toxin-specific assays and toxin 
standards for research and field application, and 2) an understanding 
of how the physiology of these organisms affect toxin movement through 
the food web. Results from investments in these laboratories have led 
to developments that are now aiding coastal scientists and managers 
with critical, timely information on the occurrence of HAB and other 
toxins. Recent accomplishments include:

        <bullet> LIdentification of the chemical structures of some key 
        HAB toxins;

        <bullet> LDevelopment of toxin- and species-specific detection 
        probes and assays that will significantly enhance HAB research, 
        monitoring, and management;

        <bullet> LIncreased understanding of bio-physical processes 
        controlling red tides originating in the Gulf of Mexico that 
        have traveled in the Gulf Stream as far north as North 
        Carolina; and

        <bullet> LAdded insight into physiology and environmental 
        toxicity of Pfiesteria species.

    Ecology and Oceanography of Harmful Algal Blooms (ECOHAB)--
Administered by NOAA's Coastal Ocean Program, ECOHAB is run 
cooperatively with the National Science Foundation, U.S. Environmental 
Protection Agency, National Aeronautics and Space Administration, and 
the Office of Naval Research. ECOHAB seeks to understand the causes and 
dynamics of HABs; develop forecasts of HAB growth, movement, landfall, 
and toxicity; and produce new detection methodologies for HABs and 
their toxins. Projects selected for support must successfully compete 
in a peer-review process that ensures high-level scientific merit. Some 
highlights of ECOHAB's large-scale regional studies include:

        <bullet> LThe Florida project is testing the hypothesis that 
        the iron in Saharan dust clouds may stimulate red tides in the 
        Gulf of Mexico. Iron in this dust may stimulate growth of 
        nitrogen-fixing algae, ultimately providing a new nitrogen 
        source for red tide organisms. Using satellite sensors, which 
        can detect dust clouds, it may be possible to forecast these 
        offshore red tide blooms.

        <bullet> LThe Long Island Brown Tide study has correlated this 
        organism's unique physiology and ecological niche with the 
        series of complex environmental conditions that precipitate 
        these blooms, showing that its ability to grow in conditions of 
        high dissolved organic nitrogen allows it to occupy a 
        particular niche in phytoplankton bloom succession.

        <bullet> LThe Gulf of Maine project has described the critical 
        life-history stages of the Paralytic Shellfish Poisoning (PSP) 
        species, documented its dependence on environmental 
        oceanographic conditions and is nearing completion of a 
        biophysical model for simulating and ultimately forecasting the 
        distribution of the species responsible for PSP Gulf of Maine.

        <bullet> LA new large-scale regional effort will begin this 
        year to develop a model of bloom formation and movement in the 
        Pacific Northwest based on physical and biological factors 
        controlling blooms of domoic-acid producing organisms that 
        cause amnesic shellfish poisoning.

    Monitoring and Event Response for Harmful Algal Blooms (MERHAB)--
Also administered by NOAA's Coastal Ocean Program, MERHAB works through 
existing Tribal, State, and regional monitoring efforts to transfer 
research results to local monitoring jurisdictions for early detection 
of HAB events. Projects selected for support successfully compete in a 
peer-review process that ensures high-level scientific merit and 
resource management relevance. Highlights of program accomplishments to 
date include:

        <bullet> LSupport for regional HAB mitigation efforts include 
        developing early warning systems along the Olympic coast; 
        providing rapid, cost effective, and highly sensitive toxin 
        detection methods to the Quileute Tribe to help reduce public 
        health risks of coastal Native Americans from California to 
        Alaska; and incorporating continuous, real-time monitoring of 
        inaccessible and remote coastal habitats into Chesapeake Bay 
        and Florida state HAB monitoring programs.

        <bullet> LSimilar, recently-initiated efforts seek to augment 
        state HAB monitoring and response capabilities in the Great 
        Lakes, Eastern Gulf of Mexico and Gulf of Maine; and are 
        currently testing the feasibility of new detection methods in 
        coastal waters of Texas, Florida, and Virginia.

        <bullet> LNew techniques have enhanced Pfiesteria bioassay 
        laboratories in Florida and North Carolina and improved access 
        to expertise, laboratory facilities, sampling platforms, and 
        remote sensing imagery by local and federal agencies responding 
        to unexpected HAB-related events, such as die-offs of sea 
        lions, bottle-nose dolphins, and manatees;

        <bullet> LSupport through the Alliance for Coastal Technologies 
        and the Small Business and Innovative Research program has 
        brought together scientists, state managers, and the private 
        sector to overcome impediments of adopting new technologies.

    Research on HAB Prevention, Control, and Mitigation (PCM)--While 
research on HAB prevention and control has received only limited 
attention to date, some advancements have been made in: using clay to 
scavenge HAB organisms from the water column; identifying natural 
Pfiesteria predators; using viral agents for suppressing brown tide 
organisms; and using bacterial agents that may ultimately prove useful 
in controlling red tide organisms. While research on prevention and 
control has been limited, there have been significant ECOHAB and MERHAB 
investments to develop tools that help mitigate HAB impacts. For 
example:

        <bullet> LNew remote sensing tools are used to track Florida 
        Gulf coast HAB movements and provide the first-ever HAB 
        forecasts for Florida resource managers. These tools are also 
        being tested in Texas waters and off the West Coast.

        <bullet> LBiophysical models for the Gulf of Maine and the west 
        Florida Shelf will enhance this ability to forecast HAB 
        movement and landfall providing early warnings.

        <bullet> LNew analytical capabilities for rapid and inexpensive 
        detection of algae and toxins, including molecular probes for 
        Pfiesteria, moored detectors for species responsible for 
        Amnesic Shellfish Poisoning, optical detectors on moorings and 
        autonomous gliders to detect and map red tide species.

    Hypoxia Research and Monitoring--In the 1990s, through support from 
NOAA's Coastal Ocean Program, the scientific community documented the 
distribution and dynamics of the hypoxic zone over the Louisiana 
continental shelf. These model simulations and research studies 
produced considerable evidence that nutrient loading from the 
Mississippi and Atchafalaya River system is the dominant factor in 
driving hypoxia and that the duration and extent of hypoxia in the 
region is far greater than it was historically. These efforts provided 
the primary data and information for the six technical reports and the 
Integrated Assessment of the causes and consequences of Gulf hypoxia 
and the Action Plan produced under Sections 604(a) and 604 (b) of this 
statute.
    The Coastal Ocean Program initiated a new study in the Gulf in 2000 
to improve our understanding of, and ability to forecast the effects of 
changes in ocean conditions and river nutrient loads on hypoxia and its 
effects on Gulf productivity. These studies are providing a consistent 
and sequential series of long-term data that document the temporal and 
spatial extent of hypoxia, and are collecting the hydrographic, 
chemical (including nutrient), and biological data related to the 
development and maintenance of hypoxia over seasonal cycles. Studies 
focus on relationships among nutrient fluxes, nutrient ratios, 
phytoplankton species composition, and carbon production and flux are 
being conducted and augmented with efforts to model changes in oxygen 
budgets and the effects of the hypoxic zone on fisheries. These studies 
are a key component of the Task Force's monitoring, modeling, and 
research strategy supporting the Action Plan.
    While the focus to date has been on hypoxia on the Louisiana and 
Texas continental shelf, we have recently supported development of a 
consensus science plan for addressing hypoxia issues nationally. We 
have begun discussions with that academic science community and other 
federal agencies on implementation of a potential joint national 
program.
Efforts in the Great Lakes
    We understand this subcommittee is particularly concerned with 
issues related to harmful algal blooms and hypoxia in the Great Lakes. 
I would like to outline recent accomplishments from our related Great 
Lakes efforts and suggest where we may be going in the near future.
    Support in the early 1990s from the Coastal Ocean Program (COP) 
helped move the Great Lakes Coastal Forecast System from research to 
operations. This system, developed by the Great Lakes Environmental 
Research Laboratory (GLERL) and the Ohio State University for 
forecasting local winds, waves, water levels, and currents, is now 
being run routinely for forecasts in Lake Erie and now casts in all 
five Great Lakes. Discussions are underway for incorporating it into 
NOAA's operational run streams. Early COP support also developed the 
Great Lakes CoastWatch Program, which is now run out of GLERL. 
CoastWatch produces remotely sensed environmental data and products to 
support Great Lakes environmental science, resource management, and 
decision-making.
    These early efforts provided key tools that were subsequently used 
in two five-year, multi-million dollar regional efforts supported 
through a joint COP-NSF Coastal Ocean Processes program. From 1998 
through 2002, COP and NSF, with support from GLERL and EPA's Great 
Lakes National Program Office, sponsored the Episodic Events-Great 
Lakes Experiment (EEGLE) program in Lake Michigan and the Keewenaw 
Interdisciplinary Transport Experiment in Superior (KITES) in Lake 
Superior. The EEGLE program produced information and models of storm-
related release, redistribution, and impacts of biologically important 
materials (sediment, nutrients, contaminants) at the whole-lake scale. 
The companion KITES study focused on the Keewenaw Current and its role 
in the transport of these biologically important materials along the 
Keewenaw Peninsula.
    In FY 2002, COP's MERHAB program initiated a new five-year, multi-
million dollar effort to develop an improved monitoring system for 
toxic cyanobacteria in the lower Great Lakes and Lake Champlain. This 
enhanced `early warning' system will be based on transferring state-of-
the-art HAB research products into local management tools. This tiered 
system uses a series of indicators or alerts to trigger more intense 
monitoring and response protocols to provide maximum protection to the 
public.
    To guide future investments in Great Lakes research and monitoring, 
COP recently sponsored a Great Lakes Research Issues Workshop at the 
University of Michigan to identify major Great Lakes issues that fit 
within the goals and mandates of COP and HABHRCA. Scientists from U.S. 
and Canadian agencies, academia, and the private sector outlined 
current issues and identified those requiring the most immediate 
research attention. While the report from that workshop has not been 
finalized, it appears that the consensus of that community is that the 
recent degradation of water quality and habitat warrants most immediate 
research attention.
    This ``re-degradation'' of Great Lakes water quality, which is 
surprising in that it is a problem that most thought was solved decades 
ago, is especially evident in Lake Erie where harmful algal blooms, and 
hypoxia, and phosphorous concentrations have increased in recent years 
despite decreased phosphorus loads. The origins and fate of nutrients 
in the Great Lakes seem to be operating under a potentially new 
paradigm. This situation raises fundamental questions about 
interactions between land and lake production, including land-lake 
margin processes, benthic-pelagic coupling, episodic events, species 
introductions, physical-biological coupling, long-term weather and 
climate changes, and ecosystem resiliency.
    We will continue to work with the Great Lakes community to define 
and develop a new set of tools to address these re-emerging issues, 
with a focus on developing ecological forecast models that account for 
the new ecological state of the Lakes.

Concluding Remarks

    The impacts of harmful algal blooms and hypoxia on coastal and 
Great Lakes ecosystems, resources, and economies are as great now as 
they were in 1998. Reauthorization and revision of the Harmful Algal 
Bloom and Hypoxia Research and Control Act is timely and warranted.
    We have not had sufficient time to review and provide comment on 
the draft bill provided in the invitation to testify at this hearing. 
However, we will provide those comments soon, and we look forward to 
working with you and your staff on this important issue.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions that you or other Members may have.

    Chairman Ehlers. Thank you very much, and I neglected to 
mention that you do have warning signs in front of you in the 
little box. Green is the first four minutes, yellow during the 
fifth, and red means the trap door could open at any moment, so 
I just wanted to let you know. Dr. Groat.

    STATEMENT OF CHARLES G. GROAT, DIRECTOR, UNITED STATES 
       GEOLOGICAL SURVEY, U.S. DEPARTMENT OF THE INTERIOR

    Dr. Groat. I want to thank the Subcommittee for providing 
the U.S. Geological Survey the opportunity to present testimony 
this morning and to acknowledge that the Department of the 
Interior, as well as the USGS, supports strongly the research 
and assessment activities that are included under HABHRCA, not 
only because the problem continues, but because the problem 
continues to expand. And as you noted, the Great Lakes are 
facing threats and the Chesapeake Bay is not without concerns 
about both algal blooms and hypoxia.
    You provided me some questions to answer, so I am going to 
frame my testimony in connection with those questions, and the 
first had to do with the challenges faced by researchers in 
developing useful modeling and monitoring techniques for the 
Mississippi River watershed and what are the priorities there. 
The major challenge faced in the Mississippi River Basin, and 
if not throughout the area of concern, is developing and 
implementing modeling tools that allow us to predict the 
effects and to mitigate the effects of nutrients on hypoxia and 
algal bloom. Driving the models has to be sufficient monitoring 
data. We have to understand the landscape and what is going on. 
And if there is one overriding concern in supporting our 
understanding of these phenomena, from the point of view of the 
USGS involvement, it has to be the monitoring situation, and I 
will close with a couple of comments on that. Clearly, models 
have to be developed and made more sophisticated if we are able 
to use them as effective tools, not only for understanding the 
phenomena, but also for informing decision support as needs to 
be done. Models driven by monitoring, good models have good 
data, not only to form the models but also to validate them. So 
here, again, monitoring raises its head as an extremely 
important function.
    One of the challenges we face in monitoring is the fact 
that much of the data, while much of it is gathered by the U.S. 
Geological Survey, much is also gathered by other agencies, and 
we have inconsistencies in how that information is gathered and 
reported, which does not support integration in a very 
effective way into some of the models.
    And in a modeling sense, it is particularly important that 
emphasis be placed on watershed level monitoring, because it is 
in the watersheds that the control strategies are going to be 
developed in terms of the effects of nutrients on systems both 
local and as they move down the Mississippi River into the Gulf 
of Mexico. So we need research to improve the performance of 
these models and their responsiveness to inputs for monitoring 
and other factors.
    Let me combine my answers to the second question, which 
deals with short and long-term goals of the Mississippi River 
Hypoxia Task Force, and the third question, which is as to what 
extent federal research programs are focused on the appropriate 
issues. I think the national needs, in a broad sense, have been 
spelled out. A group consisting of NOAA, the National Science 
Foundation, and the U.S. Geological Survey, and the Department 
of Agriculture put together a report that is in press that 
summarizes the scientific community's opinion on what the key 
research needs are, and that report, entitled ``Nutrient 
Pollution in Coastal Waters--Priority Topics for Integrated 
National Research Program for the U.S.,'' is in press.
    However, implementation is the key, and we have to do an 
awful lot of work not only in defining needs, but also in 
defining how we carry out meeting those needs. Within the 
Monitoring Modeling and Research Workgroup of the Mississippi 
River and Gulf of Mexico Task Force, those priorities are being 
addressed and there is a workgroup. That workgroup is co-
chaired by the USGS and by NOAA. So here, not only are the 
priorities being discussed, but this strategy will set the 
priorities for implementation of the priority needs and making 
sure we have the results that are needed in the Mississippi 
River Basin area.
    Let me close with a couple of comments about monitoring, 
again. We understand the problem in the Mississippi River Basin 
on the basis of a broad monitoring network that let us know 
what water quantity and quality inflows were into the 
Mississippi River system, and, as it moved down into the Gulf 
of Mexico, what those flows were into the Gulf of Mexico. The 
monitoring network that allowed that to happen has shrunk in 
the past decade to a considerable extent. We had data from 
approximately 125 sites during the early 1990's when this 
framework was put together for understanding the situation. 
Only about 20 percent of those are still active.
    During the 1980's, we monitored nutrient loads at 42 of 133 
watersheds in the basin. Right now, we are only working about 
12 of those stations. The cost of inflation, the other stresses 
and demands placed on our monitoring system has caused us to 
apportion our resources throughout the country, and as a 
result, we have fewer monitoring activities in the Gulf of 
Mexico Basin than we would like to have. Now, I don't want to 
leave you with the impression that we have pulled back. We have 
really made very strategic decisions about where monitoring is 
most important to support the needs of the research program and 
we are maintaining those stations. But clearly, in the sense of 
validating models, as I pointed out before, but perhaps even 
more importantly, in implementing the management strategy, 
monitoring is essential. We rely on adaptive management to deal 
with problems of this kind. Adaptive management implies 
adaptation. It implies that we have data and research upon 
which to make those adaptations. Monitoring is the real core 
for providing that information. So from a research point of 
view and from a management point of view, we feel the 
monitoring strategy has to be broadened to be implemented in a 
very serious way.
    In summary, the harmful algal blooms and hypoxia are 
affected by human activities in broad areas that affect runoff 
into coastal waters. Monitoring, modeling, and research 
activities related to sources and causes of inland runoff in 
recurring harmful algal blooms and hypoxia in coastal waters 
are both key components of any solution. Therefore, we urge the 
Subcommittee to acknowledge and support both coastal and inland 
monitoring, modeling, and research. Thank you, Mr. Chairman.
    [The prepared statement of Dr. Groat follows:]
                 Prepared Statement of Charles G. Groat
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to comment on assessing the detrimental effects of harmful 
algal blooms and hypoxia on coastal communities, the federal agenda for 
scientific research on harmful algal blooms and hypoxia, and 
reauthorization of the Harmful Algal Bloom and Hypoxia Research and 
Control Act. This testimony discusses research and other activities 
under the existing law and responds to the three questions provided by 
the Subcommittee. A draft reauthorization bill has been received from 
the Committee. The testimony does not address the bill, which is under 
review, but we will be happy to work with the Committee on the bill, 
and to provide formal comment when it has been introduced. I want to 
thank the Subcommittee for inviting the U.S. Geological Survey (USGS) 
to participate in this hearing on this important issue. Hypoxia and 
harmful algal blooms are serious problems that adversely affect 
important ecosystems in coastal and lake States by causing stress or 
death to bottom dwelling organisms that cannot move out of the hypoxic 
zone.
    The Department of the Interior (DOI) supports the research and 
assessment activities included in the Harmful Algal Bloom and Hypoxia 
Research and Control Act of 1998 (HABHRCA). Harmful algal blooms and 
hypoxia continue to be an important and growing issue in coastal waters 
across the Nation. Also, the geographic scope of our concern has grown. 
Thus, DOI would support continuation of the Inter-Agency Task Force on 
Harmful Algal Blooms and Hypoxia, in which DOI is a member, if the 
National Science Council decides to continue it. The Task Force 
provides a key forum for exchange of information, joint planning, and 
coordination of federal agencies that contribute to our understanding 
of the causes and effects of hypoxia and harmful algal blooms. The Task 
Force also considers the effect of policies and practices that can 
mitigate those conditions.
    In response to the call for action by HABHRCA, the Mississippi 
River/Gulf of Mexico Watershed Nutrients Task Force guided publication 
of the Integrated Assessment of Hypoxia in the Gulf of Mexico (referred 
to as the Integrated Assessment) in May 2000, and the Action Plan for 
Reducing, Mitigating, and Controlling Hypoxia in the Northern Gulf of 
Mexico (referred to as the Action Plan), in January 2001. This Task 
Force, in which the Department participates along with other federal 
agencies and State and Tribal governments, continues to play an 
important leadership role in implementation of its Action Plan, which 
emphasizes incentive-based, voluntary efforts for reducing nonpoint 
source contamination. This Task Force also encourages States, Tribes, 
and Federal agencies that are establishing priorities for watershed 
restoration to consider the potential benefits to the Gulf of Mexico, 
benefits that otherwise might not have been considered. The Task Force 
is essential to implementation of the management strategy to address 
important water-quality issues in the Mississippi Watershed and the 
northern Gulf of Mexico. It is an important management model for 
addressing coastal water-quality issues influenced by large watersheds 
that comprise multiple States and varied land use, climate and 
geographic terrain.
    An over abundance of nutrients in the Chesapeake Bay, the Nation's 
largest estuary, contributes to excessive algal blooms and poor 
dissolved oxygen conditions. These conditions have adversely affected 
the health of fisheries in the Bay. The Chesapeake Bay Program 
partners, which includes the states in the Bay watershed and the 
Federal Government, are enhancing nutrient-reduction efforts to improve 
water quality conditions and thereby reduce the occurrence of algal 
blooms in the Bay. The USGS is providing science and models of nutrient 
sources and their delivery to the Bay. The DOI resource managers are 
developing plans to accelerate and better target the nutrient-reduction 
actions based on the USGS findings.
    Research, monitoring, and modeling related to nutrient and water-
quality loads to coastal waters from the landscape are essential 
elements of identifying current and potential problem areas, 
understanding the linkages between human actions and the occurrence of 
hypoxia and harmful algal blooms, and designing and evaluating the 
performance of management strategies to mitigate those conditions.
    The first question posed by the Committee is: ``What are the 
challenges faced by researchers in developing useful monitoring and 
modeling techniques of the Mississippi River Watershed and what can we 
learn from these challenges for such efforts in other watersheds?'' 
Along with data and information from research and monitoring, models 
and other analytical tools provide the scientific information needed 
for sound resource management decisions. The major challenge faced by 
researchers developing and implementing modeling tools is the lack of 
suitable monitoring data that provide the basis for understanding the 
natural and human-induced changes in flow and chemical loads to coastal 
and receiving waters.
    Models provide predictive understanding by interpolating and 
extrapolating from existing measurements. Concepts and computer codes 
for useful water-quality models exist, but such models require 
monitoring data for calibration and validation. Moreover, long-term 
monitoring data serve as the ultimate basis of model performance. 
Models extrapolate data from sites representative of varying land use 
and climatic conditions to provide a broader understanding of the 
sources and causes of adverse water-quality conditions, such as excess 
nutrient loads, which can cause hypoxia and harmful algal blooms. 
Models also extrapolate information on the relative performance of 
alternative management actions from representative sites enabling the 
design of watershed-wide management strategies. However, these models 
are limited by the availability of data from monitoring and research 
studies that describe the recent and historical responses of receiving 
waters to natural and human-induced changes in water-quality 
conditions.
    Data that are collected are not always available in a consistent 
manner or with consistent framework. Water-quality monitoring data are 
being collected by a wide range of Federal, State, Tribal and local 
government agencies. Through USGS efforts to identify all water-quality 
data useful for analyses in the Mississippi River Watershed, we found 
that data often are collected through different programs that use a 
variety of collection methodologies to support varying specific 
objectives. Unfortunately, that same variety makes these data 
inadequate for use in watershed-wide analyses of the effect of adverse 
water-quality conditions on downstream waters. Simply put, they cannot 
simply be ``rolled up'' to provide our answer. However, existing 
monitoring efforts could be better coordinated to provide data that 
have consistent data-collection frequency and protocols, quality 
assurance, and data storage and reporting practices that will make them 
suitable and available for use in large-watershed analyses.
    Historical monitoring data provide the basis for understanding how 
important water-quality parameters, for example, nutrients, metals or 
organic contaminants, change over time. They improve our ability to 
understand the response of our waterways to natural and human-induced 
stresses. Furthermore, these data provide a baseline from which the 
effectiveness of future management actions will be measured. Both 
historical and baseline data are essential for development of sound 
modeling and decision-support tools. Design and implementation of 
monitoring networks should anticipate these data needs even in 
locations that currently are not adversely affected.
    The development of watershed level modeling and decision support 
tools is still in its infancy. We need models with improved accuracy 
and reliability, and better decision support tools to help decision 
makers. Research is needed to improve the performance of models, 
particularly on a watershed basis, and to document the causal 
relationships between water quality in dynamic river and coastal 
systems and biological productivity of plants and animals that live in 
these waters.
    The second question posed by the Committee is: ``What are the 
short-term and long-term goals of the Mississippi River/Gulf of Mexico 
Task Force? Is it on-schedule for achieving these goals?'' The Action 
Plan of the Mississippi River/Gulf of Mexico Watershed Nutrients Task 
Force, titled Action Plan for Reducing, Mitigating, and Controlling 
Hypoxia in the Northern Gulf of Mexico, defines three long-term goals 
and 11 short-term actions.
    The three long-term goals are:

        LCoastal Goal: By the year 2015, subject to the availability of 
        additional resources, reduce the five-year running average 
        extent of the Gulf of Mexico hypoxic zone to less than 5,000 
        square kilometers through implementation of specific, 
        practical, and cost-effective voluntary actions by all States, 
        Tribes, and all categories of sources and removals within the 
        Mississippi/Atchafalaya River Basin to reduce the annual 
        discharge of nitrogen into the Gulf.

        LWithin Basin Goal: To restore and protect the waters of the 31 
        States and Tribal lands within the Mississippi/Atchafalaya 
        River Basin through implementation of nutrient and sediment 
        reduction actions to protect public health and aquatic life as 
        well as reduce negative impacts of water pollution on the Gulf 
        of Mexico.

        LQuality of Life Goal: To improve the communities and economic 
        conditions across the Mississippi/Atchafalaya River Basin, in 
        particular the agriculture, fisheries and recreation sectors, 
        through improved public and private land management and a 
        cooperative, incentive based approach.

        L(The Action Plan, p. 3, is available on the Internet or in 
        hard copy upon request, http://www.epa.gov/msbasin/
        planintro.htm.)

    Publication of these goals was important progress for the Task 
Force and demonstrated a consensus among the Federal, State and Tribal 
members for moving forward together with common goals across a 
watershed that spans a significant part of the Nation and the 
associated spectrum of interests and priorities. The scientific 
uncertainty related to the time lags in the response of the watershed 
to management action makes it difficult to anticipate when improvements 
will be realized. However, continued monitoring, research, modeling, 
and adaptive management actions taken in response to the findings will 
maximize chances for achieving these goals.
    The 11 short-term actions and an associated timeline as defined by 
the Action Plan are listed at the end of this statement and are 
intended to guide progress toward achieving the long-term goals. The 
short-term actions include advancing a sub-basin management 
implementation strategy by formation of sub-basin committees and 
development of nutrient reduction strategies; landowner assistance 
plans for voluntary actions to restore, enhance or create wetlands and 
vegetative or forested buffer strips; and assistance plans for 
agricultural producers, landowners, and businesses for voluntary 
implementation of best management practices. The short-term actions 
include advancing monitoring and research strategies for both the 
Mississippi River watershed and the Gulf of Mexico to support adaptive 
management, as well as, reassessing progress toward reducing nutrient 
loads and the size of the hypoxic zone every five years.
    Progress has been made on a number of these actions. Although the 
original timeline has not been rigidly maintained, the Task Force has 
been actively pursuing its goals. Since publication of the Action Plan, 
the Task Force has met twice, in February and December 2002. It has 
formed workgroups to address management implementation, management 
actions (nonpoint source, point source and restoration), finance/
budget, and monitoring modeling and research issues. The USGS and the 
National Oceanic Atmospheric Administration (NOAA) co-chair the 
monitoring, modeling and research workgroup, which is preparing a 
Monitoring, Modeling and Research Strategy for the Task Force to 
support management implementation. This document will establish a 
framework for achieving the short-term actions related to providing the 
scientific information needed to guide adaptive management in the 
Mississippi River Watershed and northern Gulf of Mexico.
    The third question posed by the Committee is: ``To what extent are 
federal research programs focused on the appropriate issues to be most 
effective in understanding hypoxia?'' Research issues related to 
hypoxia cover a very wide range of scientific areas. USGS is involved 
in only one subset. However, coordination of federal research on 
hypoxia is a recognized priority by involved agencies. Recent 
coordination was spurred by HABHRCA and the corresponding activities of 
the Mississippi River/Gulf of Mexico Watershed Nutrients Task Force. 
Through these activities, federal scientists and other experts have 
worked together to identify research priorities that resulted in the 
Integrated Assessment and the associated six technical reports.
    Satisfying one of the Action Plan's short-term actions, an 
interagency plan was developed by NOAA, the National Science Foundation 
(NSF), USGS, and U.S. Department of Agriculture (USDA) that summarizes 
the scientific community's views of key research needs for better 
understanding and managing of coastal nutrient pollution. This 
interagency plan is titled ``Nutrient Pollution in Coastal Waters--
Priority Topics for an Integrated National Research Program for the 
United States'' (in press).
    Currently, the monitoring modeling and research workgroup of the 
Mississippi River/Gulf of Mexico Task Force is drafting a Monitoring 
Modeling and Research Strategy, to include information gathered at a 
workshop held in October 2002 and attended by over 100 expert 
scientists and managers from government agencies, universities, and the 
private sector. This strategy will identify priorities for monitoring, 
modeling and research in the Mississippi watershed and the Gulf of 
Mexico, as well as priorities for coordination, reporting, and resource 
needs.
    The National Research Council report, Clean Coastal Water: 
Understanding and Addressing the Effects of Nutrient Pollution (2000), 
identifies the need for federal leadership to support and coordinate 
the research and development needed to reduce and reverse the effects 
of nutrient over-enrichment. That report makes specific recommendations 
for federal action: including, monitoring in coastal and inland areas; 
improving models for understanding nutrient effects and forecasting 
trends; and expanding and targeting research to improve understanding 
of the causes and impacts of nutrient over-enrichment.
    These efforts among others have helped identify monitoring, 
modeling and research needs, as well as the associated needs to 
coordinate ongoing activities related to hypoxia in coastal waters. The 
current challenge is improving coordination among numerous involved 
agencies and filling important needs and gaps in current activities 
within limited resources.
    In summary, harmful algal blooms and hypoxia are important problems 
for the Nation. They occur where human activities from broad inland 
areas reach and affect coastal receiving waters. As a result, a key 
component of a successful solution is coordinated monitoring, modeling 
and research activities. This will join our efforts to understand the 
processes and factors that control the sources and causes of excess 
nutrient and related chemical loads with the processes that cause 
recurring harmful algal blooms and hypoxia in coastal waters. 
Therefore, we urge the Subcommittee to advance this joint progress and 
coordination by acknowledgement and support of both coastal and inland 
monitoring, modeling and research.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony. I will be pleased to answer any questions you and other 
Members of the Subcommittee might have.

ADDENDUM: Short-term actions and time-frames proposed in the Action 
                    Plan to achieve the long-term goals (The Action 
                    Plan, p. 13):

        #1 LBy December 2000, the Task Force with input from the States 
        and Tribes within the Mississippi/Atchafalaya River Basin, will 
        develop and submit a budget request for new and additional 
        funds for voluntary technical and financial assistance, 
        education, environmental enhancement, research, and monitoring 
        programs to support the actions outlined in the Action Plan;

        #2 LBy Summer 2001, States and Tribes in the Basin, in 
        consultation with the Task Force, will establish sub-basin 
        committees to coordinate implementation of the Action Plan by 
        major sub-basins, including coordination among smaller 
        watersheds, Tribes and States in each of those sub-basins;

        #3 LBy Fall 2001, the Task Force will develop an integrated 
        Gulf of Mexico Hypoxia Research Strategy to coordinate and 
        promote necessary research and modeling efforts to reduce 
        uncertainties regarding the sources, effects (including 
        economic effects in the Gulf as well as the basin), and 
        geochemical processes for hypoxia in the Gulf;

        #4 LBy Spring 2002, Coastal States, Tribes and relevant Federal 
        agencies will greatly expand the long-term monitoring program 
        for the hypoxic zone, including greater temporal and spatial 
        data collection, measurements of macro-nutrient and micro-
        nutrient concentrations and hypoxia as well as measures of the 
        biochemical processes that regulate the inputs, fate, and 
        distribution of nutrients and organic material;

        #5 LBy Spring 2002, States, Tribes and Federal agencies within 
        the Mississippi and Atchafalaya River Basin will expand the 
        existing monitoring efforts within the Basin to provide both a 
        coarse resolution assessment of the nutrient contribution of 
        various sub-basins and a high resolution modeling technique in 
        these smaller watersheds to identify additional management 
        actions to help mitigate nitrogen losses to the Gulf, and 
        nutrient loadings to local waters, based on the interim 
        guidance established by the National Water Quality Monitoring 
        Council;

        #6 LBy Fall 2002, States, Tribes and Federal agencies within 
        the Mississippi and Atchafalaya River Basin, using available 
        data and tools, local partnerships, and coordination through 
        sub-basin committees, described in #2 above, will develop 
        strategies for nutrient reduction. These strategies will 
        include setting reduction targets for nitrogen losses to 
        surface waters, establishing a baseline of existing efforts for 
        nutrient management, identifying opportunities to restore flood 
        plain wetlands (including restoration of river inflows) along 
        and adjacent to the Mississippi River, detailing needs for 
        additional assistance to meet their goals, and promoting 
        additional funding;

        #7 LBy December 2002, the U.S. Army Corps of Engineers (COE), 
        in cooperation with States, Tribes, and other Federal agencies, 
        will, if authorized by the Congress and funded in the fall of 
        2001, complete a reconnaissance level study of potential 
        nutrient reduction actions that could be achieved by modifying 
        COE projects or project operations. Prior to completion of the 
        reconnaissance study, the COE will incorporate nitrogen 
        reduction considerations, not requiring major modification of 
        projects or project operations or significant new costs, into 
        all project implementation actions;

        #8 LBy January 2003, or on time frame established by the sub-
        basin committees, Clean Water Act permitting authorities within 
        the Mississippi and Atchafalaya River Basin will identify point 
        source dischargers with significant discharges of nutrients and 
        undertake steps to reduce those loadings, consistent with 
        action #6 above;

        #9 LBy Spring 2003, or on time frame established by the sub-
        basin committees, States and Tribes within the Mississippi and 
        Atchafalaya River Basin with support from federal agencies, 
        will increase assistance to landowners for voluntary actions to 
        restore, enhance, or create wetlands and vegetative or forested 
        buffers along rivers and streams within priority watersheds 
        consistent with action #6 above;

        #10 LBy Spring 2003, or on time frame established by the sub-
        basin committees, States and Tribes within the Mississippi and 
        Atchafalaya River Basin, with support from federal agencies, 
        will increase assistance to agricultural producers, other 
        landowners, and businesses for the voluntary implementation of 
        best management practices (BMPs), which are effective in 
        addressing loss of nitrogen to water bodies, consistent with 
        action #6 above; and

        #11 LBy December 2005 and every five years thereafter, the Task 
        Force will assess the nutrient load reductions achieved and the 
        response of the hypoxic zone, water quality throughout the 
        Basin, and economic and social effects. Based on this 
        assessment, the Task Force will determine appropriate actions 
        to continue to implement this strategy or, if necessary, revise 
        the strategy.

    Chairman Ehlers. Thank you for your testimony. Dr. 
Carmichael.

 STATEMENT OF WAYNE W. CARMICHAEL, PROFESSOR, AQUATIC BIOLOGY 
 AND TOXICOLOGY, DEPARTMENT OF BIOLOGICAL SCIENCES; ASSOCIATE 
 DIRECTOR, ENVIRONMENTAL SCIENCES PH.D. PROGRAM, WRIGHT STATE 
                           UNIVERSITY

    Dr. Carmichael. Thank you, Mr. Chair, Members of the 
Subcommittee. This is a new experience for me, and I certainly 
appreciate it. Blooms of toxic or harmful microalgae are found 
in marine, brackish, and freshwaters. In marine environments, 
where they are commonly called the red tides, they represent a 
hazard being addressed by several state and Federal Government 
programs, including the current bill. In fresh and brackish 
waters, the HABs are due to about 40 species within seven 
genera of the algal division called the blue-green algae, or 
more correctly, Cyanobacteria. Like marine HABs, they take many 
forms, ranging from massive accumulations of cells to dilute, 
inconspicuous, but highly toxic populations.
    In contrast to marine HABs, the CyanoHABs are not commonly 
referred to as red tides since instead they discolor the water 
green, dark green, bluish green, to reddish brown. In some 
instances they even produce a massive viscous paste, as 
indicated in this slide from Lake Erie in the early 1970's when 
Lake Erie was said to be dead. Of course, it wasn't dead, only 
polluted. We don't expect a return to that past situation, but 
as you can see in this slide, the viscous green material when 
it decomposes goes to the viscous green-blue, therefore, the 
common name blue-green algae.
    These impacts from CyanoHABs include massive mortalities of 
wild, including migratory birds, deer, wild sheep, and even 
bears; domestic animals, cows, horses, sheep, pigs, ducks, 
geese, and even family pets; and farmed fish and shellfish, 
especially, salmon, trout, and shrimp; human intoxications and 
death from exposure and consumption of contaminated drinking 
water supplies; alterations of fresh and brackish food webs 
through adverse effects on microbial, invertebrate, larvae, and 
other life history stages of commercial and noncommercial fish 
species. We now even have evidence that some of these toxins, 
not in the same way that maybe the red tides do, produced by 
CyanoHABs affect reproduction and survival through the food 
web, and can move from level to level in a manner analogous to 
marine HAB toxins and xenobiotics of the chemical pollutants. 
The effects on reservoir, lake, pond, river, and stream systems 
remain poorly understood but are clearly significant.
    In some instances we have documented or are beginning to 
document the possibility that cyanobacteria are invasive when 
bringing up the earlier bill of invasive species. Some 
cyanobacteria have those characteristics. In most cases, they 
become dominant due to environmental changes. As an example, 
this slide shows a species called Cylindrospermopsis, which 
became dominant in Florida waters and now is moving to parts of 
the Midwest.
    Most of my testimony needs to address the Great Lakes, and 
that concerns possible re-emergence in the Great Lakes of the 
CyanoHABs. Even though we made significant progress in 1968 
through 2000 from interagency and international efforts at 
reduction of phosphorous, there are some indications that this 
effort may be slipping, as shown near the end of this graph, 
you see that there are some changes, there are some spikings, 
and these spikings are corresponding with new blooms in the 
late 1990's, especially, in 1995, 1996, 1998.
    The increase in Lake Erie algae has also been documented. 
These are seasonal averages of planktonic algae in the Western 
basin, central basin, and eastern basins of Lake Erie. As you 
can see, beginning in 1995, increases are taking place. 
Satellite reflectance images document this in the next slide 
from September 1995, the dark red areas represent reflectance 
images indicating high populations of algae, including the 
CyanoHABs.
    In terms of food web changes, which is one of the key 
things we are concerned with, is the zebra mussel. Recent 
studies indicate that there are changes taking place that allow 
the zebra mussel to select for the CyanoHABs, and especially, 
the ones that produce the toxins, because zebra mussels are 
particularly picky about their food source and reject toxic 
cyanobacteria. Additional changes include the invasive round 
gobi fish and the zooplankton Echinogammarus, which contribute 
to the other invasive species, and as a consequence, this is 
what we feel we are seeing in the way of the emergence of new 
blooms.
    With regards to hypoxia, the two are linked. The hypoxia 
issue is one that is not as clear. The causes of the current 
increase in CyanoHABs within the Great Lakes do not have a 
scientific consensus at present, but the research done to date 
does support the major reason as being the invasion of the 
zebra mussel. In this next slide, the zebra mussel nutrients 
plus the decomposition of algae allows for recycling of 
phosphorous plus mixing of algal blooms which sink and die and 
contribute to the decomposition process.
    The USEPA, through the Safe Drinking Water Act, has placed 
the cyanobacteria and their toxins on the candidate contaminant 
list in 1998 for research priority, including health research, 
treatment research, analytical methods research, and occurrence 
priorities. Much of that work has been done and we are moving 
on with that program.
    The necessary next steps, shown in this final slide, 
include CyanoHABs and the national HAB funding agenda; 
identify, characterize, and prioritize the primary hazards and 
risks from CyanoHABs; support a coordinated effort between 
academia, Government, and private agencies to address CyanoHAB 
rapid detection, management, and mitigation, much in the same 
way as we are approaching the marine HAB's; include a rapid 
response capability that allows for correct and balanced public 
risk communication. Thank you.
    [The prepared statement of Dr. Carmichael follows:]
               Prepared Statement of Wayne W. Carmichael
    Mr. Chair and Members of the Subcommittee. I am Wayne Carmichael, 
Professor in the Department of Biological Sciences at Wright State 
University, where I have been active in the study of toxic 
Cyanobacteria (blue-green algae), fresh and brackish water harmful 
algal blooms (HABs) for 27 years. My testimony is being provided to 
support the issues and questions being raised as part of the ``Harmful 
Algal Bloom and Hypoxia Research Amendment Act of 2003.'' I am here to 
provide the perspective of an experienced research scientist who has 
investigated most of the Cyanobacteria HAB (CyanoHAB) phenomena that 
affect fresh and estuarine waters of the United States and many of 
those same phenomena that have affected some of the world's freshwater 
supplies (China, Australia, Japan, Canada, Brazil, Argentina, Mexico, 
Great Britain, Portugal, Germany, Denmark, France, Italy, Norway, 
Finland, Russia, Ukraine, Egypt, Israel, Jordan and South Africa). 
Internationally I have served on the World Health Organization (WHO) 
Technical Group that developed the guidelines for Cyanobacteria toxins 
in drinking water supplies and with the Pan American Health 
Organization (PAHO) and the Brazilian Ministry of Health to set 
regulations for these same toxins in Brazil's public drinking water 
supplies. Within the U.S. I have been actively involved in research on 
the occurrence, distribution, toxicity and health impacts of toxic 
cyanobacteria waterblooms and more recently in assisting with the 
inclusion, by the USEPA, of toxic cyanobacteria on the Contaminant 
Candidate List (CCL) for the Safe Drinking Water Act of 1996. In the 
state, local government and private sector I have assisted with 
scientific framework and agency partnerships needed to attack the HAB 
problem in an efficient and productive manner. Thank you for the 
opportunity to acquaint you with the national problem of Cyanobacteria 
Harmful Algal Blooms (CyanoHABs) and the steps that the scientific, 
government and private community might take or are taking to address 
it.

Background

    Blooms of toxic or harmful micro algae, are found in both Marine, 
Brackish and Freshwaters throughout the world. In Marine environments, 
where they are commonly called ``red tides,'' they represent a hazard, 
that is being addressed by several State and Federal Government 
programs--including this House bill. In fresh and brackish waters HABs 
are due to about 40 species within seven genera of the algal division 
called Blue-green Algae, now more correctly called Cyanobacteria. Like 
Marine HABs they take many forms, ranging from massive accumulations of 
cells, to dilute, inconspicuous, but highly toxic populations. In 
contrast to marine HABs the CyanoHABs are not referred to as ``Red 
Tides'' since they discolor the water dark green to bluish green to 
reddish brown (and can turn the waters consistency to a thick viscous 
paste). The impacts include: mass mortalities of wild (migratory birds, 
deer, wild sheep and even bears) and domestic animals (cows, horses, 
sheep, pigs, ducks, geese and family pets) and farmed fish and 
shellfish (salmon, trout, shrimp); human intoxications and death from 
exposure and consumption of contaminated drinking water supplies; 
alterations of fresh and brackish food webs through adverse effects on 
microbial, invertebrate, larvae and other life history stages of 
commercial and non-commercial fish species. We now have some evidence 
that at least some of the toxins (Cyanotoxins) produced by CyanoHAB 
species affect reproduction and survival throughout the food web, and 
can move from level to level in a manner analogous to the Marine HAB 
toxins and xenobiotic (produced by human activities) chemical 
pollutants. The effects on reservoir, lake, pond, river and stream 
ecosystems remain poorly understood, but are clearly significant.
    Outbreaks, in 1996, of toxic Cyanobacteria in a Brazilian drinking 
water supply led to the death of at least 52 persons exposed to a 
treated public water supply used in kidney dialyses centers. While no 
human deaths have been confirmed from CyanoHABs in U.S. waters, 
beginning in the mid 1990's, an organism called Cylindrospermopsis 
focused public and political attention on CyanoHAB episodes in Florida 
that was alarming and disturbing to many, and that will impact how 
Florida transitions from its dominant use of ground water to surface 
waters for use as public drinking water supplies. In the Great Lakes 
the invasion of the freshwater zebra mussel has contributed to 
processes (now being studied) that helps select for the dominance of 
toxic Cyanobacteria. These toxic Cyanobacteria blooms contribute (as 
they did in the 1960's and 70's) to anoxia and hypoxia in certain areas 
of the Great Lakes. These are but three examples to support the 
argument that funding should be distributed so as to address all HAB 
problems, not just the ones that impact our marine ecosystems.
    In the United States, the Cyanotoxins responsible for economic and 
public health problems are (also see Table 1):

        <bullet> LMicrocystins. Microcystins are a large group of 
        livertoxic peptides (small proteins) that are produced by a 
        range of Cyanobacteria. They are also liver tumor promoters. 
        This group of cyanotoxins includes more than 65 different 
        structural variants of cyclic heptapeptides (consisting of 
        seven amino acids in a ring structure), with molecular weights 
        in the range 800-1100. The best characterized and one of the 
        most toxic variants of microcystin is microcystin-LR. Most of 
        the structural variants of microcystin are highly toxic within 
        a narrow range, although some non-toxic variants have been 
        identified.
          L  Microcystins are most commonly produced by species of the 
        genus Microcystis, from which the toxins originally derived 
        their name. However, these toxins have now been shown to be 
        produced by species of the planktonic genera Anabaena, 
        Microcystis, Planktothrix (Oscillatoria), Nostoc, and 
        Anabaenopsis, and also by a terrestrial (soil) species 
        Haphalosiphon hibernicus, indicating the potential for 
        widespread occurrence in the environment. The majority of human 
        and animal microcystin-related poisonings worldwide are 
        nevertheless associated with the presence of Microcystis. 
        Microcystins are the most significant drinking water quality 
        issue, in relation to Cyanobacterial blooms, in the U.S. 
        including the Great Lakes. Microcystins are produced 
        predominantly by Microcystis aeruginosa. They can occasionally 
        be produced by Anabaena spp. and Planktothrix.
          L  A chemically and functionally related group of livertoxic 
        peptides called the Nodularins are found in some of the worlds' 
        brackish water supplies (Baltic Sea, Australian and New Zealand 
        brackish lakes and estuaries). To date they have not been 
        identified in U.S. brackish waters.

        <bullet> LSaxitoxins. There are three types of Cyanobacterial 
        neurotoxins, anatoxin a, anatoxin a-(s) and the saxitoxins. The 
        saxitoxins include saxitoxin, neosaxitoxin, C-toxins and 
        gonyautoxins. The anatoxins seem unique to Cyanobacteria, while 
        saxitoxins are also produced by various dinoflagellates under 
        the name of paralytic shellfish poisons (PSPs). This is an 
        example of a HAB toxin group which is common to both marine and 
        freshwater HABs. A number of Cyanobacterial genera can produce 
        saxitoxins, including Anabaena, Oscillatoria, 
        Cylindrospermopsis, Cylindrospermum, Lyngbya and Aphanizomenon.
          L  The saxitoxins are a group of alkaloids that are either 
        non-sulfated (saxitoxins), singly-sulfated (gonyautoxins), or 
        doubly-sulfated (C-toxins). The various types of toxins vary in 
        potency with saxitoxin having the highest toxicity. Saxitoxins 
        exert their effect as neurotoxins by blocking nerve conduction 
        and causing death by respiratory arrest. Saxitoxin is a member 
        of the CDC Select Agent List for its potential use as 
        bioweapon.
          L  Saxitoxins have been recorded in only a few locations 
        throughout the U.S. (New Hampshire, Alabama and New Mexico). No 
        occurrences have yet been reported in the Great lakes. A few 
        animal deaths have been linked to saxitoxins in U.S. 
        freshwaters but most poisonings are from exposures through 
        marine waters as the causative agent of PSPs. In temperate 
        parts of Australia, blooms of saxitoxin producing Cyanobacteria 
        are very prevalent. The first reported neurotoxic bloom of 
        Anabaena in Australia occurred in 1972. The most publicized 
        bloom occurred in late 1991 and extended over 1,000 km of the 
        Darling-Barwon River system in New South Wales. A state of 
        emergency was declared with a focus on providing safe drinking 
        water to towns, communities and landholders. Thousands of stock 
        deaths were associated with the occurrence of the bloom but 
        there was little evidence of human health impacts.

        <bullet> LAnatoxins. The other neurotoxic cyanotoxins are 
        anatoxin-a and anatoxin-a(s). Both are alkaloids which cause 
        death by respiratory paralysis. They are both chemically and 
        functionally different from saxitoxin. Anatoxin-a is a 
        secondary amine alkaloid, with one natural analog Homoanatoxin-
        a. They are neurotoxic by depolarizing acetylcholine receptors, 
        leading to death by respiratory arrest. It is the second most 
        common cyanotoxin in U.S. waters and has been identified in a 
        few Great Lakes water samples. It has been responsible for 
        massive die-offs of migrating birds in the mid west and in 
        intermittent but repeated poisonings of wild and domestic 
        animals in several U.S. states especially the West. Anatoxin-
        a(s) is an organophosphate with toxicities similar, but more 
        potent than, the known organophosphate pesticides. It is 
        neurotoxic by inhibiting breakdown of acetylcholine 
        (anticholinesterase). It is not as common as Anatoxin-a but has 
        been responsible for a few animal (especially domestic dogs) 
        and bird poisonings in the U.S.. It has not been identified to 
        date in the Great Lakes.

        <bullet> LCylindrospermopsin. Cylindrospermopsin is an alkaloid 
        toxin with a molecular weight of 415, produced by the 
        freshwater Cyanobacteria, Cylindrospermopsis raciborskii, 
        Aphanizomenon ovalisporum, Umezakia natans and Raphidiopsis. It 
        was first characterised and named from an Australian isolate of 
        C. raciborskii. In pure form cylindrospermopsin is 
        predominantly a liver toxin, although extracts of C. 
        raciborskii administered to mice induce toxicity in the 
        kidneys, spleen, thymus, heart and eye. Other chemical variants 
        of cylindrospermopsin have been isolated from C. raciborskii, 
        including a deoxycylindrospermopsin.
          L  Cylindrospermopsin is believed to have been the causative 
        agent in a drinking water poisoning incident in Queensland, 
        Australia in 1979, in which 148 people were hospitalized. C. 
        raciborskii has been found in many water supply reservoirs in 
        northern, central and southern Queensland. In the U.S. C. 
        raciborskii has become dominant in many water supplies in 
        Florida over the past 10 years. To date it has not been 
        identified in any of the Great Lakes. Even though it is 
        considered to be predominantly tropical/sub-tropical in terms 
        of habitat, it has begun to invade certain U.S. Midwest 
        drinking water supplies since about 2000. C. raciborskii is not 
        a scum-forming organism, but forms dense bands below the water 
        surface in stratified lakes. Its toxin is readily released into 
        the water making it present even when cells are not apparent.

        <bullet> LLyngbyatoxins. Lyngbyatoxins are produced by a few 
        genera of marine Cyanobacteria. As such they are not a hazard 
        for freshwater supplies. They are potent contact irritants and 
        skin tumor promoters and are mainly a problem as a cause of 
        swimmers itch from recreational waters. There is one reported 
        occurrence of this toxin in Florida coastal waters.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

Testimony on specific questions provided by the House Subcommittee:

1) LProvide an overview of the most pressing water quality issues that 
exist today in the Great Lakes regarding the increase in occurrences of 
harmful algal blooms and hypoxia.

    CyanoHABs have a wide array of economic impacts, including the 
costs of conducting routine monitoring programs for public drinking and 
recreational water supplies, short-term and long term losses from 
aquacultured shrimp and fish stocks, reductions in seafood sales, 
losses of submerged aquatic vegetation, bottom-up impacts on tourism 
and tourism-related businesses, and medical treatment of exposed 
populations. These economic losses are difficult to estimate, and 
fluctuate dramatically from year to year since toxic waterblooms are an 
intermittent occurrence as weather and water conditions change. An 
estimate of CyanoHAB costs to the entire United States has not been 
done, but as with Marine HAB events they can be significant.
    The nature of the CyanoHAB problem has changed considerably over 
the last three decades in the United States. In the 1970's the main 
CyanoHAB threat was as an intermittent but repeated cause of wild and 
domestic poisonings in lakes, ponds and reservoirs. Lake Erie was 
experiencing massive blooms of Cyanobacteria which caused significant 
economic problems but the presence of cyanotoxins was not known at the 
time and therefore not considered a factor in the harmful effects from 
these waterblooms. Improved control of point source nutrient inputs and 
other sound water management problems led to a significant decrease in 
Cyanobacterial nuisance water blooms in the western basin of Lake Erie. 
Since this time more investigations (and improved detection methods) 
into the toxicity of Cyanobacteria and the toxins they produce, made it 
clear that poisonings of Cyanobacteria were more frequent and 
widespread than previously thought. In addition the increased use and 
manipulation of freshwater supplies led to more widespread nutient 
enrichment and changes that selected for conditions in which 
Cyanobacteria waterblooms can dominate. Virtually every state has now 
documented recurrent harmful or toxic Cyanobacteria species, whereas 30 
years ago, the problem was much more scattered and sporadic. Few would 
argue that the number of toxic waterblooms, the economic losses from 
them, the health impacts and the number of toxins and toxic 
Cyanobacteria species have all increased dramatically in recent years 
in the United States and around the world.
    A common assumption, that is largely true, is that pollution or 
other human activities are responsible for this expansion with 
geographic factors such as length of season and seasonal variations in 
weather being able to moderate or exacerbate this cause. Scientists are 
also much better at detecting known toxins and finding new ones than 
ever before, in part because analytical instruments and methods are 
vastly improved and because there is rapid and efficient communication 
throughout the world. The finding of Cylindrospermopsin in many of 
Florida's lakes and rivers was made easier by its identification first 
in Australia followed by good scientific communication and interaction 
among scientists. The re-emergence of CyanoHABs in the Great Lakes may 
have its root cause in the invasion by zebra mussels but the link to 
toxins came about because of new methods of detection and good 
communication among scientists working in diverse fields. As with 
Marine HABs massive waterblooms of CyanoHABs are strongly linked to 
pollution, as the input of sewage to inland waters will stimulate 
``background'' populations of Cyanobacteria by supplying them with 
nutrients, allowing the populations to grow faster and longer. Harmful 
or toxic species will thus be more abundant and more noticeable. The 
sudden appearance of CyanoHABs can be viewed as a visible and dramatic 
warning of the dangers that arise from decades of abuse of our inland 
waters--the canary in the coal mine analogy.
    It is clear then that the expansion of the CyanoHAB problem is in 
part a matter of perception or increased awareness, and in part a 
matter of the actual growth of the problem. In other words, years ago 
we were not aware of the size or complexity of the CyanoHAB problem, 
but as we became better at detecting toxins and recognizing CyanoHAB 
phenomena, we more clearly defined the extensive boundaries of the 
problem. On top of this apparent increase there has been genuine growth 
in the problem due to such factors as pollution, manipulation of water 
systems for agricultural, residential and municipal water use and 
aquaculture. The fact that some of the increase is simply a result of 
better detection or more observers does not diminish the seriousness of 
the CyanoHAB problem. It needs to be given attention and research in a 
manner similar to that for the Marine HABs.
    The causes of the current increase in CyanoHABs within the Great 
Lakes do not have a scientific consensus. The research done to date 
supports the major reason as being the invasion by zebra mussels. A 
summary of how this may work is as follows:

        <bullet> LHigh phosphorus led to massive waterblooms in the 
        1960's and 70's

        <bullet> LControls on external P loading implemented by early 
        1980s (Water quality agreement between Canada and the USA Great 
        Lakes neighboring states)

        <bullet> LRecovery of Lake Erie by late 1980s

        <bullet> LInvasion by zebra mussels late 1980s

        <bullet> LRecurrence of nuisance blooms by late 1990s

    The zebra mussel invasion continues to colonize hard and soft 
substrates in the Great Lakes. It continues to change ecosystem 
function and leads to higher Cyanobacteria populations through high 
particle filtration rates along with selective rejection of colonial 
cyanotoxin producing Cyanobacteria. These cyanotoxin producing 
organisms lead to the problems of water quality being addressed by this 
testimony.
    The problem with hypoxia and even anoxia in the Great Lakes is not 
new but the recent increase may be at least partly due to algae 
populations changing to a dominance of Cyanobacteria. The recent 
hypoxic areas are largely confined to Lake Erie. A summary of this 
problem is given below (kindly provided by Prof. David Culver-Ohio 
State University).

Anoxia in Central Lake Erie

The Problem: Lake Erie water quality affects drinking water, swimming, 
and fish survival

    High availability of phosphorus decreases Lake Erie water quality. 
Low water quality increases the amounts of taste and odor causing 
compounds and even toxic compounds from Cyanobacteria in drinking 
water. Toxic Cyanobacteria tend to float to the surface in later summer 
and can be blown to shore, increasing the likelihood they will be taken 
in by potable water intakes and causing risks for swimmers, and for 
wildlife, livestock, and pets that may drink from the shore of the 
lake. Toxic Cyanobacteria have been shown to negatively affect the food 
chain upon which fish depend. Bacterial contamination from combined 
sewer overflows similarly affects these groups.

Causes: The thin Central Basin hypolimnion makes it susceptible to 
anoxia

    The cool layer at the bottom of the lake (the hypolimnion) receives 
too little light for much photosynthesis, and is cut off from 
atmospheric oxygen because it is denser than the warm layer 
(epilimnion) floating on top. Because of the shape of Lake Erie, its 
central basin hypolimnion is only 2 or 3 m deep, whereas its epilimnion 
is 18 m deep. As the lake decreases to water levels closer to the long-
term average, the hypolimnion can become even thinner. Algae and 
animals produced in the epilimnion die and release feces that settle 
into the hypolimnion, where they decompose, consuming oxygen. The more 
nutrients available in the epilimnion, the greater the algal growth 
there. The more algae produced, the faster the rate of consumption of 
oxygen in the hypolimnion. It is a race between the rate of consumption 
of oxygen and the occurrence of the total circulation of the lake in 
September, which is caused by cooling of the surface waters.

Effects: Low oxygen in the Central Basin bottom waters decreases fish 
habitat

    Most fish species cannot tolerate oxygen levels less than 3 ppm 
(e.g., walleye, yellow perch), and some require 4 ppm or more. Because 
the central basin is very flat, an increase in the area where 
concentration at the bottom is less than 3 ppm will greatly decrease 
the area useable by game fish and small fish upon which they depend for 
food. Lower concentrations yet will kill the benthic insects (e.g., 
mayflies) and plankton that these fish eat.

Effects: Low oxygen in the Central Basin bottom waters recycles 
phosphorus, producing more algae

    Phosphate ions in the sediments are bound by iron and clays fairly 
well under aerobic conditions. When sediments become anoxic, however, 
the ferric iron is reduced to ferrous iron and the phosphate is then 
much more soluble and diffuses out of the sediment. This phosphate can 
be mixed up into the surface waters when the lake circulates in 
September, causing additional algal growth.

Effects: Algae decreased in abundance from 1970 to 1997, but have 
increased since then

    Central Basin algae biomass declined from 3 to 0.6 g/m<SUP>3</SUP> 
from 1970 to 1997, but 2001 abundances (2.0 g/m<SUP>3</SUP> ) are now 
as high as they were in the early 1980s, suggesting that water quality 
improvements are being reversed. This is all reflected in the 
planktonic animals in the lake. Algae increases are made up in part by 
toxic strains of Cyanobacteria, which had become rare in the early 
1990s. EPA phosphorus data also show this trend. There is no evidence 
that increases in inputs from the watershed have occurred, although 
accurate estimates of inputs are difficult to obtain.

Possible Causes: Zebra mussels have recycled phosphorus

    Zebra mussels have recycled phosphorus and nitrogen in algae that 
otherwise would have settled to the sediments and stayed there. They 
consume algae all year round, providing continuous recycling of 
nutrients that can encourage algal growth. Their effects will be 
particularly felt in the western basin and near shore, but these waters 
also flow into the central basin where the anoxic hypolimnion occurs.

Possible Causes: Quagga mussels are replacing zebra mussels

    Quagga mussels (another introduced species) are replacing zebra 
mussels in the whole lake. Our preliminary data suggest quagga mussels 
excrete more phosphate and ammonia than do zebra mussels for 
equivalent-sized individuals.

Possible Causes: Combined sewer overflows bypass nutrient removal at 
sewage treatment plants

    Phosphorus and nitrogen inputs to the lake are increased by storm-
induced overflows from combined storm water and sanitary sewers.

Solutions: zebra or quagga mussels cannot be removed

    There is no way to remove zebra or quagga mussels from the lake.

Solutions: decrease human input of nutrients

    If recycling by animals in the lake is increasing, our only 
solution is to decrease inputs of nutrients, particularly phosphorus, 
from point and non-point sources. As the human population increases in 
the Lake Erie watershed, it will require even greater efforts to 
decrease nutrient inputs.

Solutions: support better nutrient modeling of the lake

    Scientific studies of the interactions among water circulation, 
nutrient inputs, and the plants and animals in the lake are hampered by 
incomplete information on the sources and amounts of nutrients coming 
in from rivers and direct discharge into the lake. Increase efforts in 
monitoring inputs of nutrients, especially phosphorus and nitrogen into 
the lake.

2) LTo what extent is research on freshwater harmful algal blooms 
funded by private entities and what benefit does it provide to them. To 
what extent are federal research programs focused on the appropriate 
issues in order to be most effective in understanding harmful algae 
blooms.

    The problems of CyanoHABs are addressed by several private and 
public groups and agencies. Historically the lead public agency has 
been the USEPA. They funded a conference on the topic in 1980 but no 
programs or policies were produced and further funding was limited. In 
the 1980's DOD through USAMRID funded research related to an 
understanding of basic toxicology, detection and decontamination of 
Cyanotoxins. The ECOHAB program formed in the 1990's was directed 
almost solely toward Marine HABs and no significant funding was made to 
the issue of CyanoHABs. During this time other countries did make 
significant efforts toward funding of CyanoHAB research and toward a 
national program of coordinated research. This was most notable in 
Australia where a national algal task force was formed and still 
operates. Their efforts are largely responsible for the information 
available on public health consequences, monitoring, management and 
mitigation of CyanoHABs published by WHO in 1999 (Chorus and Bartram 
1999). In Europe the EU is currently funding several multinational 
efforts at these same goals. The new research on Cyanobacteria and 
Cyanotoxins in the U.S. is largely being funded by the USEPA (as needed 
for the Candidate Contaminant List work through the Safe Drinking Water 
Act) and some state Health Agencies (i.e., Florida through funding from 
the State Harmful Algae Task Force). Other recent projects are funded 
by MERHAB, the National Sea Grant Program and the Lake Erie Protection 
Fund. Private funding has largely come through the American Water Works 
Research Foundation (AwwaRF). This work is in direct support of 
foundation member water utilities who need to be able to respond better 
to taste and odor and toxin events of Cyanobacteria. In all of these 
efforts there is little coordination of projects. This could be one of 
the key ways that the current HAB legislation could be of assistance. 
It is possible that the national plan formed for Marine HABs could be 
model for this effort (National Plan for Marine Biotoxins and Harmful 
Algae--Anderson et al., 1993).
    Another related need is for skilled research teams with the 
equipment and facilities required to attack the complex scientific 
issues involved in CyanoHAB phenomena. Like the Marine HAB funding 
program, this argues for funding that does not ebb and flood with the 
sporadic pattern of CyanoHAB outbreaks or that focuses resources in one 
region while others go begging. There needs to be an equitable 
distribution of resources that is consistent with the scale and extent 
of the national problem, and that is sustained through time. This is 
the only way to keep research teams intact, forming the core of 
expertise and knowledge that leads to scientific progress. To achieve 
this balance, we need a scientifically based allocation of resources, 
not one based on political jurisdictions.
    Another need is for targeted funding programs which recognize that 
management of CyanoHAB phenomena requires expertise in many disciplines 
ranging from toxicology and public health to freshwater ecology and 
basic lake/reservoir management. This means that like the Marine HAB 
effort, coordination from NOAA in partnership with the National Science 
Foundation, the United States Environmental Protection Agency, the 
Centers for Disease Control, the National Institutes of Environmental 
Health and the National Aeronautics and Space Administration is needed.
    The Centers for Disease Control and Human Studies Divison within 
the USEPA are both pursuing a modest effort at epidemiology and public 
health. Toxin production by several CyanoHAB species can seriously 
impact wild and domestic and pose threats to human health, yet our 
epidemiological and toxicokinetics knowledge of these toxins is 
limited. There is however insufficient federal support to address all 
toxins, toxic species, modes of action, detection methods, and impacts 
on coastal resources, food webs and humans. Acute single-dose lethality 
of toxins has been studied extensively, but chronic and/or repeated 
exposure to Cyanotoxins, which is a more realistic phenomenon, has not 
been adequately examined. There are also new toxins, such as those 
associated with the recent Cylindrospermopsis outbreaks, whose toxins 
may be genotoxic but whose health effects remain uncharacterized. These 
knowledge gaps prevent researchers from devising antidotes or effective 
treatments which may alleviate or lessen the symptoms.
    A final program need reflects the fact that when unexpected 
CyanoHAB outbreaks occur, the state and federal response has often been 
confused, uncoordinated, slow, and contentious. Illnesses and deaths 
from CyanoHABs have occurred in other countries and conditions are 
becoming right for their occurrence in the U.S. A ``rapid response'' 
similar to what has been developed with Marine HABs, that will allow 
scientists and regulators to investigate unexpected CyanoHAB outbreaks, 
is needed. This requires both funding and leadership. A related need is 
for a public risk communication strategy to provide up-to-date, 
accurate information on CyanoHAB outbreaks for the public, journalists, 
the medical community, and the fisheries industry.

3) LWhat technologies exist or could be developed in the near future to 
monitor for and to control and mitigate harmful algal blooms in the 
Great Lakes.

    Since the 1980's good methods have been developed to detect 
Cyanotoxins. The three major detection methodologies are biological, 
physicochemical and biochemical. Biological methods include the use of 
small animals (i.e., mouse, fish, invertebrates) and microbial (i.e., 
bacteria). These methods provide initial screening data on the presence 
and sometimes type (i.e., signs of poisoning) of toxin but are 
generally less sensitive and certainly less qualitative than the other 
two methods. Now that chemical and toxicological information is 
available for the cyanotoxins, physicochemical and biochemical methods 
of detection are being used. The more common of these include 
chromatographic (TLC, HPLC), mass spectral using FAB, ESI and SIM and 
nuclear magnetic resonance. These physicochemical methods are sensitive 
and are of high utility for qualitative analysis. The biochemical 
methods are replacing the bioassays as a rapid screening procedure and 
have an added advantage in that they are very sensitive. These methods 
include immunoassays (especially ELISA) and enzyme assays. The 
biochemical assays are less qualitative than the physicochemical assays 
but are just as sensitive and more rapid making them particularly 
useful to screen environmental samples. Newer methods for monitoring 
and screening that could be developed are based upon genetic and 
biosensor probes.
    Although these methods are all good research tools none have been 
developed for rapid monitoring applications. In a workshop sponsored by 
the USEPA in May of 2001 this point was emphasized in the final report. 
Other points mentioned were:

        <bullet> LAnalytical standards are needed for all algal toxins, 
        except Saxitoxins which are already available through FDA and 
        the NRC in Canada.

        <bullet> LSome Microcystins are commercially available but 
        there is need for the other toxins (Anatoxin-a, 
        Cylindrospermopsin) to become commercially available.

        <bullet> LELISA assays are needed for Cylindrospermopsin and 
        Anatoxin-a.

        <bullet> LMolecular and genetic based probes are needed.

        <bullet> LAnalytical methods need to be made into standard 
        methods.

        <bullet> LAcute and chronic effects of algal toxicity need to 
        be studied.

        <bullet> LSampling should take place in raw water, finished 
        water, and storage reservoirs.

        <bullet> LLow and high level chronic biotoxin studies need to 
        be performed.

4) LProvide written comments and suggestions on the draft 
reauthorization bill.

    The ``Harmful Algal Bloom and Hypoxia Research Amendments Act of 
2003'' represents a significant effort to expand the ``Harmful Algal 
Bloom and Hypoxia Research and Control Act of 1998.'' This expansion is 
an overdue acknowledgement that the fresh and brackish water HAB 
organisms, represented primarily by the Cyanobacteria, represent a 
significant hazard to the safety and quality of the nations freshwater 
supplies. Specific points for the draft bill text are to be sure and 
include a reference to all U.S. freshwaters (not just the Great Lakes) 
in qualifying for inclusion in the acts revisions. For example page 3 
line 24 onto page 4 line 1--ecosystems (including the Great Lakes and 
other inland waters).

Overview

    The diverse and sporadic nature of the CyanoHAB phenomena 
throughout the U.S. pose an additional challenge to the development of 
an expanded national HAB program. Nevertheless, the combination of 
planning, coordination, and a highly compelling topic with great 
societal importance have set the stage for cooperation between 
officials, government scientists and academics in a sustained attack on 
the CyanoHAB problem. The rate and extent of progress from here will 
depend upon how well different federal agencies can work together, how 
much funding support is provided, and on how effectively the skills and 
expertise of government and academic scientists can be targeted on 
priority topics. In this testimony, I have tried to provide an overview 
of the status of the CyanoHAB problem, emphasizing the challenges as 
well as the significant progress that has been made in understanding 
the nature of the problem which can be used as the foundation toward 
implementing a national program. The CyanoHAB community in the U.S. is 
small compared with its counterpart in Europe, Australia and Japan. 
However the existence of a strong U.S. Marine HAB effort and the 
availability of well trained scientists and government officials well-
positioned to undertake the additional HAB challenges make this 
expanded national program well worth the effort. It will however be 
successful only if a coordinated, multi-faceted interagency effort can 
be implemented to focus research personnel, facilities, and financial 
resources on the diverse goals of this expanded comprehensive national 
strategy.
    Mr. Chair, that concludes my testimony. I would be pleased to 
answer any questions that you or other Members may have.

Literature citations

Anderson, D.M., Galloway, S.B., and Joseph, J.D. 1993. Marine Biotoxins 
        and Harmful Algae: A National Plan. Woods Hole Oceanographic 
        Institution Tech. Report, WHOI 93-02. Woods Hole, MA. 59pp.
Carmichael, W.W. 1997. The Cyanotoxins. In Advances in Botanical 
        Research (ed. Callow, J.) 27, 211-256 Academic Press, London.
Carmichael, W.W. 2001. Health Effects of Toxin Producing Cyanobacteria: 
        ``The CyanoHABS,'' Human and Ecological Risk Assessment 
        7(5):1393-1407.
Carmichael, W.W., Azevedo, M.F.O., An, J.S., Molica, R.J.R., Jochimsen, 
        E.M., Lau, S., Rinehart, K.L., Shaw, G.R., Eagelsham, G.K. 
        2001. Human Fatalities from Cyanobacteria: Chemical and 
        Biological Evidence for Cyanotoxins. Environmental Health 
        Perspectives 109(7):663-668.
Carpenter, E.J., Carmichael, W.W. 1995. Taxonomy of Cyanobacteria. In 
        Hallegraeff, G.M. et al. (eds.) Manual on Harmful Marine 
        Microalgae pp. 373-80. IOC Manuals and Guides No. 33 UNESCO.
Chorus, I., Bartram, J. (eds.) 1999. Toxic Cyanobacteria in Water: A 
        Guide to Their Public Health Consequences, Monitoring and 
        Management. World Health Organization, E&FN Spon, Routledge, 
        London.
Hallegraeff, G.M., Anderson, D.M., Cembella, A.D. (eds.) 1995. Manual 
        on Harmful Marine Microalgae 551 pp. IOC Manuals and Guides No. 
        33 UNESCO.
Jochimsen, E.M., Carmichael, W.W., An, J.S., Cardo, D.M., Cookson, 
        S.T., Holmes, C.E.M., Antines, M.b. de C., Filho, D.A. de Meb, 
        Lyra, T.M., Burreto, V.T.S. , Azevedo, S.M.F.O. and Jarvis, 
        W.R. 1998. Liver Failure and Death Following Exposure to 
        Microcystin Toxins at a Hemodialysis Center in Brazil. New Eng. 
        J. Medicine. March 26, 1998, V. 338(13):873-878.
Ressom R., Soong, F.S., Fitzgerald, J., Turczynowicz, L., Saadi, O.E., 
        Roder, D., Maynard, T., Falconer, I. (eds.) 1994. Health 
        Effects of Toxic Cyanobacteria (blue-green algae), National 
        Health and Medical Research Council, Australian Govt. Pub. 
        Service, Canberra.
Turgeon, D.D., Sellner, K.G, Scavia, D. and Anderson, D.M. 1998. Status 
        of U.S. Harmful Algal Blooms: Progress towards a National Plan. 
        NOAA.
Yoo, R.S., Carmichael, W.W., Hoehn, R.C., Hrudey, S.E. (eds.) 1995. 
        Cyanobacterial (Blue-green Algal) Toxins: A Resource Guide 229 
        pp. AWWA Research Foundation and American Water Works 
        Association, Denver.

    Chairman Ehlers. Thank you very much. Didn't that look like 
a particularly tasty substance? Dr. Anderson.

  STATEMENT OF DONALD M. ANDERSON, SENIOR SCIENTIST, BIOLOGY 
 DEPARTMENT, WOODS HOLE OCEANOGRAPHIC INSTITUTE, MASSACHUSETTS

    Dr. Anderson. Thank you, Mr. Chairman. Let me begin with a 
very brief introduction to marine harmful algal blooms or HABs. 
Among the thousands of species of microscopic algae at the base 
of the marine food chain--these are the ``blades of grass'' of 
the ocean--are a few dozens which produce potent toxins. These 
species make their presence known in a variety of ways, 
sometimes through massive blooms that discolor the water, 
sometimes through mass mortalities of wild fish, like these in 
Texas or these in Florida. We have human intoxications and even 
death from contaminated shellfish or fish, death of seabirds, 
whales, marine mammals, and marine animals of all kinds, and 
even aerosolized toxins that drive tourists and coastal 
residents from the beaches.
    These problems affect every coastal state in the U.S., but 
an important consideration is the trend through time, which is 
very disturbing as seen in this image. The top panel shows the 
situation 30 years ago and the problems we recognized with HABs 
at that time. The bottom panel shows the situation now. We, 
clearly, have many more areas affected by many more types of 
toxins and HAB impacts. And to address this pressing national 
problem, scientists and agency officials have worked together 
to formulate and implement research programs.
    I have been asked to comment, what have we learned, what 
tools have we developed for managers, and what are the next 
steps. First of all, with respect to what have we learned, an 
example from the Gulf of Maine. We now have identified the 
origins of the toxic cells that are responsible for the 
paralytic shellfish poisoning episodes in that region by 
mapping out the locations of dormant resting cysts in bottom 
sediments. These are seed beds or accumulation zones, and we 
have identified a number of them, and these are the locations 
from which the cells germinate and populate the water column 
with swimming toxic cells which then multiply and cause the 
annual toxicity. We also know that the Bay of Fundy serves as 
an incubator or source for the toxic cells that ultimately 
escape and enter into the Gulf of Maine, as you see in this 
image map of the toxic organisms.
    You also see that we have an offshore accumulation of toxic 
cells. Prior to these programs, we had no knowledge of offshore 
origins for these blooms, and through these studies, the 
recurrent, self-seeding, and propagating nature of this 
regional paralytic shellfish poisoning problem has been 
elucidated.
    Now, if we look down to Florida, we find that similar 
studies have revealed the locations of toxic cells offshore in 
the Gulf of Mexico and the manner in which they are transported 
onshore. Studies of nutrient uptake by the red tide organisms 
in Florida suggest a fascinating link between Gulf of Mexico 
red time blooms and, believe it or not, dust storms from the 
Sahara. These are just a few of the many advances in our 
understanding that have accrued from the past five years and 
there are really many more.
    What tools have we developed? Well, new technologies are 
urgently needed to facilitate the detection and identification 
of HAB cells and toxins, and one very useful technology is 
shown in this image using ``probes'' that we use to label only 
the HAB cells of interest so they can be detected visually, 
electronically, or chemically. Progress has been rapid and 
probes of several different types are available for many of the 
harmful algae. These probes are now being incorporated into a 
variety of different assay systems, including some that can be 
mounted on buoys and left unattended while they robotically 
sample the water and test for HAB cells. Information is now 
being collected that can be used to make HAB forecasts.
    Another type of bloom detection is possible using remote 
sensing data from satellites. Satellite images are being used 
to track toxic red tides in the Gulf of Mexico and the Gulf of 
Maine. In the Gulf of Mexico, bloom forecast bulletins like the 
one you see here are now being provided to affected states. 
Again, these are just a few examples of many.
    Finally, what steps are needed from here. The support 
provided to HAB research through HABHRCA has had a tremendous 
impact on our knowledge of HAB phenomena and on the development 
of tools. I believe federal funds are focused in the 
appropriate way and on appropriate issues in this regard. I 
would state first of all that ECOHAB support--this is one of 
the major programs that has been supported through this 
program--should be sustained and expanded, as should MERHAB and 
another program that I will mention in a second, called Oceans 
and Human Health. I should say, though, that support for 
research on freshwater cyanobacteria should definitely be 
supported, but with new and separate funds. These are separate 
problems, marine and freshwater HABs.
    One program that should be expanded is a partnership 
between the National Institutes of Environmental Health 
Sciences and NSF to create Centers for Oceans and Human Health. 
This expansion is best accomplished through additional funds to 
these agencies as well as through the involvement of other 
agencies with interests in that topic. Finally, it is also 
apparent that a program on prevention, control, and mitigation 
of HABs is needed as proposed in your legislation, and I fully 
support such a program.
    To conclude, let me say that the legislation before you is 
a critical part of a coordinated national program that has been 
effective and productive, and I commend you for your support of 
it and your efforts to change it. The HAB scientific community 
is fully capable of undertaking the new challenges in that 
legislation. Thank you, Mr. Chairman.
    [The prepared statement of Dr. Anderson follows:]
                Prepared Statement of Donald M. Anderson
    Mr. Chairman and Members of the Subcommittee. I am Donald M. 
Anderson, a Senior Scientist in the Biology Department of the Woods 
Hole Oceanographic Institution, where I have been active in the study 
of red tides and harmful algal blooms (HABs) for 25 years. I am here to 
provide the perspective of an experienced scientist who has 
investigated many of the harmful algal bloom (HAB) phenomena that 
affect coastal waters of the United States and the world. I am also 
Director of the U.S. National Office for Marine Biotoxins and Harmful 
Algal Blooms, and have been actively involved in formulating the 
scientific framework and agency partnerships that support and guide our 
national program on HABs. Thank you for the opportunity to acquaint you 
with the national problem of HABs, the present status of our research 
progress, and the future actions that are needed to maintain and expand 
this vibrant and important national program.

BACKGROUND

    Among the thousands of species of microscopic algae at the base of 
the marine food chain are a few dozen which produce potent toxins. 
These species make their presence known in many ways, sometimes as a 
massive ``bloom'' of cells that discolor the water, sometimes as 
dilute, inconspicuous concentrations of cells noticed only because they 
produce highly potent toxins which either kill marine organisms 
directly, or transfer through the food chain, causing harm at multiple 
levels. The impacts of these phenomena include mass mortalities of wild 
and farmed fish and shellfish, human intoxications or even death from 
contaminated shellfish or fish, alterations of marine trophic structure 
through adverse effects on larvae and other life history stages of 
commercial fisheries species, and death of marine mammals, seabirds, 
and other animals.
    Blooms of toxic algae are commonly called ``red tides,'' since the 
tiny plants sometimes increase in abundance until they dominate the 
planktonic community and tint the water with their pigments. The term 
is misleading, however, since toxic blooms may be greenish or brownish; 
non-toxic species can bloom and harmlessly discolor the water; and, 
conversely, adverse effects can occur when some algal cell 
concentrations are low and the water is clear. Given the confusion, the 
scientific community now uses the term ``harmful algal bloom'' or HAB.
    HAB phenomena take a variety of forms. With regard to human health, 
the major category of impact occurs when toxic phytoplankton are 
filtered from the water as food by shellfish which then accumulate the 
algal toxins to levels that can be lethal to humans or other consumers. 
These poisoning syndromes have been given the names paralytic, 
diarrhetic, neurotoxic, azaspiracid, and amnesic shellfish poisoning 
(PSP, DSP, NSP, AZP, and ASP). All have serious effects, and some can 
be fatal. Except for ASP, all are caused by biotoxins synthesized by a 
class of marine algae called dinoflagellates. ASP is produced by 
diatoms that until recently were all thought to be free of toxins and 
generally harmless. A sixth human illness, ciguatera fish poisoning 
(CFP) is caused by biotoxins produced by dinoflagellates that grow on 
seaweeds and other surfaces in coral reef communities. Ciguatera toxins 
are transferred through the food chain from herbivorous reef fishes to 
larger carnivorous, commercially valuable finfish. Another human 
illness linked to toxic algae is called Possible Estuary-Associated 
Syndrome (PEAS). This vague term reflects the poor state of knowledge 
of the human health effects of the dinoflagellate Pfiesteria piscicida 
and related organisms that have been linked to symptoms such as 
deficiencies in learning and memory, skin lesions, and acute 
respiratory and eye irritation--all after exposure to estuarine waters 
where Pfiesteria-like organisms have been present (Burkholder and 
Glasgow, 1997). Yet another human health impact from HABs occurs when a 
class of algal toxins called the brevetoxins becomes airborne in sea 
spray, causing respiratory irritation and asthma-like symptoms in 
beachgoers and coastal residents, typically along the shores of the 
Gulf of Mexico. The documented effects are acute in nature, but studies 
are underway to determine if there are also long-term consequences of 
toxin inhalation.

Distribution of HAB Phenomena in the United States. With the exception 
of DSP and AZP, all of the poisoning syndromes described above are 
known problems within the U.S. and its territories, affecting large 
expanses of coastline (Fig. 1). PSP occurs in all coastal New England 
states as well as New York, extending to offshore areas in the 
northeast, and along much of the west coast from Alaska to northern 
California. Overall, PSP affects more U.S. coastline than any other 
algal bloom problem. NSP occurs annually along Gulf of Mexico coasts, 
with the most frequent outbreaks along western Florida and Texas. 
Louisiana, Mississippi, North Carolina and Alabama have also been 
affected intermittently, causing extensive losses to the oyster 
industry and killing birds and marine mammals. ASP has been a problem 
for all of the U.S. Pacific coast states. The ASP toxin has been 
detected in shellfish on the east coast as well, and in plankton from 
Gulf of Mexico waters. Human health problems from Pfiesteria species 
(PEAS) are thus far poorly documented, but have affected laboratory 
workers, fishermen, and others working in or exposed to estuarine 
waters in several portions of the southeastern U.S. CFP is the most 
frequently reported non-bacterial illness associated with eating fish 
in the U.S. and its territories, but the number of cases is probably 
far higher, because reporting to the U.S. Center for Disease Control is 
voluntary and there is no confirmatory laboratory test. In the Virgin 
Islands, nearly 50 percent of the adults are estimated to have been 
poisoned at least once, and some estimate that 20,000-40,000 
individuals are poisoned by ciguatera annually in Puerto Rico and the 
U.S. Virgin Islands alone. CFP occurs in virtually all sub-tropical to 
tropical U.S. waters (i.e., Florida, Hawaii, Guam, Virgin Islands, 
Puerto Rico, and many Pacific Territories). As tropical fish are 
increasingly exported to distant markets, ciguatera has become a 
worldwide problem.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Economic and Societal Impacts. HABs have a wide array of economic 
impacts, including the costs of conducting routine monitoring programs 
for shellfish and other affected resources, short-term and permanent 
closure of harvestable shellfish and fish stocks, reductions in seafood 
sales (including the avoidance of ``safe'' seafoods as a result of 
over-reaction to health advisories), mortalities of wild and farmed 
fish, shellfish, submerged aquatic vegetation and coral reefs, impacts 
on tourism and tourism-related businesses, and medical treatment of 
exposed populations. A conservative estimate of the average annual 
economic impact resulting from HABs in the U.S. is approximately $50 
million (Anderson et al., 2000; Hoagland et al., 2002). Cumulatively, 
the costs of HABs exceed a billion dollars over the last several 
decades. These estimates do not include the application of 
``multipliers'' that are often used to account for the manner in which 
money transfers through a local economy. With multipliers, the estimate 
of HAB impacts in the United States easily exceeds $100 million per 
year. Individual bloom events can equal or exceed the annual average, 
as occurred for example in 1997 when fish kills associated with blooms 
of Pfiesteria occurred on Maryland's eastern shore. Consumers avoided 
all seafood from the region, despite assurances that no toxins had been 
detected in any seafood products. The aggregate impact from this single 
event (including lost seafood sales and revenues for recreational boat 
charters) was $50 million.

Recent Trends. The nature of the HAB problem has changed considerably 
over the last three decades in the U.S. Virtually every coastal state 
is now threatened by harmful or toxic algal species, whereas 30 years 
ago, the problem was much more scattered and sporadic (Fig. 2.). The 
number of toxic blooms, the economic losses from them, the types of 
resources affected, and the number of toxins and toxic species have all 
increased dramatically in recent years in the U.S. and around the world 
(Anderson, 1989; Hallegraeff, 1993).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The first thought of many is that pollution or other human 
activities are the main reason for this expansion, yet in the U.S. at 
least, many of the ``new'' or expanded HAB problems have occurred in 
waters where pollution is not an obvious factor. Some new bloom events 
likely reflect indigenous populations that have been discovered because 
of better detection methods and more observers rather than new species 
introductions or dispersal events (Anderson, 1989).
    Other ``spreading events'' are most easily attributed to dispersal 
via natural currents, while it is also clear that man may have 
contributed to the global HAB expansion by transporting toxic species 
in ship ballast water (Hallegraeff and Bolch, 1992). The U.S. Coast 
Guard, EPA, and the International Maritime Organization are all working 
toward ballast water control and treatment regulations that will 
attempt to reduce the threat of species introductions worldwide.
    Another factor underlying the global expansion of HABs is the 
dramatic increase in aquaculture activities. This leads to increased 
monitoring of product quality and safety, revealing indigenous toxic 
algae that were probably always present (Anderson, 1989). The 
construction of aquaculture facilities also places fish or shellfish 
resources in areas where toxic algal species occur but were previously 
unknown, leading to mortality events or toxicity outbreaks that would 
not have been noticed had the aquaculture facility not been placed 
there.
    Of considerable concern, particularly for coastal resource 
managers, is the potential relationship between the apparent increase 
in HABs and the accelerated eutrophication of coastal waters due to 
human activities (Anderson et al., 2002). As mentioned above, some HAB 
outbreaks occur in pristine waters with no influence from pollution or 
other anthropogenic effects, but linkages between HABs and 
eutrophication have been frequently noted within the past several 
decades (e.g., Smayda, 1990). Coastal waters are receiving massive and 
increasing quantities of industrial, agricultural and sewage effluents 
through a variety of pathways. In many urbanized coastal regions, these 
anthropogenic inputs have altered the size and composition of the 
nutrient pool which may, in turn, create a more favorable nutrient 
environment for certain HAB species. Just as the application of 
fertilizer to lawns can enhance grass growth, marine algae can grow in 
response to various types of nutrient inputs. Shallow and restricted 
coastal waters that are poorly flushed appear to be most susceptible to 
nutrient-related algal problems (Fig. 3). Nutrient enrichment of such 
systems often leads to eutrophication and increased frequencies and 
magnitudes of phytoplankton blooms, including HABs. There is no doubt 
that this is true in certain areas of the world where pollution has 
increased dramatically. It is perhaps real, but less evident in areas 
where coastal pollution is more gradual and unobtrusive.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    It is now clear that the worldwide expansion of HAB phenomena is in 
part a reflection of our ability to better define the boundaries of an 
existing problem. Those boundaries are also expanding, however, due to 
natural species dispersal via storms or currents, as well as to 
humanassisted species dispersal, and enhanced HAB population growth as 
a result of pollution or other anthropogenic influences. The fact that 
part of the expansion is a result of increased awareness should not 
temper our concern. The HAB problem in the U.S. is serious, large, and 
growing. It is a much larger problem than we thought it was a decade or 
more ago.

PROGRESS AND STATUS OF OUR NATIONAL PROGRAM ON HABS

    For many years, U.S. researcher and coastal managers recognized, 
but struggled through piecemeal and fragmented efforts, to address the 
problems of HABs. Now, however, elements of a national program on HABs 
have been formulated and implemented at a scale that has clearly had a 
significant impact on our understanding of these phenomena and our 
ability to manage their impacts. A pivotal planning document entitled 
Marine Biotoxins and Harmful Algae: A National Plan (Anderson et al., 
1993) identified numerous impediments to progress in the HAB field and 
made specific recommendations to address those impediments. These 
impediments have been addressed to varying degrees with funding 
programs targeting specific topic areas within the broad field of HABs 
and their impacts. In 1994, NSF, together with NOAA, co-sponsored a 
workshop on the Ecology and Oceanography of Harmful Algae. The 
participants, a group of 40 academic and government scientists, and 
program officers from numerous federal agencies attended and developed 
a coordinated research strategy. The resulting plan, ECOHAB: The 
Ecology and Oceanography of Harmful Algal Blooms: A National Research 
Agenda (Anderson, 1995) provided the framework needed to increase our 
understanding of the fundamental processes underlying the impacts and 
population dynamics of HABs. This involved a recognition of the many 
factors at the organismal level that determine how HAB species respond 
to, and potentially alter their environment, the manner in which HAB 
species affect or are affected by food-web interactions, and how the 
distribution, abundance, and impact of HAB species are regulated by the 
environment.
    The ECOHAB Program identified major research themes that encompass 
national priorities on HAB phenomena. It was subsequently established 
as a competitive, peer-reviewed research program supported by an 
interagency partnership involving NOAA, NSF, EPA, ONR, and NASA. 
Research results have been applied through another program, Monitoring 
and Event Response (MERHAB) to foster innovative monitoring programs 
and rapid response by public agencies and health department to 
safeguard public health, local economies, and fisheries.
    Projects funded through ECOHAB include regional studies on the 
biogeochemical, ecological, and physical processes that contribute to 
bloom formation and maintenance, and individual targeted studies that 
examine specific biological and physical processes that regulate the 
occurrence of specific HABs. Large, multi-investigator regional ECOHAB 
studies have been undertaken in the Gulf of Maine for paralytic 
shellfish poisoning, the Gulf of Mexico for fish kills, aerosolized 
toxins and neurotoxic shellfish poisoning, the shallow bays and lagoons 
of eastern Long Island for destructive brown tides, the mid-Atlantic 
states for Pfiesteria and related organisms, and, more recently, the 
U.S. west coast for Pseudo-nitzschia and domoic acid poisoning and 
Hawaii for macroalgal (seaweed) overgrowth. In addition, several dozen 
smaller research projects have been initiated in many states and 
regions, covering a wide array of HAB organisms and topics.

RESEARCH AND MANAGEMENT PROGRESS

    With the advent of ECOHAB, MERHAB, and other national HAB programs, 
resources have been directed towards the goal of scientifically based 
management of coastal waters and fisheries that are potentially 
impacted by HABs. These programs are little more than five years old, 
but they have already made a significant contribution to HAB management 
capabilities in the U.S. Here I will highlight advances in our 
understanding of HAB phenomena, as well as some of the program-derived 
technological developments that are providing new tools to coastal 
resource managers in regions impacted by HABs.

Enhanced understanding of HAB dynamics

    In areas studied by the multi-investigator ECOHAB-funded regional 
research projects, HAB phenomena are now far better understood than was 
the case just five years ago when the program began. Knowledge is also 
increasing for HABs in other areas through smaller, targeted research 
projects, but at a slower pace because of the lower investment of 
resources. In the Gulf of Maine, the focus of the ECOHAB-GOM program, 
the probable origins of toxic Alexandrium cells responsible for PSP 
outbreaks have been identified by mapping the locations of dormant 
resting cysts in bottom sediments. Cysts in several accumulation zones 
or ``seedbeds'' germinate in the spring and re-populate the water 
column with swimming Alexandrium cells, which then multiply and cause 
the annual PSP outbreaks. A large cyst accumulation zone in the Bay of 
Fundy, in conjunction with a hydrographic feature called an ``eddy'' 
that retains bloom cells near the mouth of the Bay are now known to be 
critical in the Alexandrium dynamics for the entire Gulf of Maine 
region. This is because the retained bloom can serve as the 
``incubator'' or source for cells that ultimately escape the Bay and 
enter the coastal waters of Maine, where they proliferate as they are 
transported along the coast. Those cells that do remain in the Bay form 
the new cysts that fall to bottom sediments and are then available to 
start new blooms in subsequent years. In this manner, the recurrent, 
self-seeding and ``propagating'' nature of the regional PSP blooms has 
been elucidated. ECOHAB-GOM researchers also discovered large 
concentrations of toxic Alexandrium cells in deeper, offshore waters, 
and demonstrated the mechanisms by which these blooms form and are 
intermittently delivered to shore and the intertidal shellfish. Before 
the program began, these offshore populations were unknown, and 
researchers had assumed that Alexandrium populations in shallow waters 
were largely responsible for the observed shellfish toxicity.
    In the Gulf of Mexico, the ECOHAB-Florida program identified 
similar transport and delivery mechanisms for the toxic Karenia cells 
that kill fish and cause many other problems in the coastal zone. In 
particular, the Karenia cells are now thought to be transported onshore 
in deeper waters through wind events that cause ``upwelling.'' Special 
bathymetric features of the ocean bottom can facilitate this transport 
and focus cell delivery to areas known to be the sites of recurrent 
blooms. Studies of nutrient uptake by Karenia suggest a fascinating 
link between red tide blooms and dust storms from the Sahara. These 
dust clouds travel across the Atlantic and deposit dust into Gulf of 
Mexico waters, stimulating the growth of a different kind of algae 
called Trichodesmium that then releases nutrients in a form that 
Karenia can utilize. This is a complex, multi-step and multi-organism 
interaction leading to Karenia blooms, but there are a number of 
supporting datasets that support the hypothesized linkages. Related 
studies are suggesting that the ultimate demise of the Florida Karenia 
blooms is a lack of phosphorus. This has obvious implications to policy 
decisions concerning pollution and water quality in the region.
    Consistent with the identification of ``source regions'' for Gulf 
of Maine and Gulf of Mexico HABs, researchers in the Pacific Northwest 
have identified an area west of Puget Sound (another eddy) that appears 
to accumulate toxic diatoms responsible for outbreaks of amnesic 
shellfish poisoning (ASP), a debilitating illness that includes 
permanent loss of short-term memory in some victims. Other programs 
have been equally productive in identifying underlying driving 
mechanisms for HAB blooms, such as the Brown Tide Research Initiative 
that focused resources on brown tide blooms in New York and New Jersey. 
These dense accumulations of tiny Aureococcus anophagefferens cells 
turn the water a deep brown, blocking sunlight to submerged vegetation, 
and altering the feeding behavior of shellfish. These blooms have been 
linked to certain types of nutrients that seem to favor the causative 
organism--in particular ``organic'' forms of nitrogen that are 
preferred by the brown tide cells, and give it a competitive advantage 
in certain locations.
    Research has also revealed a great deal about the Pfiesteria blooms 
that periodically affect the southeast states. Here again, certain 
nutrient conditions seem to favor Pfiesteria blooms, especially those 
associated with chicken and hog farming operations. Identification of 
the Pfiesteria toxin(s) continues to be elusive, but serious health 
effects have been documented among humans and laboratory animals 
exposed to bloom waters, and the list of species linked to fish kills 
and possible human health effects has grown considerably through the 
regional research efforts.
    These are but a few of the advances in understanding that have 
accrued from the past five years of funding support at the national 
level. Equally important are the discoveries that provide management 
tools to reduce the impacts of HABs on coastal resources. Management 
options for dealing with the impacts of HABs include reducing their 
incidence and extent (prevention), stopping or containing blooms 
(control), and minimizing impacts (mitigation). Where possible, it is 
preferable to prevent HABs rather than to treat their symptoms. Since 
increased pollution and nutrient loading may enhance the growth of some 
HAB species, these events may be prevented by reducing pollution inputs 
to coastal waters, particularly industrial, agricultural, and domestic 
effluents high in plant nutrients. This is especially important in 
shallow, poorly flushed coastal waters that are most susceptible to 
nutrient-related algal problems (Fig. 3). As mentioned above, research 
on the links between certain HABs and nutrients has highlighted the 
importance of nonpoint sources of nutrients (e.g., from agricultural 
activities, fossil-fuel combustion, and animal feeding operations). 
Outbreaks of Pfiesteria in the Chesapeake Bay and the Neuse-Pamlico 
estuary in North Carolina have been linked to wastes from chicken and 
hog farming operations. This in turn has led to policy changes that 
have been enacted in these watersheds to control these non-point 
sources. In these instances, agency officials faced with these 
controversial policy decisions were provided with scientific 
justification for nutrient reductions that derived from research 
through ECOHAB and other programs.
    The most effective HAB management tools are monitoring programs 
that involve sampling and testing of wild or cultured seafood products 
directly from the natural environment, as this allows unequivocal 
tracking of toxins to their site of origin and targeted regulatory 
action. Numerous monitoring programs of this type have been established 
in U.S. coastal waters, typically by state agencies. This monitoring 
has become quite expensive, however, due to the proliferation of toxins 
and potentially affected resources. States are heavily struggling with 
flat or declining budgets versus the need to monitor for a growing list 
of HAB toxins and potentially affected fisheries resources. 
Technologies are thus urgently needed to facilitate the detection and 
characterization of HAB cells and blooms.
    One very useful technology that has been developed through recent 
HAB research relies on species- or strain-specific ``probes'' that can 
be used to label only the HAB cells of interest so they can then be 
detected visually, electronically, or chemically. These probes can be 
in the form of antibodies that bind to specific proteins on the cell 
surface of the targeted HAB species, or they can be short segments of 
synthetic DNA that bind to particular genes or gene transcripts inside 
the HAB cells. Progress has been rapid and probes of several different 
types are now available for many of the harmful algae, along with 
techniques for their application in the rapid and accurate 
identification, enumeration, and isolation of individual species. One 
example of the direct application of this technology in operational HAB 
monitoring is for the New York and New Jersey brown tide organism, 
Aureococcus anophagefferens. The causative organism is so small and 
non-descript that it is virtually impossible to identify and count 
cells using traditional microscopic techniques. Antibody probes were 
developed that bind only to A. anophagefferens cells, and these are now 
used routinely in monitoring programs run by state and local 
authorities, greatly improving counting time and accuracy.
    Through ECOHAB, MERHAB, and other programs, probes are being 
incorporated into a variety of different assay systems, including some 
that can be mounted on buoys and left unattended while they robotically 
sample the water and test for HAB cells. Clustered with other 
instruments that measure the physical, chemical, and optical 
characteristics of the water column, information can be collected and 
used to make ``algal forecasts'' of impending toxicity. These 
instruments are taking advantage of advances in ocean optics, as well 
as the new molecular and analytical methodologies that allow the toxic 
cells or chemicals (such as HAB toxins) to be detected with great 
sensitivity and specificity. A clear need has been identified for 
improved instrumentation for HAB cell and toxin detection, and 
additional resources are needed in this regard. This can be 
accomplished during development of an integrated Ocean Observing System 
for U.S. coastal waters, and through a targeted research program on HAB 
prevention, control, and mitigation. These are needed if we are to 
achieve our vision of future HAB monitoring and management programs--an 
integrated system that includes arrays of moored instruments as 
sentinels along the U.S. coastline, detecting HABs as they develop and 
radioing the information to resource managers.
    Another type of cell or bloom detection is possible using remote 
sensing data from satellites. This has great potential in monitoring 
the development and movement of blooms over larger spatial and shorter 
time scales than those accessible through shipor land-based sampling. 
There is great promise in the use of both ocean color and sea surface 
temperature sensors in this regard, but considerable work is needed to 
bring this potential to fruition in the coastal waters where HABs 
occur. As demonstrated in the ECOHAB-Gulf of Maine research program, 
satellite images based on sea surface temperature are proving useful in 
tracking water masses that impinge on coastal shellfish beds, carrying 
toxic algae that can quickly render those shellfish dangerous to human 
consumers (Fig. 4). Likewise, satellite images of ocean color are now 
used in the Gulf of Mexico to detect and track toxic red tides of 
Karenia brevis. Based on research results from the ECOHAB-Florida 
program, bloom forecast bulletins are now being provided to affected 
states in the Gulf of Mexico by the NOAA National Ocean Service Center 
for Coastal Monitoring and Assessment. The bulletins (see http://
coastwatch.noaa.gov/hab) are based on the integration of several data 
sources: satellite ocean color imagery; wind data from coastal 
meteorological stations; field observations of bloom location and 
intensity provided by the states of Florida and Texas; and weather 
forecasts from the National Weather Service. The combination of warning 
and rapid detection is a significant aid to the Gulf states in 
responding to these blooms.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    A long-term goal of HAB monitoring programs is to develop the 
ability to forecast or predict bloom development and movement. 
Prediction of HAB outbreaks requires physical/biological coupled 
numerical models which account for both the growth and behavior of the 
toxic algal species, as well as the movement and dynamics of the 
surrounding water. Numerical models of coastal circulation are 
advancing rapidly in the U.S., and a number of these are beginning to 
incorporate HAB dynamics as well. A model developed to simulate the 
dynamics of the organism responsible for paralytic shellfish poisoning 
(PSP) outbreaks in the Gulf of Maine is relatively far advanced in this 
regard, and is now being transitioned from academic use towards an 
operational mode. A similar model is under development for Gulf of 
Mexico HABs. Considerable work remains before PSP or Florida red tide 
forecasts are truly operational for coastal resource management 
purposes, but progress has been rapid as a result of ECOHAB support, 
and prospects are bright.
    Other practical strategies to mitigate the impacts of HAB events 
include: regulating the siting of aquaculture facilities to avoid areas 
where HAB species are present, modifying water circulation for those 
locations where restricted water exchange is a factor in bloom 
development, and restricting species introductions (e.g., through 
regulations on ballast water discharges or shellfish and finfish 
transfers for aquaculture). Each of these strategies requires 
fundamental research such as that being conducted in our national HAB 
program. Potential approaches to directly control or suppress HABs are 
under development as well--similar to methods used to control pests on 
land--e.g., biological, physical, or chemical treatments that directly 
target the bloom cells. One example is work conducted in my own 
laboratory, again through ECOHAB support, using ordinary clay to 
control HABs. When certain clays are dispersed on the water surface, 
the tiny clay particles aggregate with each other and with other 
particles, including HAB cells. The aggregates then settle to the ocean 
bottom, carrying the unwanted HAB cells from the surface waters where 
they would otherwise grow and cause harm. As with many other new 
technologies for HABs, initial results are quite promising and small-
scale field trials are underway, but continued support is needed to 
fully evaluate benefits, costs, and environmental impacts.
    Another intriguing bloom control strategy is being evaluated for 
the brown tide problem. It has been suggested that one reason the brown 
tides appeared about 15-20 years ago was that hard clams and other 
shellfish stocks have been depleted by overfishing in certain areas. 
Removal of these resources altered the manner in which those waters 
were ``grazed''--i.e., shellfish filter large quantities of water 
during feeding, and that removes many microscopic organisms from the 
water, including natural predators of the brown tide cells. If this 
hypothesis is valid, a logical bloom control strategy would be to re-
seed shellfish in the affected areas, and to restrict harvesting. Pilot 
projects are now underway to explore this control strategy in Long 
Island.
    In general, bloom control is an area where very little research 
effort has been directed in the U.S. (Anderson, 1997), and considerable 
research is needed before these means are used to control HABs in 
natural waters given the high sensitivity for possible damage to 
coastal ecosystem and water quality by the treatments. As discussed 
below, this could be accomplished as part of a national program on HAB 
prevention, control, and mitigation.

PROGRAMMATIC NEEDS

    The support provided to HAB research through ECOHAB, MERHAB, Sea 
Grant, and other national programs has had a tremendous impact on our 
understanding of HAB phenomena, and on the development of management 
tools and strategies. Funding for ECOHAB is modest, but it is 
administered in a scientifically rigorous manner that maximizes 
research progress. Several five-year ECOHAB regional research projects 
are winding down, and new ones are beginning in other regions. This is 
an equitable way to share resources nationally, but it assumes that 
five years of funding is all that is needed to understand and mitigate 
the regional HAB problems, and this is certainly not the case. HAB 
phenomena are complex oceanographic phenomena, and a decade or more of 
targeted research are needed for each of the major poisoning syndromes 
or regions. ECOHAB support for regional studies must be sustained and 
expanded, and this will require a commitment of resources well in 
excess of those currently available. Underlying this recommendation is 
the recognition that we need to form multiple skilled research teams 
with the equipment and facilities required to attack the complex 
scientific issues involved in HAB phenomena. Since HAB problems facing 
the U.S. are diverse with respect to the causative species, the 
affected resources, the toxins involved, and the oceanographic systems 
and habitats in which the blooms occur, we need multiple teams of 
skilled researchers and managers distributed throughout the country. 
This argues against funding that ebbs and floods with the sporadic 
pattern of HAB outbreaks or that focuses resources in one region while 
others go begging. I cannot emphasize too strongly the need for an 
equitable distribution of resources that is consistent with the scale 
and extent of the national problem, and that is sustained through time. 
This is the only way to keep research teams intact, forming the core of 
expertise and knowledge that leads to scientific progress. To achieve 
this balance, we need a scientifically based allocation of resources, 
not one based on political jurisdictions. This is possible if we work 
within the guidelines of the National Plan and with the interagency 
effort that has been guiding its implementation.
    ECOHAB cannot address all of the HAB research needs, so we also 
envision a parallel series of programs which focus on other aspects of 
the national problem. The following HAB programs are either ongoing, or 
planned at the national level.

Oceans and Human Health. One that is currently being implemented 
recognizes the important links between oceans and human health, and in 
particular, the emergence of HABs as recurrent and serious threats in 
this regard. This focus is entirely complementary to the ecology and 
oceanography focus of ECOHAB. The first step towards a comprehensive 
program in this area is a partnership between the National Institute of 
Environmental Health Sciences (NIEHS) and NSF's Ocean Sciences Division 
called Centers for Oceans and Human Health (COHH) (NIEHS and NSF, 
2002). In general terms, this program is intended to provide linkages 
between members of the ocean sciences and biomedical communities 
through support of interdisciplinary research in areas where improved 
understanding of marine processes and systems has potential to reduce 
public health risks and enhance existing biomedical capabilities. HABs 
are one of the three research areas receiving special emphasis in this 
program, and research needs have been identified in such areas as toxin 
genetics, biosynthesis and function, and human exposure and effect 
assessment, among many others. In its initial phase, four OHH centers 
will be created, but this is far from the number that would ultimately 
be needed for an efficient national network. Sustained and increased 
support for the COHH program will be of great value to the HAB National 
Plan. The partnership between NIEHS and NSF clearly needs to be 
expanded in order to provide support to a network of sufficient size to 
address the significant problems under the COHH umbrella. This is best 
accomplished through additional funds to these agencies, as well as 
through the involvement of other agencies with interests in oceans and 
human health, including, for example, NOAA, EPA, NASA, and CDC. In this 
context, it is of note that NOAA's FY03 appropriation includes an item 
for Oceans and Human Health under NOAA's Ocean Health Initiative. Since 
this is in the Ocean and Coastal Partnership Programs section of the 
budget, it represents a wonderful opportunity for interagency 
cooperation on a very important program. I would emphasize the need to 
allocate these NOAA funds through a peer-reviewed, competitive, 
extramural effort coordinated with other national HAB programs, 
including ECOHAB, MERHAB, and especially the NIEHS/NSF COHH initiative. 
These latter two agencies have taken the lead in this topic area, and 
their commitment to high-quality science and willingness to cooperate 
speak strongly for the important role they could play in coordinating 
such an interagency partnership. Another OHH need is for 
interdisciplinary training of the scientists working on oceans and 
human health issues, since an educational element is not addressed in 
the NIEHS/NSF COHH program at present. We also need targeted funds for 
research on OHH themes, separate from the funds supporting the Centers, 
as well as for Study Sections or review panels that are appropriately 
constituted to review NSF and NIEHS applications in the OHH field. At 
present, the existing Study Sections and panels do not have the 
requisite expertise and mandate to address funding priorities for OHH 
topics.

Prevention, Control and Mitigation. Looking again to the National Plan, 
it is apparent that other funding initiatives are needed to address 
program elements that are not covered by the ECOHAB, MERHAB and OHH 
programs. It will thus be necessary to convene focused workshops to 
refine and develop key issues to the levels needed by program managers 
to define specific programs--an approach analogous to that used to 
produce the ECOHAB science agenda (Anderson, 1995). One such workshop 
has already been held, and a science plan for a program on Prevention, 
Control, and Mitigation of Harmful Algal Blooms published by Sea Grant 
(Cammen et al., 2001). The rationale for this program is that much of 
the focus of past HAB research has been on fundamental aspects of 
organism physiology, ecology, and toxicology, so little effort has been 
made to address more practical issues such as bloom prediction, 
resource management strategies, or even direct bloom control (Anderson, 
1997). A funding program focusing on these practical aspects of HAB 
management is thus needed, as recommended by experts and resource 
managers in a report by Boesch et al. (1997). Funds intended for 
ecological, toxicological, epidemiological, or oceanographic studies 
(e.g., ECOHAB, COHH) should not be diverted to a new initiative on 
prevention, control and mitigation, as many mechanisms and processes 
remain poorly understood. New, targeted funds are necessary.

A U.S.-European Union program on HABs. For decades, HABs have been 
studied on both sides of the Atlantic, but largely in separate, 
isolated research programs. For the first time, joint research in 
Europe and the U.S. is being considered to address these problems of 
mutual concern, through financial support from the European Commission 
(E.C.) and the U.S. National Science Foundation (NSF). It is now well 
recognized and accepted that our understanding of the population 
dynamics of organisms, their impacts, and the potential management 
implications, is dependent on working within a global arena. Although 
HAB impacts may be local, solutions may be found in distant locales. In 
recognition of the importance of scientific collaboration among 
nations, the European Commission and the U.S. National Science 
Foundation signed an agreement in October 2001 to foster such 
collaboration, and HABs were highlighted as one of the scientific areas 
of collaboration under this agreement. A workshop was recently convened 
to bring together scientists from both sides of the Atlantic to 
collectively assess the state of the science, to identify gaps in our 
knowledge, and to develop an international plan for cooperative, 
comparative studies. A plan has been formulated and is currently being 
finalized and evaluated by agency officials and scientists in the E.U. 
and the U.S. Support in this type of bilateral program should be a high 
priority in the future, and multi-national efforts such as the Global 
Ecology and Oceanography of Harmful Algal Blooms (GEOHAB) program 
should be supported as well.

SUMMARY AND RECOMMENDATIONS

    The diverse nature of HAB phenomena and the hydrodynamic and 
geographic variability associated with different outbreaks throughout 
the U.S. pose a significant constraint to the development of a 
coordinated national HAB program. Nevertheless, the combination of 
planning, coordination, and a highly compelling topic with great 
societal importance has initiated close cooperation between officials, 
government scientists and academics in a sustained attack on the HAB 
problem. The rate and extent of progress from here will depend upon how 
well the different federal agencies continue to work together, and on 
how effectively the skills and expertise of government and academic 
scientists can be targeted on priority topics that have not been well 
represented in the national HAB program. The opportunity for 
cooperation is clear, since as stated in the ECOHAB report (Anderson, 
1995), ``Nowhere else do the missions and goals of so many government 
agencies intersect and interact as in the coastal zone where HAB 
phenomena are prominent.'' The HAB community in the U.S. has matured 
scientifically and politically, and is fully capable of undertaking the 
new challenges inherent in an expanded national program. This will be 
successful only if a coordinated interagency effort can be implemented 
to focus research personnel, facilities, and financial resources to the 
common goals of a comprehensive national strategy.
    In summary:

        LHABs are a serious and growing problem in the U.S., affecting 
        every coastal state. HABs impact public health, fisheries, 
        aquaculture, tourism, and coastal aesthetics. HAB problems will 
        not go away and will likely increase in severity.

        LA coordinated National HAB Program has been formulated and 
        partially implemented, but additional program elements need to 
        be implemented, especially those directly addressing public 
        health and prevention, control, and mitigation issues.

        LState agencies are doing an excellent job protecting public 
        health and fisheries, but those monitoring programs are facing 
        growing challenges. Needs for the future include new 
        technologies for HAB monitoring and forecasting and 
        incorporation of these tools into regional Ocean Observing 
        Systems.

        LHABs are just one of many problems in the coastal zone that 
        are affected by nutrient inputs and over-enrichment from land. 
        They represent a highly visible indicator of the health of our 
        coastal ocean. More subtle impacts to fisheries and ecosystems 
        are likely occurring that are far more difficult to discern.

Recommendations:

        LSustain and enhance support for the national HAB program

                -- LSustain and enhance support for the ECOHAB, MERHAB 
                and OHH programs, and implement new programs, such as 
                Prevention, Control and Mitigation of HABs and the 
                E.U.-U.S. Program on HABs

                -- LEncourage interagency partnerships, as the HAB 
                problem transcends the resources or mandate of any 
                single agency

        LSupport methods and instrument development for land- and 
        mooring-based cell and toxin detection, and for bloom 
        forecasting (e.g., through a program on HAB Prevention, Control 
        and Mitigation and through instrument development support for 
        the Ocean Observing System).

        LIncorporate HAB monitoring into an integrated U.S. Ocean 
        Observing System

        LSupport long-term water quality and HAB monitoring programs in 
        coastal waters

        LImplement agriculture and land-use policies that reduce point 
        and non-point source pollution loadings to coastal waters.

PENDING LEGISLATION

    I would like to conclude with comments on the Harmful Algal Bloom 
and Hypoxia Research Amendments Act of 2003.
    My first comment is that I am fully supportive of the effort to 
expand the national HAB program to include a focus on freshwater HABs. 
I share the concerns of Dr. Carmichael and many others that freshwater 
lakes, ponds, and streams are increasingly impacted by blooms of toxic 
algae, and that these blooms are associated with a significant threat 
to public health. I need to stress, however, that marine HAB problems 
are far from resolved, are different in many ways from freshwater 
systems, and therefore that separate funding programs are needed. We 
must add freshwater HAB research to the national agenda, not replace 
marine programs with new initiatives focused on freshwater. I realize 
this is not the intention of the Harmful Algal Bloom and Hypoxia 
Research Amendments Act of 2003, but difficult choices will likely 
arise if new funding resources are not appropriated for freshwater HAB 
research.
    Second, I support the need for scientific assessments on freshwater 
HABs, on a research plan to reduce impacts from HABs, and on hypoxia. 
The freshwater assessment is new and necessary for program development 
and implementation, an update on the hypoxia issue is timely, and a new 
report that drives the implementation of a prevention, control and 
mitigation program for HABs is needed as well. My only comment here is 
that the Task Force specified in the legislation is composed entirely 
of federal agency representatives. There is considerable expertise and 
perspective to be gained by formally including some academic partners 
in the assessment effort.
    I concur with the need for regional scientific assessments of 
hypoxia and HABs, but am not convinced that local assessments are 
needed. The HAB problem is quite diverse, with many different toxic 
organisms, affected resources, and affected regions. Many of these 
blooms transcend jurisdictional boundaries separating states or other 
entities. If assessments are requested at a scale below the regional 
level, inefficiencies and redundancies will result, and resources and 
personnel to conduct those assessments may be stretched too thin.
    Finally, I want to re-emphasize the need for appropriations that 
are commensurate with the scale of this reauthorization. The national 
HAB program is well-established and productive, but it needs additional 
resources if new topics, responsibilities and tasks are added through 
this legislation.
    Mr. Chairman, that concludes my testimony. Thank you for the 
opportunity to offer information that is based on my own research and 
policy activities, as well as on the collective wisdom and creativity 
of numerous colleagues in the HAB field. I would be pleased to answer 
any questions that you or other Members may have.

Literature citations:

Anderson, D.M. 1997. Turning back the harmful red tide. Nature 388:513-
        514.
Anderson, D.M. (Ed.). 1995. ECOHAB: The ecology and oceanography of 
        harmful algal blooms--A research agenda. Woods Hole 
        Oceanographic Institution. 66 pp.
Anderson, D.M. 1989. Toxic algal blooms and red tides: a global 
        perspective. pp. 11-16, in: T. Okaichi, D. M. Anderson, and T. 
        Nemoto (eds.), Red Tides: Biology, Environmental Science and 
        Toxicology, Elsevier: New York, Amsterdam, London.
Anderson, D.M., S.B. Galloway, and J.D. Joseph. 1993. Marine Biotoxins 
        and Harmful Algae: A National Plan. Woods Hole Oceanographic 
        Institution Tech. Report, WHOI 93-02. Woods Hole, MA. 59 pp.
Anderson, D.M., P. Hoagland, Y. Karou, and A.W. White. 2000. Estimated 
        annual economic impacts resulting from harmful algal blooms 
        (HABs) in the United States. Woods Hole Oceanographic 
        Institution Technical Report, WHOI 2000-11. 99 pp.
Boesch, D.F., D.M. Anderson, R.A. Horner, S.E. Shumway, P.A. Tester, 
        T.E. Whitledge. 1997. Harmful Algal Blooms in Coastal Waters: 
        Options for Prevention, Control and Mitigation. Science for 
        Solutions. NOAA Coastal Ocean Program, Decision Analysis Series 
        No. 10, Special Joint Report with the National Fish and 
        Wildlife Foundation.
Burkholder, J.M. and H.B. Glasgow, Jr. 1997. The ichthyotoxic 
        dinoflagellate Pfiesteria piscicida: Behavior, impacts and 
        environmental controls. Limnology and Oceanography 42:1052-
        1075.
Cammen, L., D.M. Anderson, and Q. Dortch. 2001. Prevention, Control and 
        Mitigation of Harmful Algal Blooms: A Research Plan. Report for 
        Congress, National Sea Grant College Program, National Oceanic 
        and Atmospheric Administration, Silver Spring, MD. 24 pp.
Hallegraeff, G.M. 1993. A review of harmful algal blooms and their 
        apparent global increase. Phycologia 32:79-99.
Hallegraeff, G.M. and C.J. Bolch. 1992. Transport of diatom and 
        dinoflagellate resting spores via ship's ballast water: 
        implications for plankton biogeography and aquaculture. Journal 
        of Plankton Research 14:1067-1084.
Hoagland, P., D.M. Anderson, Y. Kaoru, and A.W. White. 2002. Average 
        annual economic impacts of harmful algal blooms in the United 
        States: some preliminary estimates. Estuaries 25(4b):677-695.
Smayda, T. 1990. Novel and nuisance phytoplankton blooms in the sea: 
        Evidence for a global epidemic. In: Graneli, E., B. Sundstrom, 
        L. Edler, and D.M. Anderson (eds.), Toxic Marine Phytoplankton, 
        Elsevier, New York. pp. 29-40.

    Chairman Ehlers. Thank you. Mr. Ayres.

    STATEMENT OF DAN L. AYRES, FISH AND WILDLIFE BIOLOGIST, 
        WASHINGTON STATE DEPARTMENT OF FISH AND WILDLIFE

    Mr. Ayres. Thank you, Mr. Chairman and Members of the 
Subcommittee, for the opportunity to speak today. I confess I 
am a little out of uniform without my hip boots and my 
raincoat, but I am glad to be here.
    I would like to share with you how harmful algal bloom or 
HAB, events affect us on the Pacific coast and how federal 
involvement has made a difference. Along the coast of 
Washington State, the razor clam and Dungeness crab fisheries 
are the most affected as a result of HAB events that produce 
the toxin domoic acid. As the shellfish feed on the toxic 
algae, they are not affected, but they do concentrate the 
toxins in their tissues. When human consumers eat these 
shellfish, they then ingest the toxins, and that can cause 
severe illness and/or death. This hearing is an especially 
timely issue for us because our razor clam fisheries have been 
closed since October due to high levels of domoic acid.
    This closure represents an estimated $10 million loss to 
the already depressed economies of our small coastal 
communities. This is the third extended closure of this key 
fishery because of domoic acid since 1991. In addition, our 
coastal Dungeness crab fisheries, with an expected value to the 
fishermen of nearly $60 million this season, have been closed 
in one area with the possibility of additional closures in the 
near future.
    In Washington State, two agencies work closely to monitor 
HAB events, the Department of Fish and Wildlife and the 
Department of Health. At Fish and Wildlife, we regularly 
collect samples of shellfish and transport them to the 
Department of Health laboratory. They analyze the toxin levels 
in these shellfish tissues and report back to us. When those 
levels require action, staff from both agencies work quickly to 
notify affected stakeholders. For a razor clam closure, this 
can include State employees staffing roadblocks to turn back 
harvesters headed to our 60 miles of razor clam beaches.
    Since 2000, Washington State has been the recipient of 
grant monies from NOAA's MERHAB Program. I should note that 
Congressman Baird was instrumental in helping us secure these 
funds. This funding has allowed us to set up a plankton 
monitoring program to augment our current testing of shellfish 
tissue. Our technicians collect plankton samples from waters 
surrounding and adjacent to razor clam beaches and Dungeness 
crab grounds. They then analyze these collected samples and 
determine the presence of plankton species and toxic cells. 
This monitoring gives State and Tribal fishery managers 
advanced notice of pending problems with HAB events and allows 
us to provide stakeholders time to adjust their activities to 
avoid serious disruptions.
    Washington's MERHAB grant has also allowed us to be part of 
a larger collaborative effort of State, Tribal, Federal, and 
private partners under the umbrella of the Olympic Region 
Harmful Algal Bloom project or ORHAB. The ORHAB project has 
allowed both State and Tribal technicians to receive training 
in the complicated field of plankton identification from more 
renowned scientists. The ORHAB partners are working to develop 
the implementation--develop and implement rapid detection 
technologies and are currently field testing MIST kits. This 
technology allows the promise of allowing field staff to 
determine the presence of toxins in shellfish tissue without 
having to wait for time consuming laboratory analysis.
    ORHAB partners are also working to develop the use of 
satellite imagery together with instruments on a series of 
moored buoys to track the movement of plankton cells from 
offshore to near shore waters. Recently, several of 
Washington's ORHAB partners successfully secured a separate 5-
year multi-million dollar grant from NOAA's ECOHAB program. 
This work will provide even better tools to predict HAB events. 
While State agencies are not directly involved in this extended 
study, we will directly benefit.
    How then will these new technologies help State fishery 
managers like me? The answer is that the sooner we know of an 
impending problem with a HAB event, the sooner we can react. 
Currently, the plankton monitoring we provide, or we collect, 
provides us with about a 2-week heads-up, giving us time to 
notify harvesters and coastal business owners of a pending 
problem. However, the promise of larger scale technologies, 
like offshore instrument buoys and satellite telemetry, is 
truly exciting. If as a fishery manager I had two months 
notice, I could adjust season openings to take advantage of at 
least some harvest opportunities before the shellfish ingest 
the toxins and fisheries must close. That would greatly lessen 
the blow to the various stakeholders who depend on these 
fisheries.
    The State of Washington is grateful for the attention paid 
by the Federal Government to assist us with these HABs, 
especially the NOAA fishery scientists who have worked closely 
with our fishery managers since 1991. This close collaboration 
between researchers and managers has been very effective.
    Luckily, though the highest level of domoic acid ever found 
in razor clams was reported in Washington in 1998, to date, 
there have been no deaths or serious illnesses attributed to a 
HAB event along our outer coast. Yet, the economic impacts of 
the fishery closures necessary to protect public health have 
been significant. While we would like nothing better than to 
have the threat presented by HABs disappear, we know that is 
unlikely. Therefore, it remains our goal to provide safe and 
productive shellfish harvest opportunities for the citizens of 
our State while maximizing economic benefits created by that 
harvest as we continue to learn to manage our shellfish 
fisheries around the very real threat of harmful algal blooms.
    [The prepared statement of Mr. Ayres follows:]
                   Prepared Statement of Dan L. Ayres
    I am pleased to submit this prepared testimony to Members of the 
Subcommittee on Environment, Technology and Standards of the United 
States House of Representatives. This testimony will provide the 
Subcommittee's Members details on the problems that various Washington 
State stakeholders have with the continued presence of harmful algal 
bloom (HAB) events that occur along the Pacific Coast of the state.
    These stakeholders include: the thousands of recreational fishers 
who participate in the extremely popular razor clam fishery; the 
hundreds of business owners who greatly benefit from the money spent by 
clam diggers that stay overnight or pass through Washington's small 
coastal communities; the many tribal fishers who harvest razor clams 
for both commercial and subsistence purposes; the 200 licensed 
Dungeness crab fisherman whose livelihood depends on this highly valued 
commercial product; the owners of the crab processing and distributing 
facilities and their hundreds of employees; and lastly, the state 
agency fisheries biologists charged with managing these important 
activities around the constant threat posed by HAB events.
    The coastal razor clam and Dungeness crab fisheries are the most 
affected as a result of HAB events that produce the toxin, domoic 
acid.\1\ Razor clams that feed on the harmful algae are not themselves 
affected, but concentrate the toxins in their meat tissue. When human 
consumers eat this meat, they also ingest the toxins that can then 
cause severe illness or death. Because Dungeness crab often feed on 
razor clams, they also ingest and concentrate the toxin in their 
viscera.\2\
---------------------------------------------------------------------------
    \1\ Eating of fish, shellfish containing domoic acid causes the 
human illness known as amnesic shellfish poisoning (ASP). Symptoms 
include vomiting, nausea, diarrhea and abdominal cramps within 24 hours 
of ingestion. In more severe cases, neurological symptoms develop 
within 48 hours and include headache, dizziness, confusion, 
disorientation, loss of short-term memory, motor weakness, seizures, 
profuse respiratory secretions, cardiac arrhythmia, coma. People 
poisoned with very high doses of the toxin can die. There is no 
antidote for domoic acid. Research has shown that razor clams 
accumulate domoic acid in edible tissue (foot, siphon and mantle) and 
are slow to depurate (purify) the toxin. Research has also proven that 
cooking or freezing affected fish or shellfish tissue does not lessen 
the toxicity.
    \2\ The consumption of crab viscera is a common practice of some 
consumers putting them at risk of severe illness.
---------------------------------------------------------------------------
    As I write this, the entire razor clam fishery in Washington State 
is closed, as it has been since October 2002, due to high levels of 
domoic acid. This represents an estimated $10 million loss to the 
already depressed economies of these small coastal communities. This is 
the third year-long closure of this key fishery due to elevated domoic 
acid levels since 1991. In addition, the coastal Dungeness crab 
fishery--with an expected ex-vessel value (price paid to the fisherman) 
of nearly $60 million dollars this season (December 10, 2002 through 
September 15, 2003)--has been closed in one area, with the possibility 
of additional closures in the near future.
    Two Washington State agencies work closely to monitor for HAB 
events. The Washington Department of Fish and Wildlife (WDFW) manages 
the fisheries while the Washington Department of Health (WDOH) biotoxin 
program is charged with protecting public health by monitoring marine 
toxins found in the tissue of shellfish harvested in these fisheries. 
WDFW collects regular samples of both razor clams and Dungeness crab 
and transports them to the WDOH Public Health Laboratory in Seattle. 
WDOH then analyzes the toxin levels in the shellfish tissues and 
reports back to WDFW. When those levels require action, staffs from 
both agencies work to quickly notify affected stakeholders as soon as 
possible. For a razor clam closure, this can include WDFW enforcement 
and biological staff physically staffing roadblocks to turn back 
harvesters headed to the 60 miles of razor clam beaches found along the 
Washington coast.
    Since the summer of 2000, Washington State has been the recipient 
of a grant from NOAA Centers for Coastal Ocean Science MERHAB 
(Monitoring and Event Response for Harmful Algal Blooms) Program. This 
additional funding has allowed WDFW shellfish managers to set up a 
plankton-monitoring program to augment clam testing on the beach. A 
federally funded state-employed technician makes regular collections of 
plankton samples from waters adjacent to productive razor clam beaches 
and Dungeness crab grounds. This technician then analyzes the collected 
samples to determine the presence of plankton species and toxic cells, 
which in sufficient numbers, could lead to a HAB event. The data 
received from this monitoring program has allowed managers to have 
advance notice of pending problems with HAB events allowing WDFW to 
provide all affected stakeholders time to adjust their activities and 
make business plans to avoid the serious disruptions that have occurred 
in past years.
    Washington State's MERHAB grant has also allowed WDFW to be a part 
of the larger collaborative effort of several State, Tribal, Federal 
and private partners under the umbrella of the Olympic Region Harmful 
Algal Bloom (ORHAB) Project. Other ORHAB participants\3\ are funded\4\ 
either directly by MERHAB or by a MERHAB grant funneled through NOAA-
Fisheries Northwest Fisheries Science Center (NWFSC) in Seattle. The 
ORHAB project has allowed state and tribal technicians to receive high-
quality training from world-renowned scientists at both NWFSC and the 
University of Washington. Besides providing local (State and Tribal) 
technicians with instruction in the complicated field of plankton 
identification, ORHAB has also brought the advanced expertise of other 
partners to the table to look at additional ways of monitoring for HAB 
events.
---------------------------------------------------------------------------
    \3\ ORHAB partners include: National Marine Fisheries Service/
Northwest Fisheries Science Center, Quinault Indian Nation (QIN), Makah 
Tribe, Olympic Coast National Marine Sanctuary, Washington Department 
of Health (WDOH), Washington Department of Ecology, University of 
Washington's Olympic Coast Natural Resources Center and School of 
Oceanography, Pacific Shellfish Institute, Battelle Marine Sciences 
Laboratory, and the Saigene Corporation.
    \4\ The first three years of ORHAB Project work has received a 
total of $1.45 million in support from MERHAB, with the hope of an 
additional $1.2 million in support over the next two years.
---------------------------------------------------------------------------
    One major goal of the ORHAB project has been to develop and 
implement rapid detection technologies to complement current monitoring 
strategies to offer the best protection from human exposure to toxins. 
Currently WDFW and other ORHAB partners are field-testing ``MIST'' 
kits. This technology offers the promise of allowing field staff to 
determine the presence of toxins in shellfish tissue without having to 
wait for the current time-consuming transport of samples to a distant 
laboratory and the subsequent testing that occurs on their arrival.
    A satellite remote sensing component of the ORHAB project has 
facilitated the development of satellite/GIS tools to enhance the 
monitoring of HAB events along the outer Washington coast. Satellite 
imagery has already been successful in delineating and tracking water 
masses associated with toxin-producing organisms off of our shoreline. 
This technology holds great promise in determining whether a toxic 
bloom will move into the near shore environment and increase toxin 
levels in shellfish.
    ORHAB partners are working closely with federal scientists from the 
Olympic Coast National Marine Sanctuary to develop a series of moored 
buoys along the Washington coast. These buoys will carry equipment to 
measure seawater temperatures and salinity levels at various depths and 
some will carry current meters and instruments to measure chlorophyll 
levels. These parameters will help track the movement of harmful algal 
blooms from offshore to near shore waters. A variety of funding sources 
have been used to develop and maintain these buoys. This work also 
holds the promise of providing managers advance notice of pending HAB 
events.
    In August of 2002, several of our ORHAB partners successfully 
secured a five-year, multi-million dollar grant from ECOHAB program.\5\ 
This work will dovetail with the work begun by ORHAB, providing even 
better tools to predict HAB events. While neither the Washington 
Department of Fish and Wildlife nor the Washington Department of Health 
are directly involved in this ECOHAB Pacific Northwest study, we will 
be direct beneficiaries of the science that is generated.
---------------------------------------------------------------------------
    \5\ Several federal agencies currently collaborate to sponsor the 
Ecology and Oceanography of Harmful Algal Blooms (ECOHAB), a national 
research program studying HABs in the coastal waters of the U.S. This 
five-year ECOHAB Northwest project totals $8.7 million and is 
specifically sponsored by the National Oceanic and Atmospheric 
Administration and the National Science Foundation.
---------------------------------------------------------------------------
    How will these new technologies help state fishery managers on a 
day-to-day basis as we decide whether to open or close fisheries based 
on the presence or absence of marine toxins? The answer is that the 
sooner we know of an impending problem with a HAB event, the sooner we 
can react. The plankton monitoring data we currently collect provides 
us about a two week ``heads-up'' so we can notify clam harvesters and 
coastal business owners that the season may not open on time, or there 
may be an early closure. The information also gives us an idea of the 
geographical scope of a pending problem, helping us understand whether 
it is a coast-wide event or more localized. All of this enhances our 
current ability to manage these fisheries. However, the promise of 
larger scale technologies like offshore moorings equipped to provide 
real-time monitoring of key HAB predictors and satellite telemetry that 
could monitor oceanographic conditions that may lead to HAB events is 
truly exciting. If, as a fishery manager, I had two-months notice of a 
pending problem, it could then be possible to re-adjust season openings 
to take advantage of at least some harvest opportunities before the 
toxin is ingested by the shellfish and the fisheries must close. These 
harvest opportunities would lessen the blow to the various stakeholders 
who depend on these fisheries.
    The State of Washington is grateful for the attention paid by the 
federal government to assist us with these harmful algal blooms. NOAA-
Fisheries scientists from the NWFSC have worked closely with WDFW 
fisheries managers since the closure faced in 1991 when domoic acid was 
first found in razor clam tissue. With no funding assistance from the 
State, these experts came alongside us to help us understand the scope 
and nature of the HAB event we were experiencing. These same federal 
scientists have played a key role in forming the ORHAB collaboration 
and assisting us in securing the MERHAB funding. The MERHAB staff has 
been outstanding in monitoring our activities including highlighting 
our current work on their web site.
    Even though the highest level of domoic acid ever found in razor 
clams was reported in Washington State in 1998, to date there have been 
no deaths or serious illnesses attributed to a HAB event along our 
outer coast.\6\ However, the economic impacts of the closures necessary 
to protect human health have been significant. There is nothing we 
would like better than to have the threat presented by harmful algal 
blooms disappear; however, that is unlikely to happen. Nevertheless, it 
remains the goal of WDFW to continue to provide safe and productive 
shellfish harvest opportunities for the citizens of our state and to 
maximize the economic benefits of those harvest opportunities, as we 
continue to learn to manage our shellfish fisheries around the very 
real threat of harmful algal blooms.
---------------------------------------------------------------------------
    \6\ HAB events also impact the inland marine waters of Washington's 
Puget Sound, where in 1942 three deaths were attributed to paralytic 
shellfish poisoning (PSP). Since then, PSP closures have been an annual 
event in Puget Sound, with sporadic PSP illnesses being reported. In 
1978, a PSP bloom in the Whidbey Island area of Puget Sound set a world 
record for PSP toxin in shellfish, registering over 30,000 micrograms 
in mussels.

                               Discussion

                       Input on the Proposed Bill

    Chairman Ehlers. I thank you and the other witnesses for 
the testimony; it is very helpful. At this point, we will open 
the questions, and I recognize myself for five minutes.
    First, a general question to every member of the panel 
about the draft bill which you have seen. And I would like you 
to very briefly answer the following questions. Do you believe 
the funding levels in the draft bill will be adequate? And 
secondly, should other agency activities be specified, and if 
so, which ones? And finally, does the bill overlook anything 
important? We will go down the line again; we will start with 
Dr. Scavia.
    Dr. Scavia. Mr. Chairman, we are looking at the bill right 
now and haven't had a chance to really dig into the funding 
question, but we will get back to you on that. I do want to 
comment, though, on other agencies. One of the things that has 
been very successful in our ECOHAB program was the partnership 
with EPA, NSF, ONR, and NASA. That partnership program has been 
very, very helpful. And I think at least recognizing other 
agencies involved in this is probably a good thing to do.
    As far as anything that is overlooked, not really, but 
there is one thing that I think might be worth putting a little 
more attention to, and that is the hypoxia side of this Harmful 
Algal Bloom and Hypoxia Research Control Act. A lot of the 
focus has been on harmful algal blooms and we have made a lot 
of progress here. Most of the focus on hypoxia has been in the 
Gulf of Mexico, and I think we really do need to look at a 
national perspective and a national program in that area.
    Chairman Ehlers. Thank you. Dr. Groat.
    Dr. Groat. Likewise, Mr. Chairman, the Department of the 
Interior is reviewing the bill, but from a science monitoring 
research modeling point of view, I think it would be helpful to 
the community if the bill had some citation, if not by agency 
responsibility, necessarily, but to the importance of those 
activities in supporting, understanding, and management of the 
problem. I don't see language of that type in there now, and 
would just suggest as an emphasis on the science role that that 
might be placed there.
    Other than that, I support what Don Scavia said. I think 
the hypoxia issue is one that requires the broadest amount of 
understanding of both the inputs and the effects, and in that 
sense, in the monitoring emphasis I made before, points out the 
value of the monitoring system. And if we are going to 
understand hypoxia and raise the concern about it to the 
appropriate level, then we will have to improve the monitoring 
capabilities to do that.
    Chairman Ehlers. Thank you. Dr. Carmichael.
    Dr. Carmichael. Mr. Chairman, since the CyanoHABs or the 
freshwater HABs are a new addition to the bill, I guess my 
emphasis would be to concur with Dr. Anderson, that it would be 
most appropriate to have additional funding simply because 
these are additional problems that are now being integrated and 
asked of the general HAB question. So that would be my primary 
comment there.
    Secondly, with regards to agencies, since the current HAB 
project is a NOAA project, that we need to be sure that other 
agencies that can integrate and move into this, who can cover 
the freshwater situation appropriately, like the U.S. EPA 
through the Safe Drinking Water Act, and other agencies, too.
    In terms of projects that might be overlooked, no, I 
concur. I think the general topics are appropriate and I hope 
that they will be supported. Thank you.
    Chairman Ehlers. Thank you. Dr. Anderson.
    Dr. Anderson. Mr. Chairman, I reiterate again what Dr. 
Carmichael just said, that in terms of the funding, I do 
believe that we need to make sure that the freshwater program 
is supported, but also, that it is not supported at the expense 
of the marine HAB program. These are very different phenomena. 
There certainly are similarities in approaches and technologies 
that are in common, but the phenomena are different and need to 
be recognized that way.
    I would also say that we have in the ECOHAB program a very 
productive program that I think needs to be not only sustained, 
but even enhanced. There are many proposals for excellent 
science every year that are turned down and there is just much 
more to be done than is presently fundable with the program. So 
I would even vote for some enhancement. On the other agency 
activities, I would mention again that there is a program on 
Oceans and Human Health that I think should be considered. We 
have planned in the United States a coherent program that 
started with ecology and oceanography of these blooms. That is 
the ECOHAB program. Then we moved to what is in your 
legislation as prevention, control, and mitigation. Another 
element, though, that is missing is, the human health and 
epidemiology side of HABs. NIEHS and NSF have started down that 
path and I think some good work could be done to forage 
partnerships to extend that activity.
    So that is the only part of what has been overlooked, we 
should work towards an epidemiology or a human health emphasis 
to complement the other ecology, and oceanography, and 
prevention, control, and mitigation programs. Thank you, Mr. 
Chairman.
    Chairman Ehlers. Yes. Mr. Ayres.
    Mr. Ayres. Thank you. I don't really feel qualified to 
answer your first two questions, but I can make a comment on 
what I think might be overlooked, perhaps, with all due respect 
to the very qualified scientists here with me at the panel. As 
a local manager, what I would like to see is the bill be 
strengthened, its language be strengthened so that the research 
that is done is providing tools and understanding to the local 
level, and some of that was discussed earlier, so that managers 
like myself around the Nation have those tools to better 
understand, predict, and maybe even some day down the road, 
control these harmful algal blooms. As we are faced with 
closing fisheries and having to affect the economies of these 
local communities to such a great extent, it would be nice to 
be able to come back and say, we have tools, we are doing a 
better job of this, this is helping us.
    And the ORHAB project that we have been working with in 
Washington State, with that close collaboration between federal 
scientists, university scientists, and managers like myself, 
and managers from Tribal governments, working together not only 
to perform the research, but in the design phase of that 
research, so that research is directed in a manner that tools 
are provided in the end that help actually the people on the 
ground and the people in those communities that are so close or 
so desperately affected.
    We have been looking in Washington State at some local 
funding, State funding, trying to continue the ORHAB work that 
we have started. There has been a bill before our State 
legislature to add a surcharge to a shellfish license that 
would help to continue the plankton monitoring work we have 
done. Like most states, Washington is in dire budget straits 
right now, and so I am not sure of the status of that bill. I 
think it did not pass out of the State Senate, and whether it 
will be revived at a later date, I don't know, but it has 
brought the attention of our State Government fully to it, and 
they are looking at ways to continue that work as well.
    Chairman Ehlers. Thank you. And let me just say, if any of 
you wish to amplify your remarks on that or have other 
suggestions on the bill, feel free to correspond with us at any 
time.
    I will now recognize Congressman Baird for his five 
minutes.

                Economic Impacts of Harmful Algal Blooms

    Mr. Baird. I thank the Chairman. My good friend, Mr. 
Gutknecht, and I were at the budget hearing until 2 a.m. last 
night, and so one of the things I am quite cognizant of is that 
the federal budget is going to be about $482 billion in deficit 
next year. And hence, if we are going to fund programs, we need 
to know that the public is getting their return on investment. 
Do we have any estimates of the cost--and maybe you did it 
earlier and I just missed it--but the cost of harmful algal 
blooms to the economy nationwide?
    Dr. Anderson. Yes. Thank you, Congressman. I would choose 
to answer that one, in part, because I am one of the authors of 
the study that the Chairman mentioned earlier about the 
economic impacts being on the order of $50 million a year. I 
want to emphasize that that is an extraordinarily conservative 
estimate. Some of you may have worked with economists, for me, 
it was an eye opener about how conservative they can be. In 
this particular case, the estimate doesn't include the 
multipliers, for example, that are often used to track the way 
money moves through an economy. And in any case, the estimate 
there, though, is if we stretch it out over time, as much as $1 
billion over a decade or so.
    What is more important, though, is that individual events 
can dwarf that annual average. There was a Pfiesteria outbreak 
right here in this region that had an order of $40 to $50 
million economic impact from that single outbreak alone. We 
have heard some numbers this morning from the west coast about 
the Dungeness crab and the razor clams that are, again, going 
to clearly push that annual estimate up for these years. So 
yes, we have numbers, but are being very, very prudent, I 
think, and cautious about how high we drive them, but they are 
significant.

               Research and Possible Treatments for HABs

    Mr. Baird. Thank you. Mr. Ayres' slides, I think, 
illustrated that point I made about the number of folks coming 
to the coast. Mr. Ayres also made, I think, a very legitimate 
point about the need to coordinate our research with 
management. As a scientist myself, I understand the need for 
basic research, but as a Representative, people want to say, 
what comes out of it? What are we learning to do? In other 
words, if you are the manager, it is not enough to just say we 
are going to close the beach until nature takes its course. 
What are we learning about how we can control these blooms? And 
I will open that up to whomever.
    Dr. Scavia. I will respond to part of that. When we began 
the overall program, we started with ECOHAB, which focused on 
understanding the ecology and oceanography and developing some 
probes and tools that people might use. A couple of years into 
that, we added the MERHAB program, which is our way of tying 
that long-range research into applications, into the State 
managers on the ground. We are applying those tools, whether it 
is a satellite image that helps track where the bloom is going 
to landfall, or if it is new tools to actually try to monitor 
and get early warnings to the State managers. We have moved in 
that direction.
    Most of the MERHAB projects that are funded are actually 
funding of joint activities between scientists and managers, 
like Mr. Ayres was talking about, so that we actually bring 
those people together. So we have been moving in that 
direction. I think Dr. Anderson's summary gives some more 
examples of the kinds of tools that we have been able to 
develop to have those early warnings. But most of our effort to 
date has been focused on the ability to detect the blooms 
earlier and perhaps help mitigate the impacts. We have not been 
able to invest very much in the control part of this. Dr. 
Anderson and others have been developing programs and 
developing--suggesting projects that we might actually be able 
to move into that direction to try to control them. Ultimately, 
we want to----
    Mr. Baird. Is there anything promising at all, herbicides, 
pesticides, natural----
    Dr. Scavia. I will defer that to Dr. Anderson.
    Dr. Anderson. Yes. Thank you. The topic of control of 
blooms is a very, very controversial one as you can imagine, 
because people are very concerned about whether the treatment 
might be worse than what is being treated. I will say, though, 
that I am very hopeful that with the bill the Chairman was 
mentioning before that you were marking up on invasive species, 
that I hope that we actually can force, in a sense, a change in 
the mindset of not only scientists, but managers and others, 
that we actually do need to take a proactive attack on many of 
these organisms in our coastal waters, not just HAB species, 
but these invasive species. That truly will require a mindset 
change. We do not have any national program or national mandate 
for this type of control of aquatic organisms. The Agricultural 
Research Service has that responsibility on land, but we do not 
have that in the ocean.
    So to go back to your question about promising 
technologies, in my own laboratory, I have put my laboratory 
where my mouth is with respect to bloom control. We are looking 
into strategies using something as simple as clay, which we 
disperse on the surface of the water, and it flocculates and 
removes red tide cells and carries them to the bottom. It is a 
promising approach that is used in other countries. We are much 
more cautious here about when we can use it, where we can use 
it, but that is just one example of several that I think could 
be developed if the prevention, control, and mitigation part of 
your legislation goes forward.
    Mr. Baird. I concur with that. Could I ask Mr. Ayres if he 
wants to make a brief comment on that, Mr. Chairman, just very 
briefly? Mr. Ayres, anything to add to that?

       Potential Environmental Affects of Treatment Technologies

    Mr. Ayres. Well, I am certainly not the expert that Dr. 
Anderson is, and I guess I share that concern that he expressed 
at the beginning of his statement just now, that we do have 
concerns about the whole ecology, and anything that is going to 
affect plankton also affects--potentially, could affect the 
good plankton. And clearly, the razor clams and the Dungeness 
crabs that we are so concerned about depend on those plankton 
for their very livelihood. So you know, at the State of 
Washington, and I am sure most any other local government, take 
really close looks at any kind of control efforts to make sure 
that there be no--as he said earlier, no worse effect of the 
cure than the cause.
    Mr. Baird. I thank the panel and I thank the Chairman.
    Chairman Ehlers. The gentleman's time has expired. Mr. 
Gutknecht from Minnesota.
    Mr. Gutknecht. Thank you, Mr. Chairman. I want to follow up 
with Dr. Anderson and any of the other panel members who want 
to respond to this. You mentioned about using the clay as a 
potential treatment. How much do we know about what the effects 
may be of the algae sinking down to the bottom, perhaps making 
matters worse at the bottom?
    And then secondly, what are the other technologies that you 
are looking at that may be successful? Because I do agree we 
have to become much more aggressive. Just containing these 
things, in my opinion, is not really an answer.
    Dr. Anderson. Yes. Thank you. First of all, you have 
highlighted exactly why it takes time to go through these types 
of strategies for controlling blooms. The public is out there 
saying give us a method. First, we have to answer exactly your 
question, what are the impacts of the sedimented cells and 
toxins? Thus far, at least, with the clays that we are using, 
we are finding that the effects are no different than they 
might be from the actual red tide or bloom itself. We have a 
difficult situation of what are we really trying to compare our 
impacts to? Do you compare it to a pristine situation where 
nothing is happening or do you compare it to what the real 
impacts of the red tide are? And that is one of the ongoing 
arguments that we are struggling with. But we are aware of 
those kinds of issues, and thus far at least, the way I put it, 
with the work we are doing, we have not found a ``show 
stopper'' yet that has made us say this research should be 
abandoned. We think it still has promise.
    With respect to other technologies that might be out there, 
that is one of the reasons we need a program like prevention, 
control, and mitigation--to get people to begin to be creative 
in thinking about these issues. If we think about biological 
control, there are possibilities with viruses, that are very 
specific for certain organisms that are naturally occurring in 
the environment. There are bacteria that are also destructive, 
that can destroy some of these HAB species. There are 
parasites. These are all naturally occurring organisms; you 
don't need to engineer them, but you might need to manipulate 
them the same way one does bioremediation for oil pollution, 
for example.
    And I could go on and on. There are strategies that one 
could use that are simply pragmatic. Sometimes on the west 
coast, they move fish cages out of the way of a bloom. If you 
could provide advance warning with certain moored devices and 
instruments that detect what is in the water and then tell the 
fishermen that they need to do something to move their cages, 
you don't actually have to destroy the bloom, but you can 
mitigate the impacts from it.
    So I believe that if we put the intellectual capacity that 
exists in this country to work on this problem, we can come up 
with mitigation and control strategies.
    Mr. Gutknecht. Are you working with any of the big chemical 
companies, because I am aware, for example, in my home State of 
Minnesota, the wild rice people have developed a fairly 
interesting herbicide that seems to work pretty well and does 
not affect the environment. Are you familiar with that?
    Dr. Anderson. I am familiar with those kinds of approaches. 
In truth, there is no effort that I know of in the U.S. right 
now that is looking at chemicals to control HAB species. Again, 
the bias is that it seems so difficult to find the magic bullet 
that will only hit the species you are interested in. It is one 
thing if you have a field of broccoli where you have one type 
of plant that you can protect and everything else is invasive, 
you don't want it there. In the ocean, there are hundreds of 
species of algae that are there that are co-occurring with the 
one you want and many other organisms as well, and it is very 
hard to think of a chemical that can go and attack that one 
species. But it is possible to think of organisms--as I 
mentioned, viruses, bacteria, and so forth, which have that 
specificity. So I think there is promise there.
    Mr. Gutknecht. Thank you. Yes, Dr. Groat.
    Dr. Groat. The parallel with invasive species here is so 
striking, how once they are upon us, how harmful algal blooms 
invasive species, how challenging the control process is, how 
complicated the systems are, and how difficult it is to invoke 
the P-word, the prevention-word. Whereas, in hypoxia, the 
fundamental driving forces behind it are better understood, and 
we understand that we can control by preventing, and we can put 
the scientific understandings of those processes into a 
management strategy. It would be fortunate and happy if we 
could do the same thing for invasives or for harmful algal 
blooms, but I would hope that in answer to Mr. Baird's question 
about supporting management, that where we do understand 
mechanisms, particularly, where it leads to prevention, that 
management strategies would rely heavily on the science that 
supports that and do as much in the prevention area as we can 
because the control is so difficult and so expensive.
    Dr. Carmichael. Yes. Let me offer an interesting 
perspective with regard to the freshwater HABs. Freshwater 
HABs, of course, as you have seen in these photos, can be quite 
extensive. And in terms of treating those, water utilities can 
handle those, but at great expense, tens of thousands of 
dollars a day to handle one of those kinds of blooms. So in 
terms of treatment, there may be processes already in place; 
they just are quite expensive. So that with the freshwater 
HABs, the emphasis, I believe, is on watershed management 
prevention, and control, and monitoring at this point, 
nutrients. Thank you.
    Chairman Ehlers. I am sorry. One quick comment. For the 
specificity that you are looking for, you may eventually need 
some genetic engineering here to find precisely which gene is 
causing the problem and seeing if you can't address that 
particular issue. Barring that, I think you have an impossible 
problem of trying to kill off the harmful algae without killing 
all the rest. And so it is going to take a very specific type 
of approach.

     The Interagency Task Force on Harmful Algal Blooms and Hypoxia

    One more question. What has been your experience with the 
effectiveness of the interagency Task Force on Harmful Algal 
Blooms and Hypoxia? Do you think it should be continued, and if 
so, do you think there should be any changes to its charter? I 
will leave that open to anyone who wishes to comment. Dr. 
Scavia.
    Dr. Scavia. I guess I will start with that. I think the 
Task Force that was created in this Act was effective in 
putting together and delivering the three scientific 
assessments that have been delivered and are coming. I think 
the Task Force has done a good job in helping to coordinate the 
science programs, and I think that should be continued.
    I do want to point out that early on, those of us on the 
science side of the government recognized that the Task Force 
created under NSTC was probably not the appropriate group to 
actually develop an action plan for the management strategies 
dealing with the Gulf of Mexico. And the President's science 
advisor and head of EPA at that point in time agreed that EPA 
would lead and create another Task Force to deliver that action 
plan, and that is what happened.
    So one of the things that might be worth considering is 
establishing or creating a Task Force that could deal with 
receiving the scientific input and developing implementation 
and action plans in response to that.
    Chairman Ehlers. Thank you. That is helpful. Would a cross 
cutting budget approach be helpful, too, in this issue?
    Dr. Scavia. I think so. There is a lot--there is a fair 
amount being done that you heard about here. There is more that 
is being done that we haven't heard about, and I think that 
sort of look would be useful.
    Chairman Ehlers. Dr. Anderson, you had a question, too?
    Dr. Anderson. Just a quick comment. In my written 
testimony, I mentioned something that concurs with what Dr. 
Scavia just said, which is that on the science side, my 
recommendation about the Task Force would be to include more 
academic input. I found that with the last one that all the 
agency representatives worked hard, but there is a great deal 
of perspective and experience in the academic community that I 
think could have been tapped a little better.
    Chairman Ehlers. Dr. Groat.
    Dr. Groat. Going along with what Dr. Scavia said, I think 
one of the strengths of the Task Force as it was implemented 
between EPA and the NSTC was the fact that it did bring both 
the people who use the information to manage, as well as the 
scientists, together. The State interest and the tribes were 
involved in that, and I think if we are sincerely interested in 
facilitating that transfer of knowledge to management, then 
that kind of a task force is an important one that is more 
broadly representative. I would concur with scientists, but 
also with local managers and state managers being involved to a 
large degree.
    Chairman Ehlers. Any other comments? If not, you have heard 
the bells, and you are probably aware that the Members of 
Congress are very Pavlovian. The bells ring and we run to the 
Floor and vote. And so we have two votes occurring on the Floor 
very shortly.
    I believe you covered the topic very well. We may send you 
additional follow-up questions and ask you to respond in 
writing for the record, and we hope we will be able to 
introduce this bill soon and get it passed into law and do an 
even better job of attacking the problem that you have devoted 
a good share of your lives to. So thank you very, very much. 
Your testimony has been extremely helpful and I really 
appreciate you coming here for this Hearing. Thank you again. 
With that, the hearing is adjourned.
    [Whereupon, at 11:35 a.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


    Biographies, Financial Disclosures, and Answers to Post-Hearing 
                               Questions


<SKIP PAGES = 000>

                      Biography for Donald Scavia
    As Chief Scientist of NOAA's National Ocean Service, Dr. Scavia is 
responsible for the quality, integrity, and responsiveness of NOS's 
science programs, and for ensuring that NOS's operations and resource 
management are based on solid science and technology. He also 
represents NOS and NOAA on several interagency and intergovernmental 
committees addressing a range of environmental issues. He is Associate 
Editor for journals of the Ecological Society of America and the 
Estuarine Research Federation, and has served on the Boards of 
Directors for the American Society of Limnology and Oceanography and 
the International Association for Great Lakes Research.
    Before becoming the NOS Chief Scientist, Dr. Scavia had been 
Director of the National Centers for Coastal Ocean Science and Director 
of NOAA's Coastal Ocean Program. In those positions, he managed a wide 
range of coastal and Great Lakes programs in NOS research laboratories 
and monitoring and assessment offices, as well as its primary extra 
mural research program.
    Between 1975 and 1990, Dr. Scavia was with NOAA's Great Lakes 
Environmental Research Laboratory in Ann Arbor, Michigan, where his 
research focused on ecosystem modeling and field and laboratory studies 
on nutrient cycling, bacteria and phytoplankton production, food-web 
dynamics, and biological-physical coupling at all scales.
    Dr. Scavia holds Bachelors, Masters, and Doctorate degrees in 
Environmental Engineering from Rensselaer Polytechnic Institute and the 
University of Michigan. He has published over 60 articles in the 
primary literature and led development of dozens of interagency 
scientific assessments and program development plans.
                   Answers to Post-Hearing Questions
Responses by Donald Scavia, Chief Scientist, National Ocean Service, 
        National Oceanic and Atmospheric Administration

Questions submitted by Chairman Vernon J. Ehlers

Q1. LHow do resource managers gain access to satellite data used to 
predict and model harmful algal blooms and hypoxia? Is there a charge 
to obtain this information and for the data interpretation? Should we 
expand our use of satellites for this purpose, and if so, how?

A1. Satellite imagery, combined with other data sets, is an inexpensive 
and effective tool for use in monitoring and predicting Harmful Algal 
Blooms (HABs). Gulf of Mexico HAB bulletins produced by National 
Oceanic and Atmospheric Administration's (NOAA's) National Centers for 
Coastal Ocean Science (NCCOS) are provided to managers in the Gulf of 
Mexico region. These bulletins include satellite images, wind data, 
available cell counts (provided by the states), and analysis. NOAA 
strives to produce data in common forms that address the needs and 
limited resources of the managers. State managers from all five Gulf 
States, in turn, regularly provide data and information that are used 
to improve the accuracy and timeliness of the bulletins. NOAA has made 
these Gulf of Mexico HAB bulletins operational, and believes these 
bulletins should be expanded nationwide.
    The Gulf of Mexico effort is an effective model. At the onset, NOAA 
worked with state managers to assure that our products would make their 
jobs easier. To be successful in tracking and forecasting bloom 
conditions, it became clear that in addition to satellite imagery, 
meteorological data, National Weather Service 3-5 day marine forecasts, 
state monitoring data, and numerical models were needed. HAB analysis 
and forecasting can become as sophisticated as forecasting hurricanes. 
In conjunction with Ecology and Oceanography of Harmful Algal (ECOHAB) 
and Monitoring and Event Response for Harmful Algal Blooms (MERHAB) 
research efforts, NOAA has begun to assess how HAB bulletins can be 
expanded to the West Coast. We will continue to work with local and 
regional managers to blend relevant data, models, and analyses to 
address each HAB problem. More research is necessary before satellite 
data can be successfully incorporated into predictions and models of 
hypoxia.
    There is no cost to users for the NOAA HAB bulletins. Managers in 
the Gulf of Mexico region gain access to current bulletins through e-
mail and to previous bulletins and related data sets at several NOAA 
websites. However, NOAA annually spends $200K purchasing imagery needed 
for HAB-related issues and spends about $50K to produce the bulletins 
for the Gulf of Mexico. The satellite imagery from the SeaWiFS ocean 
color satellite is purchased through a license from OrbImage, Inc. 
NOAA's license allows use of the data for all civilian Federal, State, 
and local government needs and operations. NOAA spends $200K for east 
and west coast imagery; over 50 percent of it will be used for HABs. 
NOAA's CoastWatch program spends about $15K to produce the HAB 
satellite products. The National Ocean Service (NOS) spends about $35K 
to create the bulletin: $28K for analysis, which includes communication 
with State managers, and $7K for production of the bulletin. These 
bulletins are routinely improved by adding information developed 
through MERHAB and ECOHAB. These efforts to better address the needs of 
State managers, to improve the quality and accuracy of the bulletins, 
and to address new HAB events costs about $150K per year.

Questions submitted by Democratic Members

Q1. LThe National Assessment of Coastal HABs includes the finding that 
natural events such as storms and ocean currents have contributed to 
the increase in HAB events. What changes in storm frequency and 
patterns and what changes in ocean currents have occurred that have 
promoted the increase in HAB events?

A1. Research into the relationships among HAB events and changes in 
regional circulation and weather patterns is still in progress, and the 
needed long-term data sets to address these questions comprehensively 
are not yet available. It is also important to note that in many cases, 
blooms initiated or transported onshore by currents or weather events 
may then be enhanced by the presence of increased nutrient levels 
(usually anthropogenic) in coastal waters. We do have some examples of 
suspected interactions between HAB formation and major weather events.
    For example, a single hurricane in 1972 ``inoculated'' the waters 
of southern New England with cysts of the paralytic shellfish poisoning 
(PSP) organism, Alexandrium. Since that event, the patterns of the now 
resident populations of Alexandrium are linked to large- and small-
scale circulation patterns in the Gulf of Maine. Coupled numerical-
biological models, simulating the circulation in the Gulf of Maine and 
the growth characteristics of Alexandrium have been used to simulate 
some of these interactions. For the next three years, ECOHAB will 
support the refinement and testing of these models to more accurately 
simulate and forecast bloom patterns. Those models, along with 
monitoring data, are necessary to understanding how the patterns in 
Gulf of Maine circulation and weather will influence the frequency and 
location of PSP events.
    On the west coast, blooms of the diatom Pseudo-nitzschia can cause 
amnesic shellfish poisoning (ASP), resulting in economic impacts to 
coastal economies and public health concerns. The circulation of the 
West Coast is dominated by upwelling and storm tracks. The frequency 
and intensity of El Nino Southern Oscillations (i.e., ENSO events) 
influence the patterns of upwelling and the frequency and intensity of 
storms. Upwelling events bring nutrient-rich, deeper water near the 
coast and move surface waters offshore; storms tend to move surface 
water onshore. In the Pacific Northwest, inter-decadal patterns of ENSO 
events are related (via atmospheric forcing) to shifts in the dominance 
of either the Alaska Current or California Current. The dominance of 
these currents influences near-shore circulation, storm patterns, and 
ultimately the biological processes in coastal waters.
    A 5-year ECOHAB study initiated in 2002 is examining the dynamics 
of ASP bloom formation, including how variability in upwelling and 
storm frequency influence the formation and location of the persistent 
Juan de Fuca eddy. This eddy, located off northwest Washington State, 
is an upwelling feature favorable for phytoplankton growth, including 
species that can produce ASP toxin. This study is testing the 
hypothesis that ASP events in northern Washington are largely caused by 
Pseudo-nitzschia growing in the Juan de Fuca eddy and subsequently 
transported to near-shore waters by storms. Investigators are looking 
at the variability in this eddy (size, location, intensity) and at the 
timing and frequency of storms with respect to presence of the ASP 
organism and toxin.
    Since 1991, observations of the extent and frequency of Pfiesteria-
related fish kills has been documented in the Neuse Estuary, North 
Carolina. In 1996, this region was hit with two hurricanes. For that 
year, and two years following, Pfiesteria fish kills dropped 
significantly. Three hurricanes passed through this area in 1999 along 
with a 500-year flood; this region has not experienced a Pfiesteria-
related fish kill since. These preliminary observations suggest that 
variability in hurricane activity and rainfall in the mid-Atlantic may 
be a major influence on the occurrence of Pfiesteria blooms and that 
understanding that variability may allow for some forecasting 
capability.
    Several lines of research and field observation have shown that 
under conditions of regional warming (and global warming), the growth 
rates of cyanobacteria increase. Toxin-producing species of 
cyanobacteria have caused problems in some lakes (including the Great 
Lakes) and estuaries. This and other factors related to weather trends 
(e.g., rainfall and nutrient loads) will be important to understanding 
and forecasting cyanobacteria bloom events in lakes, estuaries, and 
reservoirs.

Q2. LYour written testimony states that it may be possible to control 
HAB blooms with bio-control agents or other biocidal methods. We have 
had mixed results controlling pests in terrestrial systems and there 
have often been unforeseen ecological and human health problems 
associated with this type of management approach. What has been the 
reaction of fisheries communities and resource managers to dealing with 
HAB events in this way?

A2. Resource managers and fisheries communities are concerned about the 
unintended consequences of manipulating the environment. They are 
concerned that anything released or sprayed into the marine environment 
might negatively impact their target species or region's habitat, or 
open them to liability issues.
    Biological control agents for HABs are still very much in the 
research stage. Several general approaches are being explored, but all 
require careful examination of not only efficacy, but environmental 
impact, including impacts to valued resources. At this time, there is 
no generally applied treatment for controlling HABs, other than 
reducing anthropogenic nutrient loading. Other methods being explored 
include the use of specific bacterial or viral agents, removal of HABs 
by grazing organisms such as zooplankton, shellfish or other benthic 
organisms (e.g., sessile ascidians), application of herbicides, and 
physical removal methods such as flocculation of harmful algae by 
application of clay minerals to surface waters or vacuuming techniques 
to remove macroalgae. The viral method is promising as it can be made 
species-specific, however there are both biological and policy risks to 
this approach. The flocculation method, using clay, has been applied in 
Asia with some success but more research into types of clays, amounts, 
and effects on benthic organisms must be done. There is a current 
ECOHAB project investigating clays as removal agents. These approaches 
may have promise in practical application, but clearly a great deal of 
research, testing, and public education must precede any application to 
a field situation. The ECOHAB program continues to solicit proposals 
related to the prevention, control, and mitigation of HABs.

Q3. LYour written testimony states in the summary of findings for the 
Assessment of Coastal Harmful Algal Blooms that ``management options 
are limited at this time.'' What is limiting the management options? 
How can this research program be focused to expand our management 
options?

A3. HAB Management options fall into three categories: prevention, 
control, and mitigation. These options are currently limited by a 
series of scientific uncertainties and policy hurdles. Each is outlined 
below.

Prevention. Prevention requires a solid understanding of the causes of 
HABs and, while a cause-and-effect relationship exists between 
increased pollution and nutrient loading and an incidence of some HAB 
species, it may not apply to all. In the case of HABs that are fueled 
by elevated nutrient loads, reducing those inputs may reduce the 
frequency and/or severity of bloom events. However, additional research 
is needed to determine the extent of nutrient reduction needed to 
accomplish functional results. In most other cases, prevention is 
largely unattainable at this time for a variety of reasons, including 
the fact that bloom initiation of many species occurs offshore and that 
we still do not understand many of the factors leading to bloom 
initiation. The ECOHAB research has increased the understanding of the 
dynamics of, and our ability to model, some HABs; however research is 
still needed on many of the existing and newly emerging problem 
species. Increased emphasis is needed on developing these models and 
improved monitoring techniques to support HAB forecasting.

Control. Impediments for control options (e.g., methods to manipulate 
or terminate blooms once they occur) are outlined in response to the 
above question. Attempts to use chemicals to directly control HAB cells 
encounter many logistical problems and environmental objections. 
Chemicals are likely to be nonspecific, indiscriminately targeting all 
co-occurring algae and other organisms along with the target algal 
species. Chemical application and other options, such as flocculent or 
biological controls need additional research to determine their wider 
impacts to the coastal ecosystem.

Mitigation. Mitigation includes efforts to avoid or reduce the impacts 
of a bloom by modifying human behavior (e.g., recreation, harvest) 
during a bloom event. These options are currently the most effective 
ways to reduce human health risks, ecosystem damage, fisheries losses, 
and declines in tourism due to algal blooms. Mitigation options include 
forecasting bloom development and movement, monitoring HAB cells and 
toxins, and responding rapidly to HAB events. ECOHAB research on better 
models and detection techniques for organisms and toxins have been 
incorporated into some State and local monitoring programs to improve 
mitigation. It is also important to provide resources, in addition to 
those research results, to State or local agencies to support their 
incorporation into the monitoring programs. The MERHAB program provides 
that support. MERHAB also supports event-response capabilities within 
affected regions to ensure trained and equipped personnel are able to 
mobilize quickly, conduct appropriate sampling and testing, and 
communicate effectively during HAB events. With faster, less expensive, 
and more reliable detection methods for HAB cells and toxins, and 
stronger mechanisms in place to respond to outbreaks, programs will be 
better able to mitigate the impact of HABs on vital resources and will 
protect public health.
                     Biography for Charles G. Groat
    On November 3, 1998, Dr. Charles G. Groat became the 13th Director 
of the U.S. Geological Survey, U.S. Department of the Interior.
    Dr. Charles G. (Chip) Groat is a distinguished professional in the 
earth science community with over 25 years of direct involvement in 
geological studies, energy and minerals resource assessment, ground-
water occurrence and protection, geomorphic processes and landform 
evolution in desert areas, and coastal studies.
    Dr. Groat received a Bachelor of Arts degree in Geology (1962) from 
the University of Rochester, a Master of Science in Geology (1967) from 
the University of Massachusetts, and a Ph.D. in Geology (1970) from the 
University of Texas at Austin.
    Among his many professional affiliations, Groat is a member of the 
Geological Society of America, American Association for the Advancement 
of Science, American Geophysical Union, and the American Association of 
Petroleum Geologists. He has also served on over a dozen earth science 
boards and committees and has authored and contributed to numerous 
publications and articles on major issues involving earth resources and 
the environment.
    Dr. Charles G. Groat was born in Westfield, New York, March 25, 
1940. He currently resides in Reston, Virginia, with his wife, Barbara. 
He has two grown children.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions
Responses by Charles G. Groat, Director, United States Geological 
        Survey, U.S. Department of the Interior

Q1. LHow do resource managers gain access to satellite data used to 
predict and model harmful algal blooms and hypoxia? Is there a charge 
to obtain this information and for the data interpretation? Should we 
expand our use of satellites for this purpose, and if so, how?

A1. The U.S. Geological Survey (USGS) does not currently have a project 
involving the systematic use of satellite data to model and predict 
harmful algal blooms (HAB) and hypoxia in coastal waters. The potential 
use of satellite imagery as a modeling and research tool is high, and 
routine use of satellite imagery offers the potential for daily spatial 
mapping as a monitoring tool for the coastal zone.
    There are at least three avenues for resource managers to get 
satellite data to monitor HAB. First, Government owned systems such as 
the National Ocean and Atmospheric Administration's (NOAA) weather 
satellites, the National Aeronautics and Space Administration's (NASA) 
experimental Terra, Aqua and EO-1 and the USGS Landsat 5 and Landsat 7 
(although the Landsats may not be in currently accessible). Second, 
``restricted distribution'' systems such as NASA's SeaWiFS (Sea-viewing 
Wide Field-of-view Sensor) that provide data to approved researchers. 
Third, commercial systems include Digital Globe, Space Imaging's Ikonos 
and international sources. Each of these broad categories has its own 
pricing policy. In general, Government systems feature open 
distribution and have low fees for the data, usually based on the cost 
that the agency incurs in producing a product. The ``restricted 
distribution'' category is typified by ``free'' data that only a small 
number of pre-approved users can obtain. Commercial operators will 
usually sell data to any customer, although the ability to share the 
data with a wide community typically comes at an additional price. 
Government and ``restricted distribution'' for the most part distribute 
calibrated, validated, and specially registered imagery to the broad 
user community leaving the interpretive work to the end user based on 
their specific application or research objective (e.g., HAB modeling or 
monitoring). Some agencies produce higher-level applied products as a 
part of their core mission. For example, NOAA provides an online 
bulletin on HAB conditions, which includes interpreted remote sensing 
imagery, in the Gulf of Mexico to the management community. Numerous 
commercial firms offer satellite data processing and analysis services 
including the companies that operate commercial satellites. Both NOAA 
and NASA may be able to provide additional information.
    Research has shown that satellites can provide essential 
information on these phenomena. The cost of data and satellites has 
been a barrier to expanded use of the current systems. And, limited use 
of the data slows the progress of the science required to more 
effectively monitor, model and predict harmful algal blooms. Every 
harmful algal bloom that occurs does not lead to hypoxia. Hypoxia can 
occur following a non-harmful algal bloom. The critical research 
questions that the federal government agencies are addressing include 
what organism is blooming, is it harmful, what caused the bloom, and 
how can we distinguish harmful versus non-harmful algal blooms via 
satellites while monitoring and modeling the conditions that lead to 
their development and demise. Applications include support for 
decisions regarding at what level of blooming organism should shellfish 
beds be closed, and what are the implications of harmful algal species 
for commercial fisheries.
    EPA's Gulf of Mexico Program is facilitating a Hazardous Algal 
Bloom Observing System (HABSOS) collaborative case study and 
feasibility pilot with EPA, NASA, NOAA, NAVY, and the Gulf State Health 
Agencies. The study is nearing completion and early successes indicate 
that it is technically feasible and practical to expect to more 
effectively predict, detect, and forecast the movement of specific 
hazardous algal blooms such as Red Tides through an integration of the 
physical and biological science monitoring programs of the Federal and 
State agencies. Additionally, the Gulf of Mexico Program is working to 
link the current Red Tide Monitoring and Reporting systems of the six 
Mexican States bordering the Gulf of Mexico into HABSOS to extend its 
capability. Implementation of an operational Gulf HABSOS framework will 
require strategic investments in State and Federal near and offshore 
monitoring infrastructure.
    In an upcoming annual issue of the `Pulse of the Estuary,' a report 
of the regional monitoring program for San Francisco Bay, USGS 
scientists utilize a satellite image from the NASA's SeaWiFS Project 
showing a coastal algal bloom occurring at the same time a red tide 
occurred inside San Francisco Bay. The authors suggest that events 
offshore can propagate into the Bay. The article demonstrates the value 
of routine use of satellite imagery for biological process studies and 
water-quality monitoring.

Q2. LThe addendum to your testimony provided a list of short-term 
actions the Gulf of Mexico Task Force had developed to meet its long-
term goal of reducing hypoxia in the Gulf of Mexico. Each action has a 
proposed time frame for completion. Please provide a list of the status 
of these actions and, if applicable, an explanation of why they are not 
on schedule.

A2. Significant progress has been made on the short-term actions 
identified in the Action Plan of the Mississippi River/Gulf of Mexico 
Watershed Nutrients Task Force. Although the original timeline has not 
been rigidly maintained, the Task Force has been actively pursuing 
these short-term actions and its long-term goals. Since publication of 
the Action Plan in January 2001, the Task Force did not meet in 2001, 
but met twice in 2002, in February and December. It has formed separate 
workgroups to address specific issues, including: management 
implementation and coordination, three areas of management action 
(nonpoint source, point source and restoration), finance and budget, 
and monitoring, modeling and research. These workgroups currently are 
active. The Task Force's Coordinating Committee, which staffs the Task 
Force and fulfills the role of the management implementation and 
coordination workgroup is scheduling monthly conference calls to ensure 
continued progress, and the next Task Force meeting is being planned.
    Short-term actions and time-frames proposed in the Action Plan (The 
Action Plan, p. 13) are listed with a description of the status of each 
as follows:

        #1 LBy December 2000, the Task Force with input from the States 
        and Tribes within the Mississippi/Atchafalaya River Basin, will 
        develop and submit a budget request for new and additional 
        funds for voluntary technical and financial assistance, 
        education, environmental enhancement, research, and monitoring 
        programs to support the actions outlined in the Action Plan;

Status: A budget plan has not been placed into official interagency 
review through the National Science and Technology Council mechanism 
which would be necessary prior to any action being taken. The 
President's budget funds actions within the Action Plan, as described 
below.

        #2 LBy Summer 2001, States and Tribes in the Basin, in 
        consultation with the Task Force, will establish sub-basin 
        committees to coordinate implementation of the Action Plan by 
        major sub-basins, including coordination among smaller 
        watersheds, Tribes and States in each of those sub-basins;

Status: Sub-Basin Committees have formed in the Lower Mississippi River 
Sub-Basin, the Upper Mississippi River Sub-Basin, and Arkansas Red-
White Sub-Basin. Groups have stepped forward as leaders in the Ohio 
River Sub-Basin and the Missouri River Sub-Basin. The Lower Mississippi 
Sub-Basin Committee had its first meeting in late 2002, and the other 
Committees are planning meetings in 2003. Discussions are ongoing among 
States, Tribes and other watershed-based organizations regarding 
establishment of other sub-basin committees. Developing an additional 
level of coordination among States and Tribes associated with large 
sub-basins within the Mississippi River Basin that cross numerous State 
and other jurisdictional boundaries presents new challenges. States can 
be included in several sub-basins, requiring their participation in 
multiple new committees. Other organizational entities exist, and there 
is a need to complement and take advantage of all existing 
organizational structures and not duplicate efforts.

        #3 LBy Fall 2001, the Task Force will develop an integrated 
        Gulf of Mexico Hypoxia Research Strategy to coordinate and 
        promote necessary research and modeling efforts to reduce 
        uncertainties regarding the sources, effects (including 
        economic effects in the Gulf as well as the basin), and 
        geochemical processes for hypoxia in the Gulf;

Status: The Task Force's Monitoring, Modeling and Research Workgroup 
co-chaired by the USGS and NOAA organized a workshop held in St. Louis 
on October 16-18, 2002. The workshop brought together over 100 
technical and management specialists from State and Federal 
governments, universities and other organizations, to gather 
information for development of a Monitoring, Modeling, and Research 
Strategy. The purpose of the Strategy is to describe a framework for 
science activities that will support management decision-making related 
to achieving the three major goals of the Action Plan--improving water-
quality conditions in the Mississippi River Basin, reducing hypoxia in 
the northern Gulf of Mexico, and protecting the social and economic 
fabric of the communities that depend on the goods and services 
provided by the Basin and the Gulf. A draft Monitoring, Modeling and 
Research Strategy was submitted by the Workgroup to the Task Force 
Coordinating Committee on April 15, 2003.

        #4 LBy Spring 2002, Coastal States, Tribes and relevant Federal 
        Agencies will greatly expand the long-term monitoring program 
        for the hypoxic zone, including greater temporal and spatial 
        data collection, measurements of macro-nutrient and micro-
        nutrient concentrations and hypoxia as well as measures of the 
        biochemical processes that regulate the inputs, fate, and 
        distribution of nutrients and organic material;

Status: NOAA has expanded its support for monitoring of the extent of 
the hypoxic zone in the northern Gulf of Mexico, as well as increased 
activities to disseminate that information in a timely manner. In 
addition to continuing the monitoring efforts supported since 1985, 
NOAA support to the academic community includes higher-frequency 
observations and biogeochemical and ecological process studies to 
relate the results of the monitoring program to impacts on the coastal 
ecosystem. The framework described in the Monitoring, Modeling and 
Research Strategy will guide future improvements in long-term 
monitoring of the hypoxic zone.
    The U.S. Environmental Protection Agency (USEPA) is planning 
surveys to obtain seasonal data to address the priority monitoring 
needs identified in the Hypoxia Action Plan and the National Hypoxia 
Assessment report. These surveys will be completed during April 2003, 
July-August 2003, and October-November 2003. The objectives of these 
monitoring surveys are to fill important data gaps, particularly in 
relation to boundary conditions between near shore and offshore zones, 
as well as first-order ecosystem process uncertainties, such as 
phytoplankton/carbon relationships with dissolved oxygen, light 
interaction and attenuation, water column and sediment oxygen demand, 
and sediment/nutrient fluxes.

        #5 LBy Spring 2002, States, Tribes and Federal Agencies within 
        the Mississippi and Atchafalaya River Basin will expand the 
        existing monitoring efforts within the Basin to provide both a 
        coarse resolution assessment of the nutrient contribution of 
        various sub-basins and a high resolution modeling technique in 
        these smaller watersheds to identify additional management 
        actions to help mitigate nitrogen losses to the Gulf, and 
        nutrient loadings to local waters, based on the interim 
        guidance established by the National Water Quality Monitoring 
        Council;

Status: The USGS has focused water-quality monitoring in the 
Mississippi River Basin conducted by the USGS National Stream Quality 
Accounting Network (NASQAN) on addressing monitoring needs identified 
in the Monitoring, Modeling and Research Strategy. NASQAN collects 
water-quality data at a sufficient frequency and with suitable 
protocols for calculation of nutrient loads, information essential for 
understanding how nutrient sources affect receiving waters including 
the Gulf of Mexico. NASQAN monitoring will focus on the level 1 and 
level 2 (of 4 levels) monitoring requirements identified in the 
Monitoring, Modeling and Research Strategy. (Level 1 monitoring 
estimates loads near the downstream ends of the entire Mississippi and 
Atchafalaya River Basin, and level 2 monitoring estimates loads at the 
downstream end of the major Sub-Basins.) The USGS has tested 
alternative monitoring approaches to provide improved resolution of 
temporal changes in nutrient loads entering the Gulf of Mexico-
information essential to models that relate hypoxic zone size to 
nutrient inputs.
    The USGS also has undertaken pilot surveys with selected States to 
evaluate potential synergies from augmenting existing State water-
quality monitoring stations to help satisfy the requirements for 
monitoring loads at representative watersheds (monitoring-level 3 
watersheds, within Sub-Basins). USGS also has developed a system for 
serving nutrient load data on the Internet, and is modifying our normal 
water-year based schedule for releasing results so that information on 
nutrient loads entering the Gulf during the spring can be released 
before the summer hypoxic zone measurements, providing that information 
in a more timely manner to a range of researchers who are developing 
models to predict the size of the hypoxic zone.
    The USGS has developed and improved the SPARROW model for the 
Mississippi River Basin, which provides a means of extrapolating 
information from smaller watersheds to all watersheds of similar size 
throughout the Basin. This modeling approach used data from the 1980s 
and early 1990s to provide information on sources and distribution of 
loads throughout the Mississippi Basin and locations where loads from 
smaller upstream watersheds are most likely to reach the Gulf of 
Mexico. Currently, there are not sufficient nutrient-load monitoring 
stations on smaller watersheds to update this modeling approach to 
allow development of a high resolution modeling technique to guide 
management actions at that scale.

        #6 LBy Fall 2002, States, Tribes and Federal Agencies within 
        the Mississippi and Atchafalaya River Basin, using available 
        data and tools, local partnerships, and coordination through 
        sub-basin committees, described in #2 above, will develop 
        strategies for nutrient reduction. These strategies will 
        include setting reduction targets for nitrogen losses to 
        surface waters, establishing a baseline of existing efforts for 
        nutrient management, identifying opportunities to restore flood 
        plain wetlands (including restoration of river inflows) along 
        and adjacent to the Mississippi River, detailing needs for 
        additional assistance to meet their goals, and promoting 
        additional funding;

Status: Development of sub-basin nutrient reduction strategies is a 
principle goal of the Sub-Basin Committees. Several actions are being 
taken to make available the information that is most useful to sub-
basin committees for developing nutrient reduction strategies.
    The USEPA is working with the Sub-Basin Committees to develop 
Geographical Information System (GIS) tools to combine available 
information in map form to facilitate targeting management actions in 
areas where they will do the most good. The type of information that 
will be depicted includes nutrient loads for smaller watersheds (within 
each sub-basin), the location of possible wetland restoration sites, 
Clean Water Act Section 319 existing and proposed projects, and 
projects receiving Farm Bill funding. The GIS tool will be available 
for use by the Sub-Basins Committees for future planning.
    The USGS is monitoring at the mouth of each Sub-Basin, calculating 
annual loads and serving that data on the Internet in a timely manner. 
This information will provide a baseline of current nutrient loads and 
a means for each Sub-Basin Committee to evaluate temporal changes and 
the performance of their nutrient reduction strategies.
    The U.S. Army Corps of Engineers (COE) and the U.S. Fish and 
Wildlife Service (USFWS) jointly are leading the Task Force's 
Restoration Management Actions Workgroup; this workgroup will support 
development of nutrient reduction strategies through identification of 
opportunities to restore floodplains and wetlands.

        #7 LBy December 2002, the U.S. Army Corps of Engineers (COE), 
        in cooperation with States, Tribes, and other Federal agencies, 
        will, if authorized by the Congress and funded in the fall of 
        2001, complete a reconnaissance level study of potential 
        nutrient reduction actions that could be achieved by modifying 
        COE projects or project operations. Prior to completion of the 
        reconnaissance study, the COE will incorporate nitrogen 
        reduction considerations, not requiring major modification of 
        projects or project operations or significant new costs, into 
        all project implementation actions;

Status: The reconnaissance level study identified in this action item 
was neither authorized nor funded by Congress and did not take place. 
However, the COE Mississippi Valley Division is taking steps to 
incorporate nitrogen reduction considerations into a number of project 
planning and implementation actions. Of major importance in this regard 
is the ongoing work, being done in partnership with the State of 
Louisiana, to develop a large-scale project for restoration of 
Louisiana Coastal wetlands. Nutrient reduction will be a factor 
considered in planning for this work.

        #8 LBy January 2003, or on time frame established by the sub-
        basin committees, Clean Water Act permitting authorities within 
        the Mississippi and Atchafalaya River Basin will identify point 
        source dischargers with significant discharges of nutrients and 
        undertake steps to reduce those loadings, consistent with 
        action #6 above;

Status: The Task Force's Point Source Management Actions Workgroup, 
lead by the Louisiana Department of Environmental Quality and USEPA, 
has begun to identify significant point sources discharging into the 
Mississippi River and to develop alternatives for reducing their 
nutrient loads. This Workgroup currently is focusing on two major 
opportunities. The first opportunity is to promote expanded use of a 
technique developed and tested by the chemical company, BASF, in 
Louisiana, that resulted in significant reductions in their nitrogen 
discharge through an inexpensive modification of their wastewater 
treatment system. Other possible facilities with different waste 
streams are being identified for pilot testing. The second opportunity 
is to promote a system of nutrient trading within the Basin that 
facilitates achieving the most economical nutrient load reductions.

        #9 LBy Spring 2003, or on time frame established by the sub-
        basin committees, States and Tribes within the Mississippi and 
        Atchafalaya River Basin with support from Federal agencies, 
        will increase assistance to landowners for voluntary actions to 
        restore, enhance, or create wetlands and vegetative or forested 
        buffers along rivers and streams within priority watersheds 
        consistent with action #6 above.

Status: The USFWS Partners for Fish and Wildlife Program is providing 
cost share assistance to private landowners in a variety of projects 
designed to restore, create or enhance wetland and riparian habitats to 
benefit a variety of wildlife species and providing ancillary benefits 
in reducing nutrient content of runoff from these areas. In the USFWS 
Southeast and Northeast regions, at least 10,000 acres of wetlands and 
over 60 miles of riparian habitat have been restored, created or 
enhanced in the Mississippi River Basin since completion of the Action 
Plan in 2001.
    The U.S. Department of Agriculture (USDA) is providing assistance 
to benefit water-quality improvements in the Gulf of Mexico. Some 
recent efforts occurring in Texas and Louisiana include the following:

        <bullet> LLittle Cedar Bayou (Texas) Restoration--Restoration 
        of areas suffering from marshland subsidence and erosion has 
        occurred through trapping of sediment and vegetating barren 
        areas using adaptive wetland species.

        <bullet> LCarbon Sequestration--Work in cooperation with 
        several industry groups involves the planning for the 
        sequestration of large quantities of carbon using Tall Grass 
        Prairie species.

        <bullet> LGalveston Bay Estuary Program--Several projects to 
        help mitigate nutrient enrichment and eutrophication of the 
        Estuary through wetlands construction for nonpoint source 
        pollution control.

        <bullet> LHabitat Restoration--Exploring ways to restore large 
        areas of coastal emergent marsh wetlands for the Gulf Coast.

    Additionally, through the 2002 Farm Bill, conservation programs 
have received increased funding which will be employed to accelerate 
the voluntary participation of private landowners in implementing 
resource conservation activities. Many of these activities include 
wetland restoration, enhancement and creation, and address nutrient 
runoff from agricultural nonpoint source areas by developing buffers 
along rivers and streams. Efforts also continue to identify the most 
effective and feasible conservation practices to reduce nitrogen 
loadings from nonpoint sources and to help landowners implement 
solutions derived from locally led efforts throughout the Mississippi 
River Basin.

        #10 LBy Spring 2003, or on time frame established by the sub-
        basin committees, States and Tribes within the Mississippi and 
        Atchafalaya River Basin, with support from Federal agencies, 
        will increase assistance to agricultural producers, other 
        landowners, and businesses for the voluntary implementation of 
        best management practices (BMPs), which are effective in 
        addressing loss of nitrogen to water bodies, consistent with 
        action #6 above; and

Status: The USDA supports many efforts throughout the Mississippi River 
Basin to assist private landowners to address water-quality concerns. 
In cooperation with its State and local conservation partners, USDA has 
for many decades used a multi-program, locally led approach in helping 
landowners to address agricultural and silvicultural resource concerns 
in the Basin. Each day, USDA's local and State staffs are working with 
farmers, ranchers, and other landowners in planning and implementing 
conservation practices and systems that reduce the flow of nutrients 
and sediment to streams and rivers in the Basin. Recent data indicates 
over 70 percent of the total funds of the most widely used USDA 
conservation programs authorized in the 1996 Farm Bill were expended in 
the 31 Mississippi River Basin States for conservation activities.
    In addition to the technical and financial assistance through 
conservation programs, USDA is involved in other conservation 
initiatives that address nutrient enrichment concerns in the Gulf of 
Mexico. Two examples include:

        <bullet> LThe Lower Mississippi Valley Initiative (LMVI) was 
        developed by the conservation districts of Arkansas, Kentucky, 
        Louisiana, Mississippi, Missouri, and Tennessee in consultation 
        with State and local partners. The LMVI's objectives are to 
        increase public awareness of the importance of agriculture, 
        produce strategies to reduce agricultural runoff, and assess 
        the effects of implemented conservation practices.

        <bullet> LThe Mississippi River Stewardship Initiative (MRSI) 
        is a public-private partnership to reduce sediment and nutrient 
        loss in the Upper Mississippi River Basin. Its objectives are 
        to identify major sources of sediments and nutrients, increase 
        and target financial and technical assistance, develop new 
        solutions, create a basin-wide monitoring network, and provide 
        outreach and coordination.

    The USDA can provide additional information on these activities. 
The 2002 Farm Bill conservation provisions are the foundation for 
USDA's continuing efforts on nutrient management in the Mississippi 
River Basin.

        #11 LBy December 2005 and every five years thereafter, the Task 
        Force will assess the nutrient load reductions achieved and the 
        response of the hypoxic zone, water quality throughout the 
        Basin, and economic and social effects. Based on this 
        assessment, the Task Force will determine appropriate actions 
        to continue to implement this strategy or, if necessary, revise 
        the strategy.

Status: This action is pending. The USGS plans to conduct a re-
evaluation of the sources and loads of nutrients within the watersheds 
of the Mississippi River Basin. This analysis, however, will not have 
the same resolution as the baseline (1980-1996) analysis conducted 
during 1998-99 as part of the science assessment mandated by the 
Harmful Algal Bloom Hypoxia Research and Control Act (HABHRCA) of 1998. 
Fewer monitoring stations currently are being operated within the 
Mississippi and Atchafalaya Basin than during the baseline period.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    Biography for Donald M. Anderson
Senior Scientist, Biology Department, Woods Hole Oceanographic 
        Institution, Woods Hole, Massachusetts 02543

B.S., Mechanical Engineering, Massachusetts Institute of Technology, 
        1970
M.S., Civil Engineering, Massachusetts Institute of Technology, 1976
Ph.D., Aquatic Sciences, Department of Civil Engineering, Massachusetts 
        Institute of Technology, 1977
Senior Scientist, Woods Hole Oceanographic Institution, 1991-present
Associate Scientist, Woods Hole Oceanographic Institution, 1983-1991; 
        tenure 1987
Assistant Scientist, Woods Hole Oceanographic Institution, 1979-1983
Postdoctoral Investigator, Woods Hole Oceanographic Institution, 1978-
        1979
Instructor, Massachusetts Institute of Technology Department of Civil 
        Engineering, 1978

PROFESSIONAL SOCIETIES:

American Society of Limnology and Oceanography
Phycological Society of America
International Society for the Study of Harmful Algae

SELECTED NATIONAL AND INTERNATIONAL COMMITTEES, WORKSHOPS, AND 
                    DISTINCTIONS:

Recipient, Stanley W. Watson Chair for Excellence in Oceanography, 1993
Recipient, NOAA Environmental Hero Award (1999)
Director, NATO Advanced Study Institute on the Physiological Ecology of 
        Harmful Algal Blooms, Bermuda, 1996
Chairman, SCOR Working Group on Harmful Algal Blooms (1992-1996)
Director, U.S. National Office on Marine Biotoxins and Harmful Algal 
        Blooms (1993-present)
Scientific Advisor, U.S. Delegation to the IOC/FAO Intergovernmental 
        Panel on Harmful Algal Blooms (1992-present)
Fellow, Cooperative Institute for Climate and Ocean Research (CICOR), a 
        Joint Institute of the Woods Hole Oceanographic Institution and 
        the National Oceanic and Atmospheric Administration (1999-
        present)
Member, Scientific Steering Committee, GEOHAB (The Global Ecology and 
        Oceanography of Harmful Algal Blooms) (1998-present)
Member, NRC Committee on the Causes and Management of Coastal 
        Eutrophication
International Organizing Committee, Toxic Marine Phytoplankton 
        Conferences (1989-present)
Testimony before the Subcommittee on Oceans and Fisheries of the 
        Committee on Commerce, Science, and Transportation, United 
        States Senate 105th Congress, Second Session, May 20, 1998
Testimony for U.S. Commission on Ocean Policy, 2002; prepared White 
        Paper on Harmful Algal Blooms for inclusion in the Commission's 
        report ``Oceans and Human Health''
Chairman, Ad Hoc Group of Experts on Harmful Algal Blooms, 
        Intergovernmental Oceanographic Commission (1989)
U.S. Representative, Working Group on Phytoplankton and Management of 
        their Impacts, International Council for Exploration of the 
        Seas (ICES) (1989-present)
U.S. Representative, WESTPAC Task Team on Red Tides, Intergovernmental 
        Oceanographic Commission (1985-present)
Mission Leader, United Nations Development Program, ``Regional 
        Collaborative Scientific Programme on Marine Resource 
        Development and Management in Southeast Asia,'' (April 1990)
Instructor, Red tide training program, Brazil. April 1979. World Health 
        Organization
Member, PICES Working Group #15, Ecology of Harmful Algal Blooms (1999-
        present)
Editorial Board: Protist (1999-present)
Advisory Committee Member, Hong Kong University of Science and 
        Technology, School of Science (2002-2003)
Academic Consultant for the Key Laboratory of Marine Ecology and 
        Environmental Sciences, Institute of Oceanology, Chinese 
        Academy of Sciences (2002-2007).

PATENTS:

Genetic markers and methods of identifying Alexandrium (Dinophyceae) 
        species. U.S. Patent No. 5,582,983. 12/10/96

SELECTED PUBLICATIONS AND REPORTS:

1993 LAnderson, D.M., S.B. Galloway, and J.D. Joseph. Marine Biotoxins 
and Harmful Algae: A National Plan. Woods Hole Oceanographic Inst. 
Tech. Rept. WHOI-93-02. Report of the ICES/IOC Study Group on the 
Dynamics of Harmful Algal Blooms.
1994 LAnderson, D.M. Red tides. Scientific American 271:52-58.
1995 LAnderson, D.M. Toxic red tides and harmful algal blooms: A 
practical challenge in coastal oceanography. U.S. National Report to 
the ILJGG American Geophysical Union, pp. 1189-1200.
1995 LAnderson, D.M. ECOHAB--The Ecology and Oceanography of Harmful 
Algal Blooms: A National Research Agenda. Woods Hole Oceanographic 
Institution, Woods Hole, MA. 66 pp.
1995 LAnderson, D.M. Identification of harmful algal species using 
molecular probes: an emerging perspective. In: Harmful Marine Algal 
Blooms, Lassus, P., G. Arzul, E. Erard, P. Gentien, C. Marcaillou 
(eds.), Technique et Documentation--Lavoisier, Intercept Ltd., pp. 3-
13.
1997 LAnderson, D.M. Bloom dynamics of toxic Alexandrium species in the 
northeastern United States. Limnol. & Oceanogr. 42:1009-1022.
1997 LAnderson, D.M. Turning back the harmful red tide. Nature 388:513-
514.
1997 LBoesch, D.F., D.M. Anderson, R.A. Homer, S.E. Shumway, P.A. 
Tester, T.E. Whitledge. Harmful Algal Blooms in Coastal Waters: Options 
for Prevention, Control and Mitigation. Science for Solutions. NOAA 
Coastal Ocean Program, Decision Analysis Series No. 10, Special Joint 
Report with the National Fish and Wildlife Foundation.
1998 LLuttenberg, D., D. Anderson, K. Sellner, and D. Turgeon. National 
Assessment of Harmful Algal Blooms in U.S. Waters. National Science and 
Technology Council Committee on Environment and Natural Resources. 38 
pp.
1998 LTurgeon, D.D., K.G. Sellner, D. Scavia, and D.M. Anderson. Status 
of U.S. Harmful Algal Blooms: Progress Towards a National Program. 
NOAA, U.S. Department of Commerce, 22+ pages.
1998 LAnderson, D.M. Physiology and bloom dynamics of toxic Alexandrium 
species, with emphasis on life cycle transitions. pp. 29-48, in: The 
Physiological Ecology of Harmful Algal Blooms, Anderson, D.M., A.D. 
Cembella and G.M. Hallegraeff [Eds.], Springer Verlag, Heidelberg.
1999 LAnderson, D.M., Kulis, D.M., Keafer, B.A., and Berdalet, E. 
Detection of the toxic dinoflagellate Alexandrium fundyense 
(Dinophyceae) with oligonucleotide and antibody probes: variability in 
labeling intensity with physiological condition. J. Phycol. 35: 870-
883.
2000 LTurner, J.T., G.J. Doucette, C.L. Powell, D.M. Kulis, B.A. 
Keafer, and D.M. Anderson. Accumulation of red tide toxins in larger 
size fractions of zooplankton assemblages from Massachusetts Bay, USA. 
Mar. Ecol. Prog. Ser. 203:95-107.
2000 LAnderson, D.M., P. Hoagland, Y. Kaoru, and A.W. White. Estimated 
Annual Economic Impacts from Harmful Algal Blooms (HABs) in the United 
States. Woods Hole Oceanographic Inst. Tech. Rept., WHOI 2000-11. (99 
pp)
2001 LAnderson, D.M. Phytoplankton blooms. pp. 2179-2192, in: Steele, 
J. S. Thorpe, and K. Turekia (Eds.), Encyclopedia of Ocean Sciences. 
Academic Press, Ltd., London, U.K.
2001 LCammen, L., D.M. Anderson, and Q. Dortch. Prevention, Control and 
Mitigation of Harmful Algal Blooms: A Research Plan. Report for 
Congress, National Sea Grant College Program, National Oceanic and 
Atmospheric Administration, Silver Spring, MD. 24 pp.
2002 LAnderson, D.M., P.M. Glibert, and J.M. Burkholder. Harmful algal 
blooms and eutrophication: Nutrient sources, composition, and 
consequences. Estuaries 25(4b): 562-584.
2002 LHoagland, P., D.M. Anderson, Y. Kaoru, and A.W. White. Average 
annual economic impacts of harmful algal blooms in the United States: 
some preliminary estimates. Estuaries 25(4b):677-695.

    In addition to the above list, Dr. Anderson is author or co-author 
of over 150 other publications and 7 books.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions
Responses by Donald M. Anderson, Senior Scientist, Department of 
        Biology, Woods Hole Oceanographic Institution

    Following my testimony before your subcommittee at the hearing on 
Harmful Algal Blooms and Hypoxia: Strengthening the Science, I was 
asked to respond to several questions. Those questions and my written 
responses are given below. First, however, I would like to offer one 
comment on the legislation you are seeking to reauthorize. One concern 
I have about the present state of NOAA funding for HABs is that NOAA 
has repeatedly taken funds intended for competitive, peer reviewed 
extra mural programs and used those funds to address internal needs. In 
fact, this is happening again in the FY03 appropriations related to 
harmful algal blooms, in that NOS is seeking to use over 1/3 of this 
year's ECOHAB new start funds to support a NOAA laboratory in Beaufort, 
NC. This not only diminishes NOAA's ability to access the expertise and 
experience of the academic community in addressing specific issues like 
HABs and hypoxia, but makes the partnership between NOAA and the 
external community unstable and unpredictable. Efforts to expand the 
marine HAB program to include freshwater cyanobacterial blooms in the 
Great Lakes will obviously be much more difficult with the small pool 
of funds remaining this year. If there are ways in this bill or 
otherwise to prevent NOAA from reallocating targeted funds to meet 
internal needs, it would serve the broader community well.
    Now, the questions I was asked, and my responses follow. I want to 
acknowledge assistance from Drs. Patricia Glibert, Wayne Carmichael, 
and John Heisler in these responses.

Q1. LFor many years NSF has funded work on nutrient cycling, 
biogeochemistry and eutrophication in freshwater systems. Through past 
NSF research and the work at the Northern Temperate Lakes Long-Term 
Ecological Research site, don't we actually know quite a bit about the 
relationship between nutrient inputs and algal blooms in freshwater 
systems?

A1. Yes, we have learned a great deal about the linkages between 
nutrients and algal blooms, but that does not mean we fully understand 
the role nutrients play in toxic blooms, or the bloom dynamics that 
might occur in massive systems such as the Great Lakes. The only LTER 
in the Great Lakes region is in Wisconsin, studying Lakes Mendota, 
Monona, etc. near Madison, and some small lakes in northern Wisconsin. 
The largest lake under study is Lake Mendota, (39.2 km<SUP>2</SUP>2 
surface area) compared to Lake Erie at 25,820 and Lake Michigan at 
57,850 km<SUP>2</SUP>2. One could therefore argue that the physical and 
biological processes involved in the Great Lakes are not adequately 
sampled by LTER work in Lake Mendota, as it is 1000 times smaller.
    In addition, NSF Ecology/Ecosystems has, traditionally, funded 
freshwater limnological work that has included HABs. However few if any 
projects have been exclusively on HABs. As is true for marine HABs, 
most would argue that it is very difficult (and potentially misleading) 
to draw generalizations about toxic blooms from observations made on 
other species. In the marine realm, we know that coastal eutrophication 
leads to increased algal biomass, but that increased biomass does not 
necessarily lead to a harmful algal bloom in the sense of a toxin 
producing species. For example, the brown tides that devastated the 
scallop fisheries on Long Island seemed to start when the nutrient 
inputs to LI bays were reduced. Similarly, in freshwater systems, we 
know there is a link between nutrient input and cyanobacterial blooms, 
but nutrient increases do not necessarily result in toxic blooms. Lake 
Erie was heavily ``polluted'' with nutrients in the 1960s and 1970s, 
but those years were not associated with massive toxic blooms. Lake 
Onondaga in Syracuse receives discharge form the metro sewage treatment 
plant and is hypereutrophic, yet microcystin (a cyanobacterial toxin) 
levels are very low. In contrast, nearby Oneida Lake has lower nutrient 
inputs but much higher microcystin levels. Obviously, cyanobacterial 
HABs are not simply due to high nutrient levels and other factors are 
needed to explain a species' dominance, including its toxicity.
    This is perhaps a situation where we should be careful not to 
blindly accept past findings or broad generalizations as dogma. The 
limitation of primary production in lakes by phosphorus availability is 
a central tenet of modern day Great Lakes limnology, yet, exceptions to 
this are common. Likewise, we should not be too quick to assume that 
all algae and cyanobacteria respond similarly to nutrient enrichments.

Q2. LHow should an expansion of the HAB and hypoxia research programs 
at NOAA to freshwater systems be designed to complement on-going 
research on freshwater systems through NSF's program?

A2. The ideal approach here would be to establish a program analogous 
to the ECOHAB program, or to proceed directly through the ECOHAB 
program, which is already a partnership between NOAA and NSF, though it 
presently focuses predominantly (but not exclusively) on marine HABs. A 
framework for cooperation thus exists between NSF and NOAA on HAB 
issues, and only needs to be expanded to facilitate the transfer of 
information on the types of projects that are or have been funded by 
each agency, and to coordinate future funding decisions. In this 
instance, a different NSF division might need to become involved, as 
the present partnership is with the NSF Biological Oceanography 
program, given the marine HAB focus of ECOHAB.
    Another consideration is the type of research grant that is 
awarded. I believe it would be a mistake to tie freshwater HAB funding 
to LTER programs, and foresee more productivity from individual 
investigator or team grants lasting 3-5 years each, and focusing 
exclusively on HABs and the factors that regulate their occurrence. 
There is much to be gained from multi-investigator, multi-disciplinary 
projects similar to the regional research programs funded by ECOHAB. 
Freshwater HABs, like marine HABs, require research teams with 
expertise in organismal biology, physiology, ecology, grazing dynamics, 
hydrodynamics, water chemistry, and numerical modeling, to name just a 
few. Other than for LTERs, which address far broader issues than just 
HABs, this multidisciplinary approach has not been attempted on the 
smaller scale freshwater issues studied to date.

Q3. LWhat more do we need to know about the causes of HABs in 
freshwater to begin addressing the problem in these systems?

A3. A number of issues still must be resolved before effective 
management of freshwater systems impacted by HABs can be achieved. Here 
I highlight a few key questions for further study, but a more 
comprehensive list of priority topics should be generated through 
community workshops such as the one convened to develop the science 
plan for ECOHAB.

        1. LWhy do specific strains of phytoplankton bloom in some 
        situations and not in others? What determines the community 
        composition or structure among different cyanobacterial 
        species?

                LThere is no doubt an influence of nutrients on 
                cyanobacterial bloom dynamics, but there is no clear 
                answer in the literature as to whether it is total P, 
                Total N:P, or molar N:P that are the major factors. 
                Moreover, new work is suggesting that bioavailability 
                and chemical speciation, not simply concentration, are 
                the important parameters regulating bloom dynamics. 
                More work is clearly needed in this area.

        2. LHow do factors such as UV, viruses, trace elements, etc. 
        influence the onset of HAB events and their subsequent demise?

                LWhile some literature exists in these areas, there is 
                by no means sufficient understanding of these issues to 
                allow effective bloom management. In order to 
                understand the dynamics of a bloom event, information 
                on the mortality of the cells (grazing, viral lysis, UV 
                effects, etc.) is as critical as information on the 
                factors regulating bloom formation.

        3. LWhich cyanobacterial species produce toxins, what are the 
        chemical and pharmacological properties of those toxins, and 
        how do they affect freshwater ecosystems and threaten human 
        health?

                LCyanobacteria are prolific producers of secondary 
                metabolites of various types, and many of these are 
                toxic. Novel toxins undoubtedly remain undiscovered, 
                and others still need to be explored to understand the 
                environmental conditions that enhance or reduce 
                toxicity, as well as their ecosystem and human health 
                effects.

        4. LWhat parameters must be quantified to allow predictive 
        modeling of cyanobacterial blooms?

                LThere is at present minimal predictive capability for 
                cyanobacterial blooms using numerical models, yet there 
                is great management value in such models should they be 
                developed. Efforts are therefore needed to identify the 
                key biological, chemical, and physical variables that 
                must be parameterized and modeled for effective 
                predictive models of freshwater HABs.

    As I mentioned above, this is just a short list out of many 
research questions that remain unanswered for freshwater HABs.

Q4. LHow do the levels of funding available for freshwater systems 
through NSF's program compare to the levels of funding currently 
available for the HAB and hypoxia programs?

A4. This is not a question I can answer, as it would require knowledge 
of the many different types of NSF-sponsored freshwater research 
programs across several divisions (Ecology, Systematics, etc.). All I 
would point out is that virtually none of ongoing freshwater research 
at NSF focuses directly on HAB species.

Q5. LThe final recommendation in your written testimony is that we: 
``implement agriculture and land-use policies that reduce point and non 
point source pollution loadings to coastal waters.'' To what extent has 
the research done through the HAB program defined the reductions in 
loading that will be necessary to reduce the frequency and severity of 
these blooms in coastal regions?

A5. This question asks for a degree of quantitation that cannot yet be 
provided and which may never be possible in general terms. Many coastal 
managers would like to have HAB scientists define specific nutrient 
loading thresholds above which HABs may become significant concerns, 
and below which their watershed could function without harmful 
outbreaks. It is clear, however, that different HAB species respond 
differently to the same nutrient inputs, that the hydrodynamics of 
watersheds will alter dilution rates and thus the net effect of 
pollution loads, and that the complex interactions among co-occurring 
organisms in the water and sediments can have profound effects on the 
bloom dynamics of a particular species. Nutrient loadings that reduce 
the probability of a bloom of one HAB species in one location might 
still be high enough to support a different species in a different 
location. The best that we can provide at this stage are statements 
that highlight important concepts or linkages that are emerging, and 
that guide scientists and managers to the proper types of site-specific 
studies, which can then begin to provide specific nutrient loading 
recommendations. I'm sorry I cannot be more specific here, but such is 
the state of our knowledge after essentially only five years of study 
into the problem.
    During those five years, new insights have been gained into the 
relationships between nutrient loadings and a number of important U.S. 
HAB species. Much--if not all--of this research has been conducted 
under the auspices of the ECOHAB program. The following highlights some 
of the understanding that has been achieved:

        1. LFor some HAB species, new data has been obtained supporting 
        the relationship between nutrient loading and their outbreaks. 
        For example, in Chesapeake Bay, Pfiesteria spp. can be 
        correlated with specific sites receiving heavy agricultural 
        runoff. We cannot as yet specify the actual loadings that lead 
        to outbreaks, but the nutrient differences between sites where 
        outbreaks are frequent versus those where blooms seldom occur 
        will provide guidance in this regard. These types of 
        comparative analyses are ongoing in several locations, though 
        they are constrained by the lack of Pfiesteria blooms in recent 
        years. This underscores an important point--that even when 
        nutrients exceed a particular species' threshold, a bloom may 
        not occur.

        2. LNew data have been obtained demonstrating that the form of 
        nutrient supplied may impact the extent to which HAB species 
        may proliferate. Thus in addition to total nutrient load, the 
        chemical composition of that nutrient must be understood. 
        Accordingly, reductions in nutrient loading must take into 
        account how the reductions may impact the relative composition 
        of the nutrient pool, as the potential exists to worsen the 
        problem by altering nutrient ratios. One also needs to assess 
        the ability of the local HAB species to utilize different 
        nutrient sources. This requires site-specific studies.

        3. LSignificant understanding has been gained with regard to 
        the biology of specific HAB species, and how they respond to 
        nutrients under different environmental conditions. For 
        example, a species may have one response in cool water, and 
        another when the water is significantly warmer. Again, 
        knowledge of total nutrient load is not sufficient; rather, the 
        timing or seasonality of that load is also critical.

        4. LKnowledge has been obtained regarding the relative response 
        of specific HAB species to nutrients when other competing non-
        HAB species are present. Numerical models are under development 
        to further explore these dynamics. These models are being 
        developed for certain HAB species, and can be eventually 
        applied to other species, but only after they have been studied 
        to provide the quantitative data on which to base the model 
        (i.e., to parameterize them).

        5. LWe now have much better knowledge of the sediment as a 
        reservoir for HAB species that can respond to nutrient pulses 
        or other conditions.

    The above statements are largely based on experimental laboratory 
studies, and these are difficult to extrapolate to the conditions 
prevailing in coastal waters. In the U.S., there have been few 
opportunities to study and quantify the effects of specific nutrient 
(pollution) reductions on HAB proliferations in natural waters, as 
there are few U.S. cases in which such nutrient reductions have 
occurred. Such information would begin to provide the type of 
quantitative information on loading reductions requested by this 
question. There are, however, examples from elsewhere in the world 
(e.g., Black Sea, Seto Inland Sea, etc.) where such efforts have led to 
significant reductions in algal bloom incidence. The significant 
lessons from those studies are that:

        1. LAgricultural runoff can directly affect bloom magnitude and 
        frequency in coastal waters located far from the site where 
        fertilizers were applied. The trend is very worrisome, given 
        the projections for increased fertilizer usage for U.S. 
        agriculture in the immediate future.

        2. LReductions in both point- and non-point-source pollution 
        have resulted in decreases in HAB incidence. In the Seto Inland 
        Sea of Japan, for example, pollution reductions to 1/3 of 1974 
        levels eventually resulted in reductions in bloom frequency to 
        about 1/3 of the 1974 levels.

        3. LNutrient reductions may not lead to immediate reductions in 
        HABs, as ecosystems may be permanently altered and it is not 
        always possible to return to the biological communities that 
        prevailed when waters were cleaner.

        4. LDifferent degrees of success are likely with different HAB 
        species and with different environments, depending on the 
        degree of nutrient loading, the individual biology of the HAB 
        species, and other factors.

        5. LSediments may retain nutrients for long periods of time. 
        Therefore, long time scales may be involved to remove all the 
        nutrients from particular ecosystems.

    The HAB community recognizes the need to offer more specifics to 
those desiring to define acceptable nutrient loading thresholds, but 
also recognizes that this will require focused research that builds 
from the base established by ECOHAB. This would logically fall under a 
program on HAB Prevention, Control, and Mitigation, as proposed in your 
legislation. A recent scientific conference sponsored by the EPA began 
the process of examining HAB events throughout the U.S. to identify the 
linkages between HABs and nutrients, and to identify the key issues 
that need to be addressed to provide useful information to managers. As 
one participant put it, ``Most of the pieces of the puzzle are there--
now it's just a matter of putting them together.'' The EPA workshop was 
the first step in what is hoped will be a national effort to attack 
this question on both regional and site-specific bases. For the moment, 
HAB scientists and managers of impacted waters unanimously agreed to 
the following statements as the foundation for a new, coordinated 
effort on HABs and nutrients:

        LDegraded water quality from increased nutrient pollution 
        promotes the development and persistence of many HABs and is 
        one reason for their expansion in the U.S. and the world.

        LManagement of nutrient inputs to the water shed can lead to 
        significant reductions in HABs.

    These are admittedly general statements, but they represent a 
consensus, and will be used to drive science forward to provide the 
information the managers need.
    I hope these responses adequately address your concerns.
                       Biography for Dan L. Ayres
    Dan L. Ayres is a Fish and Wildlife Biologist who leads the 
Washington Department of Fish and Wildlife's (WDFW) coastal shellfish 
unit based in Montesano and Willapa Bay. He manages Washington's razor 
clam fishery and oversees the unit's work managing the coastal 
Dungeness crab, pink shrimp and spot prawn fisheries, the Willapa Bay 
oyster reserves and research projects in Willapa Bay.
    Dan is a life-long resident of the coastal Washington area and 
began his career with WDFW in 1980. A University of Washington 
graduate, he belongs to the National Shellfisheries Association and the 
American Institute of Fishery Research Biologists.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions
Responses by Dan L. Ayres, Fish and Wildlife Biologist, Coastal 
        Shellfish Lead, Washington State Department of Fish and 
        Wildlife

Question submitted by Democratic Members

Q1. LThe current HAB and hypoxia program was supposed to do research on 
assessment, prevention, and control of HABs. Much of the work to date 
has focused on assessment. In the reauthorization how would you rank 
these broad areas of research in order of priority from the coastal 
community's perspective: continuing assessment work, developing and 
testing control methods, and developing and testing prevention 
strategies? What concerns do the fishing and recreational communities 
have regarding the development and implementation of control strategies 
for HABs?

A1. From the perspective of Washington State's coastal communities the 
most important areas of research, ranked in order of priority, are 
developing and testing control methods, followed by developing and 
testing prevention strategies, and finally, continuing assessment work.
    In our federally funded work\1\ here along the Washington coast our 
current strategy has focused on technologies that will provide an early 
warning of pending harmful algal bloom (HAB) events. This work has been 
successful in providing fishery managers, shellfish harvesters and 
communities that depend on that harvest, time to prepare for the 
fishery closures that result from HAB events. However, this strategy 
has not eliminated the economic disruption experienced by small coastal 
communities as a result of these fishery closures. The promise that 
comes with the notion of possible control and prevention strategies and 
the hope of ending the fishery closures associated with HAB events is 
very appealing to fishery users, community members and fishery managers 
alike. That said, it is also important to point out the concerns 
associated with such strategies. Everyone involved wants to be sure 
that as we move down the road toward possible control and prevention 
strategies that we don't ``cut off our nose to spite our face.'' Many 
of the same conditions that promote the growth of harmful algal blooms 
also promote the growth of beneficial algal blooms. These beneficial 
algae are critical to the very survival of the shellfish species that 
are so important to these coastal communities. Razor clams are filter 
feeders; and their primary food source is the community of surf zone 
algae.\2\ Any control or prevention measure that negatively affects the 
health of this algal community would be devastating to the large 
populations of razor clams on the Washington coast. In addition, the 
multi-million dollar commercial aquaculture industries found in the 
coastal estuaries of Willapa Bay and Grays Harbor could also be heavily 
impacted by anything that negatively effects the beneficial algal 
blooms the shellfish (oysters and hardshell clams) they raise depend 
on. Any future research into control and prevention strategies of 
harmful algal blooms must be designed to carefully assess any 
unintended secondary impacts before such strategies are implemented.
---------------------------------------------------------------------------
    \1\ Since the summer of 2000, Washington State Department of Fish 
and Wildlife has been the recipient of a grant from NOAA Centers for 
Coastal Ocean Science MERHAB (Monitoring and Event Response for Harmful 
Algal Blooms) Program.
    \2\ The primary component of the razor clam diet is the surf zone 
diatom Asterionellopsis socialis.

---------------------------------------------------------------------------
Questions submitted by Representative Brian Baird

Q1. LMr. Ayres, in your experience, is there a need for interaction 
between the research community and local and state managers? Could you 
provide some examples of what has worked in Washington State and what 
problems you have encountered?

A1. Washington Department of Fish and Wildlife (WDFW) coastal shellfish 
managers have long enjoyed excellent interaction with federal and 
university HAB researchers. This has allowed us to work together 
throughout a research project, from the design phase to completion. A 
good example of this was a project we worked on in 1999 with NOAA-
Fisheries researchers from the Northwest Fishery Science Center (NWFSC) 
in Seattle, Washington. As the fishery managers, we had questions about 
the variance in biotoxin levels in razor clams found at different tidal 
heights along the Washington coast; and what was the best razor clam 
sample size when trying to monitor biotoxin levels. Together we 
designed a study to try to answer these questions. WDFW staff was 
responsible for the field collection of specimens and NWFSC researchers 
analyzed those specimens. We collaborated on the documentation of the 
results of this research and jointly produced an article published in 
the refereed journal, Harmful Algae.\3\ Also, as a direct result of 
this collaborative research, WDFW has increased the minimum sample size 
for razor clam samples collected to monitor biotoxin levels.
---------------------------------------------------------------------------
    \3\ Wekell, J.C., Trainer, V.L., D. Ayres, D. Simons 2002. A study 
of spatial variability of domoic acid in razor clams: recommendations 
for resource management on the Washington Coast. Harmful Algae 1, 35-
43.

Q2. LMr. Ayres, Washington State has done an excellent job in 
monitoring harmful algal blooms and managing fisheries when they are 
impacted. What can we do proactively to reduce the number and intensity 
of harmful algal blooms? What can we do to increase the relevance of 
---------------------------------------------------------------------------
research on harmful algal blooms?

A2. To actually reduce the number and intensity of harmful algal blooms 
will require much more research into the environmental forces that are 
driving these events. Some of these forces are totally out of the 
control of human intervention. Others, with enough understanding, may 
have some promise of being altered. For example, researchers have 
learned that a ``initiation site'' (along the coast of Washington 
State) for domoic acid-producing algae (the diatom species 
Pseudonitzschia) may exist in an oceanographic feature termed the 
``Juan de Fuca Eddy'' \4\ (also know as the ``Tully Eddy'') that forms 
each summer at the mouth of the Strait of Juan de Fuca. With additional 
research,\5\ it may be possible to link to the growth of these Pseudo-
nitzschia blooms with the levels of nutrients coming out of the heavily 
populated areas of Puget Sound and Georgia Basin. (Recent research by 
NOAA-Fisheries scientists has drawn a correlation between Puget Sound 
region human population growth and increases in HAB events.\6\ )
---------------------------------------------------------------------------
    \4\ Trainer, V.L., R. Homer and B.M. Hickey (2002) Biological and 
physical dynamics of domoic acid production off the Washington USA 
coast, Journal of Phycology, in press.
    \5\ Links to news reports: http://seattlepi.nwsource.com/local/
84936<INF>-</INF>toxics30.shtml; also http://www.nwfsc.noaa.gov/
r137<INF>-</INF>toxins.htm
    \6\ Link to news report: http://seattlepi.nwsource.com/local/
117413<INF>-</INF>redtide14.html
---------------------------------------------------------------------------
    Finally, the best way to increase the relevance of research on 
harmful algal blooms (HAB) is to tie that research as closely as 
possible to the management of the resources affected by HAB events. 
This can be accomplished by having representative state; tribal and 
local fishery and health managers sit (and speak with an equal voice) 
on the Interagency Task Force on Harmful Algal Blooms and other similar 
bodies that are making decisions on when and how research funds are 
spent.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

                   Statement of Dr. Robert E. Magnien
Director, Tidewater Ecosystem Assessment Division, Maryland Department 
        of Natural Resources

    On behalf of the State of Maryland, I would like to thank Chairman 
Ehlers and the Members of the Subcommittee for requesting this written 
testimony for the hearing entitled ``Harmful Algal Blooms and Hypoxia: 
Strengthening the Science.'' I have responded to each of the questions 
asked and concluded with comments on the draft bill ``Harmful Algal 
Bloom and Hypoxia Research Amendments Act of 2003.''

1. LWhat kind of activities does the state of Maryland undertake to 
monitor for HABs? How does the state respond when it detects an HAB 
event?

    Over the past several years, Maryland has had to contend with 
several different types of Harmful Algal Blooms (HABs) in diverse 
locations and throughout much of the year. We have built much of our 
HAB monitoring upon existing comprehensive monitoring programs and 
extended them in various ways depending upon the nature of the HAB 
threat. Some of the additional HAB-related monitoring has become a 
regular feature of our ongoing monitoring programs. By coordinating the 
HAB monitoring with existing monitoring programs such as those for 
water quality, not only are efficiencies gained but the combined, more 
comprehensive, information is often very useful for determining likely 
causes and consequences of the bloom events. When an event occurs, 
however, additional resources must be brought to bear and the response 
tailored to the particular HAB threat. Because of the unique nature of 
many bloom events and the needed response, several representative HAB 
events are reviewed below to provide a more detailed understanding of 
how Maryland is monitoring and responding to HAB events.
    The Maryland Department of Natural Resources (DNR) screens 41 
stations in the Chesapeake and Atlantic Coastal Bays and their tidal 
tributaries on a monthly to twice-monthly basis for the presence of 
potentially harmful algal species using standard microscopic 
techniques. If harmful algal species are detected in high numbers, 
additional samples may be taken to determine the extent of the 
potentially harmful bloom and samples may be sent to research 
laboratories for specialized analyses of toxins. An example of such an 
event occurred in the late winter--early spring of 2002. A rare, but 
potentially toxic species (Dinophysis accuminata), was detected through 
the screening-level monitoring at high densities in the lower Potomac 
River, an area of shellfish harvesting at the time. Crews were sent out 
to secure additional samples to determine the extent of the bloom and 
some of these samples were also sent to the Food and Drug 
Administration for toxin testing. The shellfish harvesting was 
suspended by Maryland as a precaution until the toxin testing could be 
completed. Toxin was found in the algae but shellfish were determined 
to be safe for consumption and the waters were re-opened for 
harvesting. This response is a good example of the interagency 
cooperation that needs to occur during many HAB events. The DNR first 
detected the bloom and assisted the Departments of Environment and 
Health in their determination of shellfish safety while also working 
with federal and academic laboratories to understand this unique 
occurrence. Virginia officials were also notified and they also found 
high densities of the HAB species in their tributaries to the lower 
Potomac River. This event is also a good example of the speed with 
which an investigation must be carried out because of human health 
concerns and the ephemeral nature of many bloom events.
    During the summers of 2000 and 2001, we experienced high density 
cyanobacterial (blue-green algae) blooms in the freshwater upper 
Chesapeake Bay and its tributaries. These are very visible as bright 
green scums on the water surface and were reported to the DNR by 
citizens as well as our monitoring crews. Involved state and local 
government agencies were notified by DNR and additional sampling was 
conducted and samples were sent to a research laboratory for toxin 
testing. These tests revealed the presence of toxins and the local 
health department closed swimming beaches in the affected areas. HABs 
in these freshwater areas will receive increased attention in the 
amended Act.
    In Maryland's Atlantic Coastal Bays there are two types of harmful 
algae which have caused concern for their potential to cause serious 
ecological damage. A brown tide bloom organism which has devastated the 
scallop fishery and bay grasses on Long Island has reached harmful 
bloom levels almost every year since monitoring started in Maryland 
four years ago. Macroalgae, algae that form seaweed-like aggregates 
have also reached bloom levels in this region and threaten to smother 
bay grass beds and other habitats. For both of these blooms, Maryland 
has instituted special monitoring efforts in conjunction with 
researchers along the East Coast to better understand causes and 
impacts.
    In Maryland's work on the many HAB species in the Chesapeake and 
Atlantic Coastal Bays, it has become clear that additional monitoring 
and research is needed for states to adequately detect, understand 
impacts, and take appropriate measures to protect human health and 
environmental damage.

2. LWhat new technologies would improve your ability to predict and 
respond to HABs? How would you utilize such technologies on a day-to-
day basis?

    Largely through assistance that NOAA has provided under the 
existing Harmful Algal Bloom and Hypoxia Research and Control Act of 
1998, Maryland has already been able to employ new technologies in its 
HAB monitoring programs. The Act has supported research to produce 
genetic probes that can quickly identify HAB species that may not be 
amenable to traditional techniques. This is the case for Pfiesteria 
which can take two weeks or more to identify with conventional labor 
intensive techniques. Genetic probes can accomplish this task at a 
small fraction of the cost in a matter of hours. Since 1999, Maryland 
has employed the genetic probe for Pfiesteria for routine screening of 
waterbodies and in response to potential outbreaks.
    It would be particularly helpful to Maryland if probes could be 
developed for additional HAB species that are difficult to identify 
through traditional techniques. Another critical need is the ability to 
rapidly identify the presence of algal toxins in environmental samples. 
At this time, it takes days to weeks in order to obtain results from 
specialized laboratories and, in some cases, no analytical techniques 
exist to determine whether or not a toxin is present. In situations 
where potentially toxic species are present, Maryland would certainly 
utilize these tests in order to determine whether any threat to public 
safety existed. Ideally these tests would be relatively inexpensive and 
provide results in the field within a matter of minutes.
    Another technology that Maryland DNR has started to use in 
predicting and responding to HABs is that of remotely-deployed, 
continuously-sampling instruments that transmit data in real-time to 
our offices. The implementation of these technologies was supported by 
NOAA funds granted under the original Act. These instruments 
continuously monitor conditions that either directly or indirectly 
indicate that an HAB event is imminent or actually underway. This 
knowledge, obtained in real-time through wireless data transmission has 
been invaluable in responding proactively to HAB events and offers even 
greater promise in the future if linked to a real-time modeling and 
prediction system which should now be feasible with recently developed 
modeling and data assimilation techniques; this would be a system 
analogous to current weather models that assimilate data from 
continuously-sampling weather instruments. These new technologies have 
also been extremely valuable in revealing previously unknown 
environmental impacts from HABs in many areas such as transient severe 
low dissolved oxygen events that cause fish and shellfish kills. An 
expansion of this network to the many tributaries of the Chesapeake and 
Coastal Bays would be invaluable to our ability to more cost-
effectively manage HABs. With the new technology, we are also able to 
make this information available over the Internet so that all affected 
and interested parties can have access to these data. We have started 
this access through a DNR web site accessible at www.eyesonthebay.net.

3. LTo what extent have federal programs assisted you in monitoring for 
and responding to HABs?

    The primary source of federal funding to Maryland for HAB-related 
monitoring has been from NOAA. This funding first became available to 
assist the state during the HAB outbreak experienced in the Chesapeake 
Bay in 1997 and has assisted in monitoring for this organism until 
recently. NOAA has also supported monitoring by state agencies and 
researchers in Maryland utilizing new technologies that are allowing us 
to better understand the factors contributing to blooms and also their 
impacts. This monitoring has revealed that there are widespread non-
toxic harmful algal blooms in the shallow waters of Chesapeake Bay 
tidal tributaries. These blooms are producing daily excursions of 
dissolved oxygen that often drop to lethal levels, causing fish kills. 
Prior to monitoring with these new technologies, this phenomenon was 
poorly understood and greatly underestimated in Chesapeake Bay.
    As described in the answer to the previous question, NOAA HAB 
funding for research throughout the mid-Atlantic region has also 
benefited Maryland through the development of tools and techniques that 
are critical to our ability to effectively monitor certain HAB species.

Comments on the draft bill ``Harmful Algal Bloom and Hypoxia Research 
Amendments Act of 2003''

    Overall, the draft reauthorization bill effectively brings the 
original Act up to date by examining issues not specifically addressed 
in the first Act (freshwater HABs), examining prevention, control and 
mitigation methods, updating the examination of hypoxia in U.S. coastal 
waters, and providing for local and regional assessments. It also 
provides modest, but critically needed, additional funding for a 
growing problem that impacts almost all of U.S. coastal waters to some 
degree. The State of Maryland is fully supportive of these changes and 
believes that they will strengthen the protection of coastal waters 
nationwide.
    A few minor comments that we would like to see addressed include:

Line 17: following ``Great Lakes'' insert ``and upper reaches of 
estuaries''

Line 22: following ``ecological'' insert ``, public health and 
recreational''

Line 19: shouldn't ``603(f)'' actually be ``603(e)''?
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
